<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 8, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:23 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senator Campbell.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY J. REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY JONES, ASSISTANT SECRETARY OF THE SENATE
        DIANE SKVARLA, SENATE CURATOR
        TIMOTHY S. WINEMAN, FINANCIAL CLERK OF THE SENATE

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will be in session.
    We have had a vote rescheduled two or three times. It was 
supposed to be at 1:15. I understand it is postponed again now, 
and I am not quite sure when we are going to have to go. But we 
are going to get started a little bit early and hopefully 
finish as much as we can. Senator Durbin was not sure if he was 
going to get here or not. So we will go as far as we can.
    We will first hear from Ms. Reynolds who is requesting 
roughly $20 million for her operations. Then we will also hear 
from the Architect of the Capitol a little bit later.
    Ms. Reynolds' request for the Secretary of the Senate is a 
decrease from the current year, something we obviously rarely 
see, due to the one-time appropriation last year for the 
Senate's financial management information system.
    Ms. Reynolds, your operation has responsibility for 
everything from Senate security to the Parliamentarian. We 
welcome you. This is your first hearing before this 
subcommittee. You certainly have a large deal on your plate not 
the least of which is helping to oversee the Capitol Visitor 
Center. We wish you well in your new task.
    Following you, we will take testimony from Mr. Alan Hantman 
on the Architect's fiscal year 2004 budget. The budget request 
totals $513.9 million, with three major projects leading to the 
increase: the purchase of the alternate computing facility; a 
project to replace high-voltage switchgear in a number of 
buildings; and the Capitol Building master plan design. Funding 
is also requested to complete the West Refrigeration Plant 
expansion.
    There are a number of items in this budget we will have 
some questions about, but I think what I am going to do is just 
put the rest of my opening statement in for the record so we 
can at least get started before we are called over there to 
vote.
    So, Emily, if you would like to go ahead. I appreciate your 
being here.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    The Subcommittee will come to order. We meet this afternoon 
to take testimony from the Secretary of the Senate, Emily 
Reynolds, and the Architect of the Capitol, on the fiscal year 
2004 budget requests. We welcome everyone here today.
    We will hear first from Ms. Reynolds, who is requesting 
roughly $20 million for her operations. This is actually a 
decrease below the current year--something we rarely see around 
here due to a one-time appropriation last year for the Senate's 
Financial Management Information System.
    Ms. Reynolds, your operation has responsibility for 
everything from Senate Security to the Parliamentarian. We 
welcome you to your first hearing before this Subcommittee. You 
have a great deal on your plate--not the least of which is 
helping to oversee the Capitol Visitor Center project for the 
Majority Leader and the Capitol Preservation Commission, and we 
wish you the best in your new role.
    Following Ms. Reynolds, we will take testimony from Alan 
Hantman on the Architect's fiscal year 2004 budget. The budget 
request totals $513.9 million with 3 major projects leading to 
the increase--the purchase of the alternate computing facility, 
a project to replace high-voltage switchgear in a number of 
buildings, and the Capitol Building Master Plan design. Funding 
is also requested to complete the West Refrigeration Plant 
expansion.
    There are a number of items in your budget we have 
questions with--such as whether we need to proceed with a 
Capitol Building Master Plan at this time, whether there has 
been sufficient plans for purchasing the alternate computing 
facility, and whether there are projects we can put off pending 
completion of the Capitol Visitor Center project and other 
major ongoing projects around this campus.
    Clearly we are interested in the status of the CVC, and 
your efforts to improve the management of your agency and 
follow-up on recommendations made by the General Accounting 
Office in the last year.
    I will turn to my ranking member, Senator Durbin, and then 
Ms. Reynolds will proceed with her opening statement.

    Ms. Reynolds. Thank you, Mr. Chairman. It is a pleasure to 
be with you this afternoon.
    As you know, we have a lengthy full statement prepared for 
the record as well.
    Senator Campbell. That will be included in the record.
    Ms. Reynolds. Thank you.
    But I would like to just give a brief overview this 
afternoon. With me is Mary Jones, our very able Assistant 
Secretary; Tim Wineman, who of course is a longtime fixture 
here in the Senate, our Financial Clerk; and a number of our 
very able department heads.
    I would be remiss also, Mr. Chairman, if I did not thank my 
predecessors in this job. As you know, I have been on the job 
about 4 months now as the 31st Secretary of the Senate, and it 
is a huge honor for me to serve in this capacity. Several of my 
predecessors have been a huge help to me in navigating these 
waters for the last few months, and I am very grateful for 
their counsel.

                            BUDGET OVERVIEW

    As you pointed out, our budget request this year is roughly 
$20 million, and thanks to the very generous appropriation last 
year on FMIS, that does take us to about a $4 million-plus 
decrease in this year's budget.
    The committee last year also appropriated $500,000 to us in 
some nonrecurring costs that will enable us to make this year 
some very badly needed, much needed technology upgrades. So 
overall, out of that roughly $20 million, $18 million is our 
salary cost. That will enable us to continue to attract and 
retain the very best individuals possible for our myriad of 
functions from the legislative to financial and our many 
administrative services.
    In addition, our operating budget will be about $1.7 
million. That will not only enable us to meet the bottom line 
needs of the Senate, the job that we perform every day, but 
also will help us to provide for some new initiatives, 
primarily for the curator and to continue to enhance our Senate 
Web site, both for our Senate community and the general public.

                            MANDATED SYSTEMS

    The two mandated systems that we have--and again, we have 
mentioned FMIS, the $5 million that you all provided us last 
year. On the financial management information side, our goal 
ultimately is to move to a paperless voucher system and also 
provide the Senate with the ability to prepare an auditable 
consolidated financial statement. At all times, one of the 
primary things we keep in mind for all of our offices here in 
the Senate is to increase efficiency and accountability and 
ease of use. So with those goals in mind, this year, with the 
$5 million in multi-year funds, we will roll out approximately 
seven either new releases or pilot projects within the FMIS 
activity. So we are making substantial progress.
    On the legislative information side, our second mandated 
system that this committee, once again, has been very generous 
in funding--and that was a $7 million no-year fund 
appropriation some 2 years ago--the LIS augmentation project 
will give us the ability, our entire Senate community over 
time, to implement Extensible Markup Language, or XML, as the 
data standard with which we will author and exchange all 
documents among the Senate, House, the Government Printing 
Office, and other legislative agencies. To date we are working 
with what we call the pioneer group, a group within the Senate 
Legislative Counsel's Office and our own enrolling clerks, in 
implementing this transition to the LIS project. Ultimately we 
will have documents that can be more easily shared, reused, and 
repurposed. So this is a huge plus for our Senate community 
overall over time.
    We will begin to work, hopefully, even this summer with the 
Appropriations Committee. We are coming to you all first to 
work with you all on the LIS augmentation project in 
determining what your requirements are going forward. As I 
said, there will be more conversation about that here in the 
coming weeks.

                   HIGHLIGHTS OF OFFICE OF SECRETARY

    I certainly this afternoon, given our brief time together, 
will not run through all 25 departments within the Office of 
the Secretary, and there are many accomplishments over the 
course of the last year. But I did want to just point out a few 
highlights, and the other details are obviously in our 
department reports.

                            CURATOR PROJECTS

    The curator. For example, we have work underway on the 
portraits of Senators Dole and Mitchell for our leadership 
collection. In addition, we have underway and hope to install 
and unveil next year the portraits of Senator Vandenberg and 
Senator Robert Wagner in our Senate Reception Room.
    One item that is coming this summer that we are 
particularly excited about is a catalog of our U.S. Senate fine 
arts collection, featuring the 160 items in our fine art 
collection in the Senate. This will be a new resource for all 
of us and something that is eagerly anticipated over the 
summer.
    The restoration of the Senate desks. That project continues 
with 61 restored to date.

                           HISTORIAN'S OFFICE

    In addition, from our historian's office, they have been 
involved in a tremendous project that was released this week by 
the Permanent Subcommittee on Investigations. Our Historical 
Office had the opportunity to help edit and annotate the 3,800 
pages of the McCarthy executive hearings from 1953-54. So we 
are particularly proud of that accomplishment. And in addition, 
they will be working with our colleagues on the House side, 
hopefully next year, for the first time since 1989, to reprint 
and update the biographical directory of the U.S. Congress.

                             SENATE LIBRARY

    Our Senate library, another outstanding resource for us 
here in the Senate community. It is interesting to note, since 
the library was moved to the Russell Building, unlike other 
information centers across the country that are actually seeing 
a downward trend in usage, our Senate library is seeing an 
upward tick in usage. That includes about 10,000 walk-in visits 
last year alone and a total of about 40,000 users over the 
course of the last year. So it is a wonderful resource.

                           EDUCATION OF PAGES

    I also just want to briefly mention, because this is one of 
the joys of the Secretary's operation, and that is the 
opportunity to educate our Senate pages. I had the chance 
yesterday to go over yesterday morning, as the pages were 
packing these wonderful care packages they have been putting 
together for our troops. This is the third class that has taken 
on this project, and watching them work for an hour yesterday 
morning, putting everything from licorice to eye drops in these 
great boxes to go overseas, and to see their enthusiasm for the 
project that really our entire Senate community has responded 
to was great fun.

                     CONTINUITY OF OPERATIONS PLANS

    On a more serious note, one of the high priorities of our 
office, of course, involves the continuity of operations 
planning. Here is where we have a very dynamic relationship 
with the Senate Sergeant at Arms. Our predecessors, Al Lenhardt 
and Jeri Thomson, certainly set the standard for Bill Pickle 
and me in terms of that cooperation, the collaboration between 
our two offices with the COOP planning. And it is my hope, 
obviously, that we will continue to meet that standard.
    When it comes to continuity of operations, our staff meets 
at least weekly, and in addition, there are numerous informal 
conversations and meetings over the course of the weeks as 
well. Each of our departments within the Secretary's office has 
their own individual COOP plan, and in addition to that, we 
will continue to work with the Sergeant at Arms, just like last 
year, on a series of tabletop exercises that will culminate 
hopefully later in the year in an overall mock session for the 
Senate, just as one was staged last year.
    We recognize obviously in the Secretary's Office that the 
most important role we can play in COOP planning is to ensure 
that the Senate can continue to carry out its legislative 
responsibilities, its constitutional responsibilities. So that 
is our primary goal in our COOP planning, and certainly 
continuing the financial operations of the Senate is first and 
foremost in our minds as well.
    I would like to close just by saying that in the 4 months 
that I have been in this job one of the great joys has been 
working with a tremendous team of people, 232 employees in the 
Secretary's Office, who are devoted to this institution, and 
combined, they have a very impressive 2,221 years of service to 
the United States Senate. I know they share our ultimate goal 
and that is simply to continue to provide the best possible 
legislative, financial, and administrative services to the 
Senate.
    With that, Mr. Chairman, I thank you for your time and I 
welcome your questions.
    [The statements follow:]

                Prepared Statement of Emily J. Reynolds

    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2004.
    Detailed information about the work of the 25 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the Fiscal Year 2004 Budget 
Request, Implementing Mandated Systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS), 
Capitol Visitor Center, Continuity of Operations Planning, and 
Maintaining and Improving Current and Historic Legislative, Financial 
and Administrative Services.

             PRESENTING THE FISCAL YEAR 2004 BUDGET REQUEST

    I am requesting a total fiscal year 2004 budget of $19,999,000 
which is a $4,157,000 decrease from the fiscal year 2003 total budget 
for the Office of the Secretary. Last year's budget included a five 
million dollar multi-year appropriation for the Senate's Financial 
Management Information System.
    The fiscal year 2004 budget request in the amount of $19,999,000 is 
comprised of $18,299,000 for salary costs and $1,700,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase over the fiscal year 2003 budget request as a 
result of (1) the costs associated with the annual Cost of Living 
Adjustment in the amount of $687,000; and (2) an additional $533,000 
for merit increases and other staffing. The operating budget represents 
a decrease of the fiscal year 2003 budget request in the amount of 
$377,000.
    The net effect of my total budget request for fiscal year 2004 is 
an increase of $156,000 plus funding for the annual Cost of Living 
Adjustment.
    Our request in the operating budget is a sound one, enabling us to 
both meet our operating needs, and provide us with the opportunity for 
new projects and initiatives. In that regard, we will use a portion of 
our operating budget, for example, to professionally photograph all 100 
restored Senate Chamber desks, both for historical documentation and 
emergency preparedness plans. Estimated cost is approximately $35,000. 
In addition, we hope to perform a finishes survey on the architectural 
features within the Senate wing of the Capitol for better documentation 
and historic interpretation. The first phase of this project, which 
would include the public spaces in the Senate wing, is estimated at 
$60,000.
    In addition, there are several special exhibits and presentations 
we would like to add to www.senate.gov in our continuing effort to 
improve and enhance the Senate's website. These include an online 
exhibit of the Senate's Issac Bassett collection, an online exhibit on 
the Senate desks, the expansion of the Virtual Tour of the U.S. 
Capitol, and converting exhibits prepared by the Curator (the political 
cartoons of Puck, a 19th century satirical magazine and the drawings of 
Lily Spandorf illustrating the filming of the motion picture ``Advise 
and Consent'') to a format for posting. Approximate costs of these 
projects for website enhancement is $76,000.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the U.S. Senate through our 
legislative, financial and administrative offices. We are in the 
process of completing a substantial internal compensation study for the 
Office of the Secretary which will further document our ongoing 
staffing requirements, appropriate levels of compensation, and 
additional staffing needs.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                     AMOUNT              BUDGET ESTIMATE
                                                                    AVAILABLE   --------------------------------
                              ITEM                                 FISCAL YEAR
                                                                  2003, PUBLIC     FISCAL YEAR      DIFFERENCE
                                                                    LAW 108-7         2004
----------------------------------------------------------------------------------------------------------------
DEPARTMENTAL OPERATING BUDGET:
    EXECUTIVE OFFICE...........................................        $397,800        $525,000       +$127,200
    ADMINISTRATIVE SERVICES....................................       1,422,900       1,100,000        (322,900)
    LEGISLATIVE SERVICES.......................................         256,300          75,000        (181,300)
                                                                ------------------------------------------------
      TOTAL OPERATING BUDGET...................................       2,077,000       1,700,000        (377,000)
                                                                ================================================
SENATE MANDATED PROJECTS: FINANCIAL MGMT. INFO. SYSTEMS MULTI-        5,000,000  ..............      (5,000,000)
 YEAR..........................................................
                                                                ------------------------------------------------
      TOTALS...................................................       7,077,000       1,700,000      (5,377,000)
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 100 Senate offices, 20 Committees and 20 Leadership and 
support offices. As a result of a five year strategic plan devised by 
the Disbursing Office, my predecessor recommended, and the 
Appropriations Committee subsequently approved, a $5 million 
appropriation for a multi-year program to upgrade and expand FMIS for 
the Senate.
    With these funds, the Disbursing Office is modernizing processes 
and applications to meet the continued demand by our Senate offices for 
efficiency, accountability and ease of use. Our goal is to move to a 
paperless voucher system, improve the FMIS-Web system, and make payroll 
and accounting system improvements. In addition, we are working 
cooperatively with the Sergeant at Arms to meet the mandate to prepare 
auditable financial statements for the Senate.
    In fiscal year 2002, specific progress made on the FMIS project 
included:
  --Three Web FMIS releases, one of which changed the accounting for 
        travel and petty cash advances to be obligations of Senate 
        offices.
  --Senate-wide implementation of the Senate Automated Vendor Inquiry 
        System, or SAVI, which enables Senate staff to check the status 
        of their reimbursements. In July 2002, Senate employees were 
        given the opportunity to receive all expense reimbursement 
        through direct deposit, and were informed of this change in a 
        Senate-wide mailing.
  --For vouchers of $35 or less, a new document approval process was 
        instituted. The time required to pay such vouchers has been cut 
        considerably as the vouchers are routed directly to certifying 
        accounts payable specialists in Disbursing for review and 
        posting.
  --The ability to produce auditable consolidated financial statements 
        is a primary objective of the Senate's Strategic Plan for 
        Financial Management. The Disbursing Office took a significant 
        step toward that objective by initiating a contract to develop 
        a draft or pro-forma Senate wide financial statement which 
        includes all supporting schedules and reports for fiscal year 
        2002. The required deliverables of this initiative were 
        completed in April 2002, and a number of corrective actions 
        necessary to meet our objectives were identified. As some of 
        these corrective actions impact the Sergeant at Arms Finance 
        Office, the Disbursing Office is working with them to develop 
        an implementation plan. For example, a Senate-wide 
        capitalization policy has been drafted and is currently under 
        review by both offices.
    During fiscal year 2003, the following FMIS activities are planned:
  --Implement a new Web FMIS release in April 2003 (completed) that 
        includes the functionality for:
    --A pilot of online sanctioning of vouchers by the Rules Committee 
            staff. During this pilot, vouchers from all standing, 
            select, special and joint committees will be sanctioned 
            online;
    --Senate-wide implementation of online Travel Expense Summary 
            Reports (ESR) for all Senate staff. Staff who travel are 
            now able to complete the required documentation for travel 
            expense reimbursement via a Web Site; and
    --Senate-wide implementation of the Travel ESR-import feature in 
            Web FMIS. This function enables Office Managers and Chief 
            Clerks to create a travel voucher by ``importing'' data 
            from an online Travel ESR, thus eliminating duplicate data 
            entry.
  --As requested by the Rules Committee, implement online sanctioning 
        of vouchers for all offices that prepare vouchers via Web FMIS 
        (e.g., Senators, Leadership offices).
  --Generate a random sample of vouchers $35 or less for the Rules 
        Committee post payment audit.
  --Implement a new release of online Travel ESR that will incorporate 
        suggestions made by pilot users.
  --Implement a new release of the Senate Automated Vendor Inquiry 
        (SAVI) system that incorporates suggestions made by users.
  --Conduct a pilot of direct deposit payments to vendors, without 
        online notification. This means that these vendors would be 
        paid by direct deposit but would not be able to look at deposit 
        information via the Senate Automated Vendor Inquiry (SAVI) 
        system, which would remain inside the Senate's firewall.
  --Revise requirements for imaging of supporting documentation and 
        electronic signatures.
    During fiscal year 2004 the following FMIS activities are planned:
  --Implement new technology for Web FMIS, ``Thin Client,'' which will 
        provide a substantially streamlined architecture, upgrade the 
        technology used, provide simpler disaster recovery, and provide 
        the platform for imaging of supporting documentation and 
        electronic signatures. In general, we will re-write the Web 
        FMIS functions implemented in the early releases to eliminate 
        the use of Cold Fusion and Client/Server technology. When 
        completed, all components of Web FMIS will use Intranet 
        technology on a single platform, Web Sphere. This is a 
        substantial effort, and is planned in two phases:
    --Phase I--(Winter 2004).--In this release we will implement a 
            roles-based security scheme enabling users to access 
            specific functions based on the activities they perform, 
            re-write the local list maintenance functions (used by 
            offices) and system administrative functions (used by DO) 
            to eliminate Cold Fusion, update the underlying technology 
            for Web FMIS reports, and archive data for lapsed fiscal 
            years so that users can still generate reports after the 
            data is archived from the general ledger.
    --Phase II--(Summer 2004).--In this release we will re-write the 
            budget entry and document entry functions of Web FMIS to 
            eliminate the Client/Server technology. These are the 
            functions used most by Office Managers and Chief Clerks, so 
            this will be most visible to them.
  --Begin using laser checks. This significantly simplifies our 
        disaster recovery activities.
  --Implement a new release of the Senate Automated Vendor Inquiry 
        (SAVI) system that enables e-mail notification of payments to 
        staff and vendors.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
Legislative Information System (LIS)
    Our second mandated system, which this Committee has generously 
supported, is the Legislative Information System, or LIS, which 
provides Senators and staff with text of Senate and House legislative 
documents from their desktop computers. In addition, LIS provides real-
time access to legislative amendments and the current status of new 
legislation within 24 hours. LIS originates from the 1997 Legislative 
Branch Appropriations Act, which also established a requirement for the 
broadest possible exchange of information among legislative branch 
agencies. This exchange process is now the focus of the LIS 
Augmentation Project, or LISAP.
    The overall objective of the LISAP is to implement the extensible 
markup language, or XML, as the data standard to author and exchange 
legislative documents among the Senate, House of Representatives, the 
Government Printing Office and other legislative agencies. Two years 
ago, the Appropriations Committee appropriated $7 million to the 
Secretary for the LISAP, designed to carry out the Senate portion of 
the December, 2000, directive given to both the Secretary and the Clerk 
of the House by the Senate Rules Committee and the House Administration 
Committee respectively. Thus far, we have spent approximately $3 
million of our appropriation, and I am pleased to report that 
considerable progress has been made and the project is on budget and 
running smoothly.
    The project is currently focused on Senate-wide implementation and 
transition to a standard system for the authoring and exchange of 
legislative documents, including an XML authoring system for the Office 
of Senate Legislative Counsel (SLC) and the Enrolling Clerk for bills, 
resolutions and amendments. A database of documents in XML format and 
an improved exchange program will mean quicker and better access to 
legislative information and will provide documents that are more easily 
shared, reused and repurposed.
    The LISAP project team has demonstrated the Senate's legislative 
editing XML application (LEXA) for the Office of Legislative Counsel 
where it was greeted with enthusiasm. Over the next several months, the 
LISAP project team will continue to refine and enhance this editing 
application, release a document management system for the Senate 
Legislative Counsel, and complete the data conversion projects. The 
team will also develop and deliver a training program for the SLC, and 
begin to address the needs of other Senate offices and Committees, 
starting with the Appropriations Committee.
    A more detailed report on LIS follows the departmental reports.

                         CAPITOL VISITOR CENTER

    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its education benefits will be tremendous.

                   CONTINUITY OF OPERATIONS PLANNING

    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its Constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each of the 25 departments within the Office of the Secretary to 
perform its essential functions during and following an emergency.
    COOP planning in the Office of the Secretary has been an ongoing 
process since late 2000. Working in close cooperation with the Sergeant 
at Arms and the General Services Administration, employees in each 
department were trained to evaluate COOP requirements and subsequently 
write COOP plans specific to their departments. By the summer of 2001, 
each department had completed the first draft of a COOP plan, which 
included the identification of records, databases, equipment and 
supplies necessary to conduct essential functions, and plans to 
duplicate and store essential items offsite or to provide for their 
timely replacement. Information from all final departmental plans has 
been integrated into an overall plan for the Office of the Secretary.
    Several departments had completed their plans prior to the 
terrorist attacks of September 11, 2001, and the anthrax contamination 
in the Hart Senate Office Building in October 2001. As a result, both 
the Disbursing Office and the Office of Public Records, as well as 
other departments located in Hart, were able to continue operations 
throughout the 96 days that Hart was closed. Every payroll was met, all 
bills were paid, and every filing deadline was met.
    The implementation of COOP plans that fall provided valuable 
experience in emergency management. Both the Secretary and the Sergeant 
at Arms' operations continued to formulate plans to deal with the 
possibility of subsequent emergencies. In the spring and summer of 
2002, our offices participated in a series of tabletop drills and live 
exercises to test and refine existing emergency preparedness plans. 
Alert and notification procedures using emergency communications 
systems were tested; Emergency Operations Centers and a Briefing Center 
were activated in a trial run; and a mock Senate session was conducted 
in an alternate Senate Chamber.
    As a vital part of COOP planning, we have identified equipment, 
supplies and other items critical to the conduct of essential 
functions, and have assembled ``fly-away kits'' for the Senate Chamber, 
and for each department of the Office of the Secretary. Multiple copies 
of each fly-away kit have been produced with storage in both our 
offices and at appropriate off-site locations. This will enable the 
Office of the Secretary to resume essential operations within twelve 
hours or less.
    In the event of an emergency, the Office of the Secretary is 
prepared to do the following: activate an Emergency Operations Center 
within one hour, support Briefing Center operations within one hour, 
support Senate Floor operations in an alternate Senate Chamber (within 
twelve hours onsite and within 24 to 72 hours offsite, depending upon 
location).
    Working with Leadership offices, the Sergeant at Arms, and the 
Capitol Police, we continue to refine COOP and emergency management 
plans. All COOP plans are reviewed and updated at least annually to 
ensure their continued viability. A second series of tabletop drills is 
planned for this year to culminate in another mock exercise of the 
activation of an alternate Senate Chamber.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our COOP and emergency preparedness 
programs are necessary to ensure that the Senate can carry out its 
Constitutional duties under any set of circumstances.

 MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL 
                      AND ADMINISTRATIVE SERVICES
                          LEGISLATIVE OFFICES

    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators in carrying out their 
daily chamber activities and, most importantly, to carry out the 
Constitutional responsibilities of the Senate. The department consists 
of eight offices: Bill Clerk, Captioning Services, Daily Digest, 
Enrolling Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, and 
the Official Reporters of Debates. The Legislative Clerk is the overall 
supervisor, providing a single line of communication to the Assistant 
Secretary and Secretary, and is responsible for coordination, 
supervision, scheduling and cross-training between the eight offices. 
In addition, the Parliamentarian's operation also works in close 
coordination with the Legislative Department.
    Each of the eight offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is nineteen years. The experience of these 
senior professional staff is a great asset for the Senate. In order to 
ensure continued well-rounded expertise, the legislative team has 
cross-trained extensively among their specialities.

                             1. BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, reports, amendments, co-sponsors, public law numbers, and 
recorded votes. The Bill Clerk is responsible for preparing for print 
all measures introduced, received, submitted, and reported in the 
Senate. The Bill Clerk also assigns numbers to all Senate bills and 
resolutions. All the information received in this office comes directly 
from the Senate floor in written form within moments of the action 
involved, so the Bill Clerk's Office is a timely and accurate source of 
legislative information.
    The Bill Clerk's Office continues to provide to Senate offices and 
the public information on Senate legislative status with a high degree 
of accuracy and speed, both through the Senate LIS system and over the 
telephone. The information provided is the most quickly available and 
the most accurate information on Senate legislative activity available 
to staff.
    Here is a final cumulative summary of the 107th and the 106th 
Congresses:

------------------------------------------------------------------------
                                                   107th        106th
                                                  Congress     Congress
------------------------------------------------------------------------
Senate Bills..................................        3,181        3,287
Senate Joint Resolutions......................           53           56
Senate Concurrent Resolutions.................          160          162
Senate Resolutions............................          368          393
Amendments Submitted..........................        4,984        4,367
House Bills...................................          562          697
House Joint Resolutions.......................           29           46
House Concurrent Resolutions..................          175          151
Measures Reported.............................          653          765
Written Reports...............................          351          513
                                               -------------------------
      Total Legislation.......................       10,516       10,437
                                               =========================
Roll Call Votes...............................          633          672
------------------------------------------------------------------------

Current Projects
    Amendment Tracking System.--In the fall of 2001, Rules Committee 
staff approached our office with the task of scanning submitted 
amendments onto the Amendment Tracking System on LIS. The Rules 
Committee has identified a need for Senate staff to have all amendments 
submitted in the Senate made available to them online shortly after 
being submitted, especially during cloture. The Rules Committee also 
requested that the Secretary, through the Bill Clerk, assess the 
feasibility of lifting the page limitation for scanning amendments onto 
the ATS Indexer. In response, the Bill Clerk contacted the Technology 
Development division of the Sergeant-at-Arms office to outline the 
technical requirements needed to implement such a request; a draft has 
been completed. Once the final version is delivered, the Secretary, 
through the Bill Clerk, and in consultation with the Legislative Clerk, 
will ascertain the legislative requirements needed in order for the 
staff to implement this request. The system must be designed and 
implemented without sacrificing critical services to the functioning of 
the Senate Chamber, specifically the amendment process.
    Electrical Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerks identified the need to have a electronic version of the official 
Senate ledgers in order to ensure the integrity of the information 
recorded in the ledgers. The electronic version will be portable for 
use during possible emergency scenarios. The Technology Development 
division of the Sergeant at Arms is working to develop two separate 
functions of this electronic ledger system. One is an electronic data 
entry system which will mimic the layout of the current Senate ledgers 
printed by the Government Printing Office; the other is a search 
function. Both of these programs will be housed on a separate server to 
maintain the integrity of the ledger data. The electronic ledger system 
is currently under development.

                         2. CAPTIONING SERVICES

    Since 1991, the Office of Captioning Services has provided real-
time captioning of Senate Floor proceedings for the deaf and hard-of-
hearing along with unofficial electronic transcripts of those 
proceedings to Senate offices via the Senate Intranet. The primary 
focus of the Office of Captioning Services is caption accuracy. 
Selected on-air turns are printed and reviewed to constantly monitor 
quality and consistency.

Technology Update
    The Senate Recording Studio continues to refine a system that 
captures our caption data stream, time stamps the captions and stores 
them in a searchable database. This database contains links to the 
corresponding audio files which can be listened to over the Senate 
Intranet in Senate offices.
    During 2002, all available real-time captioning technologies were 
evaluated for the purpose of replacing our existing outdated 
technology. As a result, all captioning hardware and software will be 
replaced in 2003, using monies appropriated in fiscal year 2003 for 
this purpose.
    Voice writing (voice recognition) technologies are improving and 
the Office of Captioning Services is on the cutting edge of testing and 
evaluating these products as they evolve.

Current Projects
    There are two main objectives for the Office of Captioning Services 
in 2003. The first is to replace existing DOS-based steno-captioning 
technology with Windows-based steno-captioning technology. Second, we 
will continue to work out the details of a proposed pilot project to 
caption hearings for the Judiciary Committee.

                            3. DAILY DIGEST

    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest 
office and published in the Congressional Record.
Chamber Activity
    During the second session of the 107th Congress, the Senate was in 
session a total of 149 days, for a total of 1,043 hours and 23 minutes. 
There were 253 recorded votes. (For additional details, a Comparison of 
Senate Legislative Activity follows).

                                                                CHART ONE: YEARLY COMPARISON OF THE SENATE LEGISLATIVE ACTIVITIES
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                           1989       1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000       2001       2002
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.......................        1/3       1/23        1/3        1/3        1/5       1/25        1/4        1/3        1/3       1/27        1/6       1/24        1/3       1/23
Senate Adjourned......................      11/21      10/28     1/3/92       10/9      11/26      12/01     1/3/96       10/4      11/13      10/21      11/19      12/15      12/20      11/20
Days in Session.......................        136        138        158        129        153        138        211        132        153        143        162        141        173        149
Hours in Session......................   1,00319"   1,25014"   1,20044"   1,09109"   1,26941"   1,24333"   1,83910"   l,03645"   1,09307"   1,09505"   1,18357"   1,01751"   1,23615"   1,04323"
Average Hours per Day.................        7.4        9.1        7.6        8.5        8.3        9.0        8.7        7.8        7.1        7.7        7.3        7.2        7.1        7.0
Total Measures Passed.................        605        716        626        651        473        465        346        476        386        506        549        696        425        523
Roll Call Votes.......................        312        326        280        270        395        329        613        306        298        314        374        298        380        253
Quorum Calls..........................         11          3          3          5          2          6          3          2          6          4          7          6          3          2
Public Laws...........................        240        244        243        347        210        255         88        245        153        241        170        410        136        195
Treaties Ratified.....................          9         15         15         32         20          8         10         28         15         53         13         39          3         17
Nominations Confirmed.................     45,585     42,493     45,369     30,619     38,676     37,446     40,535     33,176     25,576     20,302     22,468     22,512     25,091     23,633
Average Voting Attendance.............       98.0      97.47      97.16       95.4       97.6      97.02      98.07      98.22      98.68      97.47      98.02      96.99      98.29      96.36
Sessions Convened Before 12  Noon.....         95        116        126        112        128        120        184        113        115        109        118        107        140        119
Sessions Convened at 12  Noon.........         14          4          9          6          9          2         15         12         31         17         25         10         12          4
Sessions Convened after 12  Noon......         27         17         23         10         15         17         12          7          7          2         19         24         21         23
Sessions Continued after 6 p.m........         88        100        102         91        100        100        158         88         96         93        113         94        108        103
Sessions Continued after 12 Midnight..          9         13          6          4          9          7          3          1  .........  .........  .........  .........          2          3
Saturday Sessions.....................          1          3          2          2          2          3          5          1          1          1          3          1          3  .........
Sunday Sessions.......................  .........          2  .........  .........  .........  .........          3  .........          1  .........  .........          1  .........  .........
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Committee Activity

    Senate committees held a total of 961 meetings in the first session 
of the 107th Congress, and 888 meetings in the second session.

                           4. ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2002, 43 enrolled bills (transmitted to the President) and 
10 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 526 additional pieces of legislation in one form or 
another, was passed or agreed to by the Senate, requiring processing 
from this office.
    Efforts continue on both sides of the Capitol to generate, process, 
manage and share data on a more uniform basis. XyWrite is the software 
editor currently utilized by House and Senate Enrolling Clerks, House 
and Senate Legislative Counsels, and the Government Printing Office. 
Ultimately both Chambers will generate data using an Extensible Markup 
Language (XML) editor acceptable to all involved.

                           5. EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, Presidential messages 
and petitions and memorials.

Nominations
    During the second session of the 107th Congress, there were 1,010 
nomination messages sent to the Senate by the President, transmitting 
23,045 nominations to positions requiring Senate confirmation and 10 
messages withdrawing nominations previously sent to the Senate during 
the 107th Congress. Of the total nominations transmitted, 463 were for 
civilian positions other than lists in the Foreign Service, Coast 
Guard, NOAA, and Public Health Service. In addition, there were 1,565 
nominees in the ``civilian list'' categories named above. Military 
nominations received this session totaled 21,017 (5,813--Air Force; 
6,182--Army; 6,044--Navy; and 2,978--Marine Corps).
    In total, the Senate confirmed 23,633 nominations this session. 
Pursuant to the provisions of paragraph six of Senate Rule XXXI, 193 
nominations were returned to the President during the second session of 
the 107th Congress.

Treaties
    There were 18 treaties transmitted to the Senate by the President 
during the second session of the 107th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 107-3 through 107-21).
    The Senate gave its advice and consent to 17 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 12 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
107th Congress (Executive Report 107-4 through 107-15). The Senate 
conducted 42 roll call votes in executive session, all on or in 
relation to nominations.

Executive Communications
    For the second session of the 107th Congress, 4,854 executive 
communications, 143 petitions and memorials and 60 Presidential 
messages were received and processed.

                            6. JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal as required by Article 
I, Section V of the Constitution. The Senate Journal is published each 
calendar year.
    The Journal staff take 90 minute turns at the rostrum in the Senate 
Chamber, noting by hand for inclusion in the Minute Book (i) all orders 
(entered into by the Senate through unanimous consent agreements), (ii) 
legislative messages received from the President, (iii) messages from 
the House of Representatives, (iv) legislative actions as taken by the 
Senate (including motions made by Senators, points of order raised, and 
roll call votes taken), (v) amendments submitted and proposed for 
consideration, (vi) bills and joint resolutions introduced, and (vii) 
concurrent and Senate resolutions as submitted. These notes of the 
proceedings are then compiled in electronic form for eventual 
publication of the Journal, usually at the end of each calendar year.
    In 2002, the Journal Clerk completed the production of the 1,022-
page 2001 Senate Journal. The 903-page 2002 Journal was sent to the 
Government Printing Office for printing on March 19, 2003.

                          7. LEGISLATIVE CLERK

    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. This office prepares the Senate Calendar 
of Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. This office is responsible for verifying the accuracy of 
information entered into the LIS system by the various offices of the 
Secretary.
    Additionally the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training.

Summary of Activity
    The second session of the 108th Congress completed its legislative 
business and adjourned sine die on Wednesday, November 20, 2002. During 
2002, the Senate was in session 149 days, over 1,043 hours and 
conducted 253 roll call votes. There were 653 measures reported from 
committees, 523 total measures passed, and there were 311 items 
remaining on the Calendar at the time of adjournment. In addition, 
there were 2,287 amendments processed.

                    8. OFFICIAL REPORTERS OF DEBATES

    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office.

                           9. PARLIAMENTARIAN

    The Parliamentarian's Office performs extensive legislative duties. 
These include advising the Chair, Senators and staff, as well as 
committee staff, House members and staff, administration officials, the 
media and members of the general public, on all matters requiring an 
interpretation of the Standing Rules of the Senate, the precedents of 
the Senate, unanimous consent agreements, as well as provisions of 
public law affecting the proceedings of the Senate. The 
Parliamentarians work closely with the staff of the Vice President of 
the United States and the Vice President himself whenever he performs 
his duties as president of the Senate. The Parliamentarians monitor all 
proceedings on the floor of the Senate, advise the Presiding Officer on 
the competing rights of the Senators on the floor, and advise all 
Senators as to what is appropriate in debate. The Parliamentarians keep 
track of the amendments offered to the legislation pending on the 
Senate floor, and monitor them for points of order. In this respect, 
the Parliamentarians reviewed both more than 1,000 amendments during 
2002 to determine if they met various procedural requirements and 
thousands of pages of conference reports to determine what provisions 
could appropriately be included.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarian conducts extensive legal and 
legislative research. During 2002, the Parliamentarian and his 
assistants referred 1,584 measures and 5,058 communications to the 
appropriate Senate committees. The office works extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular legislative drafts and evaluates the 
jurisdictional effect of proposed modifications in drafting.

                FINANCIAL OPERATIONS: DISBURSING OFFICE
                     DISBURSING OFFICE ORGANIZATION

    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs to provide responsive, personal attention to Members and 
employees on a unbiased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.

               DEPUTY FOR BENEFITS AND FINANCIAL SERVICES

    The responsibility of this position is to serve as the Senate's 
expert on Federal retirement and benefits, payroll and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits and Payroll sections is a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is also a primary responsibility. 
Ensuring that job processes are efficient and up to date, modifying 
computer support systems, implementing regulatory and legislated 
changes, designing and producing up to date forms for use in all three 
sections are additional areas of responsibility.
    The first order of 2002 was to reestablish operations in the Hart 
Building after being displaced for three months following the anthrax 
incident.
    Various work during the year included working with the Computer 
Center to expand and change payroll programs, edits, and screens to 
administer: New Offset-CSRS deductions (as well as extensive payroll 
program modification), LWOP for Military Personnel, the Long Term Care 
Program, new FEGLI age bands, and major changes in TSP processing for 
new hires as well as new open TSP seasons.
    In February, the office managed a project to renovate the Senate's 
Personnel Folder Filing System. New automated, vertical storage filing 
cabinets were installed. This project included electrical work, file 
storage, cabinet removal, installation, archival and refiling, 
transportation of cabinets and archived files to an offsite storage 
facility, rebuilding of storage cabinets and reorganization of files.
    In September, work on the scanning of the Senate's Official 
Personnel & Office Folders began as part of our disaster planning. The 
plans include scanning all payroll related documents for offsite 
retrieval in the event of an emergency.
    New mainframe operating system upgrades for O/S 390 were 
implemented in December and a full set of payroll system tests were run 
to ensure that they functioned properly.
    Planning for new programs, which are due to be implemented this 
calendar year, began for flexible spending accounts for child care and 
medical expenses, as well as catch-up TSP payments for staff over age 
50.
    Also under the Deputy for Benefits and Financial Services is the 
Student Loan Repayment Program, which was included in the fiscal year 
2002 Legislative Branch Appropriations Bill. Implementation of the 
Senate Program began April 1, 2002, with 25 Senate employees and 10 
Senate offices participating. As of March 31, 2002, 816 Senate 
employees and 113 Senate offices are participating.
    The legislation establishing the Student Loan Repayment Program 
gives each Senate employing office the authority to implement the 
Program. In the educational sessions provided on the Program, the 
twofold purposes of the law--retention and recruitment--are stressed.

          FRONT COUNTER--ADMINISTRATIVE AND FINANCIAL SERVICES

    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate I.D. card. Advances are 
issued to Senate staff authorized for an advance for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers' 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the front 
counter and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
    In sum, for 2002:
  --The Front Counter issued approximately 2,700 cash advances for 
        official Senate travel.
  --Received more than 19,200 checks from Senate entities.
  --Administered oath and personnel affidavits to more than 3,200 new 
        Senate staff.
  --Maintained brochures for 11 Federal health carriers and distributed 
        approximately 6,000 brochures to staff during the annual FEHB 
        open season and to new employees.
  --Provided 38 training sessions to new Office Managers.
    After a smooth transition back into the Hart Building, Front Office 
operations continued to provide the Senate community with prompt, 
courteous and informative advice regarding Front Office functions. A 
reconstruction and audit of the Funds Advance Tracking System were 
successfully completed. This was necessitated by the separate locations 
of operations used during the Hart closing. The ramification of the 
changes to the Thrift Saving Plan's (TSP) open season to employees was 
emphasized this year. Results of the November elections prompted eleven 
new offices that needed training in both Senator-elect regulations and 
assistance in the transition into member status in 108th Congress.

                            PAYROLL SECTION

    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; maintaining the Automated Clearing 
House (ACH) FEDLINE facilities for the normal transmittal of payroll 
deposits to the Federal Reserve; distributing the appropriate payroll 
expenditure and allowance reports to the individual offices; issuing 
the proper withholding and agency contributions reports to the 
Accounting Department; and transmitting the proper (TSP) information to 
the National Finance Center (NFC), while maintaining earnings records 
for distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W2 statements, prepared by this 
section. The Payroll Section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate.
    Calendar Year 2002 started with the usual processing of TSP forms, 
effective January 1, 2002. With the implementation of new TSP 
regulations, the May 15-July 31, 2002 Open Season reflected a 60 
percent increase in the number of TSP 1 forms submitted for processing.
    The events of September 11, 2001 lingered on as the Payroll Section 
reversed the Offsite operational process by moving all the paperwork 
processed at the alternative location back to the Hart building 
location. The work flow of completed transactions had to be sorted, 
while storage and filing requirements were reviewed for necessary 
changes. Systems like the ACH Fedline program had to be switched back 
to Hart Building IT equipment. Alternative methods of receiving 
correspondence from employees and other agencies had to be expanded in 
order to receive printed data in a timely manner.
    The onset of the Student Loan Program created new objectives for 
the Section. It was first believed that all of the Financial 
Institutions issuing student loans would be able to process the loan 
payment via the ACH Fedline System. To the contrary, we found out that 
only 20 percent of the loans could adequately be processed through the 
Federal Reserve, and most of those payments also required a separate 
listing to be faxed to the processing unit. The remaining 800+ payments 
must be processed by individual checks and composite listings.
    The NFC modified its regulations by allowing payroll deductions for 
employees who have just begun Federal Service. New categories of 
deductions were programed into the Payroll/Personnel System for the TSP 
deduction classes not receiving agency contributions. As each form is 
processed, the Payroll Specialist must further analyze the employee's 
service history and determine if the employee is eligible for agency 
contributions. The TSP also changed the open season periods by moving 
them up one month.
    Members of the Payroll Section worked with members of the Accounts 
Payable Section to establish in-house procedures for processing voucher 
payments directly to vendor and employee bank accounts. Procedures were 
set up for transmitting payments, processing rejections and returns and 
balancing accounts with the Accounting Section.
    The final project of the year was the processing of both incoming 
and outgoing offices under the jurisdiction of S. Res. 344 and 458.

                       EMPLOYEE BENEFITS SECTION

    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of benefits laws and regulations. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and once 
Official Personnel Folders and Transcripts of Service are received, 
verifies the accuracy of the information provided and reconciles as 
necessary. Transcripts of Service including all official retirement and 
benefits documentation are provided to other federal agencies when 
Senate Members and staffers are hired elsewhere in the government. EBS 
processes employment verifications for loans, the Bar Exam, the FBI, 
OPM, and the Department of Defense, among others. Unemployment claim 
forms are completed, and employees are counseled on their eligibility. 
Department of Labor billings for unemployment compensation paid to 
Senate employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.
    The year began with EBS still located in our temporary quarters at 
Postal Square (PSQ) due to the continued closure of the Hart Building. 
Upon our return to the Hart Building in late January, our initial 
priorities were to locate and respond to anything that had remained 
undone in the Hart Building and to perform those functions that could 
not be completed from our displaced location. It was necessary to pack 
up and move all the files, reports and documents from our stay in PSQ 
and combine and coordinate them with our regular information in a 
seamless fashion.
    Based on the continued call to active duty of military reservists 
and the passage late in 2001 of a Leave Without Pay (LWOP) status for 
Senate employees, EBS worked to construct and develop LWOP procedures, 
informational sheets and notices, tracking devices and computer 
modifications to accommodate this new employment status. These 
procedures were monitored and modified as needed throughout the year.
    During 2002 the new Federal Long Term Care Insurance (LTCI) Program 
was introduced and implemented government wide. EBS worked diligently 
to become educated in all aspects of the program. This required 
constant interaction with LTC Partners and OPM to establish and 
implement procedures and coordination with the Senate Computer Center 
to apply modifications and establish parameters for the implementation 
of the program. Effective introduction of LTCI required extensive 
notification to employees, which included several mail-outs, electronic 
notifications and use of streaming video on Webster. In addition, we 
hosted two seminars on the LTCI program.
    Government-wide implementation of the Centralized Enrollment 
Clearinghouse System (CLER) program for health insurance enrollment 
reconciliation occurred in 2002. The program is still a work in process 
and has required diligent efforts at detecting and eliminating errors.
    In 2002, we began an upgrade to our file room. We had our outdated 
file cabinets replaced by a new automated rotary filing system. The 
installation required the removal and return of all employee personnel 
folders, as well as the retirement to our offsite filing facility, of a 
portion of the older files.
    Based on the lessons learned during our displacement about what 
could and could not be recovered and used offsite, we began to 
aggressively investigate the development and implementation of a 
document imaging system for use in electronically reproducing employee 
personnel folders. Development with the Senate Computer Center is well 
under way and the purchase of the hardware has been made with 
implementation of the process scheduled this year.
    While retirement case processing was about average for the year, 
retirement planning and counseling were very heavy in the second half 
of 2002 due to the impending retirement of 10 Senators and the death of 
Senator Wellstone, and the dissolution of their staffs and the 
potential changes to committee staffs. This resulted in the counseling 
of hundreds of employees including extensive research and calculation 
of Statements of Tentative Retirement Computations. Approximately 100 
retirement cases were processed (including 9 death cases).
    Seminars were held for outgoing Members' staffs, as well as 
committees facing potential reorganization. Information disseminated 
spanned retirement, TSP, health and life insurance, and unemployment 
compensation. Full support was also provided to Senator Wellstone's 
staff and his next of kin following his tragic death. Due to the large 
post-election turnover, EBS also hosted a seminar with the D.C. Office 
of Employment Services for outgoing staff who wished to apply for 
unemployment compensation. This opportunity for staff was well 
received.
    During the annual FEHB Open Season, approximately 700 employees 
changed plans. These changes were processed and reported in record 
time. Once again, we hosted a FEHB Open Season Health Fair, attended by 
about 650 employees. As an additional service, it was open to all other 
federal employees on the Hill, including House, Capitol Police, 
Architect of the Capitol and Senate Restaurant employees.
    There were two TSP Open Seasons in 2002 during which employees 
could change their rate of contribution. The number of changes was 
higher during the end of year Open Season, as the allowable rates of 
contribution increased. In addition, a change to the effective dates of 
the TSP Open Seasons was implemented.
    Much additional information and many downloadable forms were added 
to the Disbursing Office Webster site, as well as the use of newer 
video technologies and links.
    In addition, EBS has been developing many computer-based forms and 
calculators for use in providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
developed and conducted for interested Senate staff. The seminars were 
well attended and well received. Additionally, EBS staff regularly 
provided a panel participant for the monthly New Staff Orientation 
seminars and quarterly Senate Services Fairs held by the Office of 
Education and Training.
    Interagency meetings were attended on the implementation of the 
Federal LTCI Program, CLER program, and continuing TSP program 
enhancements.
    There was a great deal of turnover and rehire in 2002, as employees 
left staff to work on campaigns and then returned to the Senate after 
the elections. This caused an increase in appointments to be researched 
and processed, retirement records to be closed-out, termination 
packages of benefits information to be compiled and mailed out, and 
health insurance registrations to be processed. Transcripts of service 
for employees going to other federal agencies, and other tasks 
associated with employees changing jobs remained constant this year. 
These required prior employment research and verification, new FEHB, 
FEGLI, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    Mortgage rates kept employment verifications coming in at a rapid 
pace, averaging over 100 per month. Unemployment verifications remained 
constant throughout the year with a notable spike in December.
    Telephone inquiries, though not specifically tracked, continued at 
record levels.

                 DISBURSING OFFICE FINANCIAL MANAGEMENT

    Headed by the Deputy for Financial Management, the mission of the 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to produce an 
auditable consolidated financial statement for the Senate and to 
provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. The DOFM is 
segmented into three functional departments: Accounting, Accounts 
Payable, and Budget. The Deputy coordinates the activities of the three 
functional departments, establishes central financial policies and 
procedures, acts as the primary liaison to the HR Administrator, and 
carries out the directives of the Financial Clerk of the Senate.

                         ACCOUNTING DEPARTMENT

    During fiscal year 2002, the Accounting Department approved nearly 
129,000 expense reimbursement vouchers, processed 1,055 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Stationery Room and the Senate Gift Shop, to canceled subscription 
refunds from Member offices. General ledger maintenance also prompted 
the entry of thousands of adjustment entries that include the entry of 
all appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, stop payment requests, travel 
advances and repayments, and limited payability reimbursements.
    In March of 2002, the Accounting Department completed the testing 
of the student loans payroll interface and the set-up in FAMIS needed 
for the tracking of the student loan balances. During January 2002, the 
Accounting Department with assistance from our contractor, Bearing 
Point, completed the 2001 year end process to close and reset revenue, 
expense and budgetary general ledger accounts to zero and during July 
2002, a rollover was performed to update in FAMIS' tables and create 
the index codes needed to accommodate data for fiscal year 2003. During 
the summer, the Deputy for Financial Management worked on the task 
force headed by the Senate Gift Shop Director and the Assistant 
Secretary of the Senate to procure and select a contractor to replace 
the Gift Shop point-of-sale retail, inventory and accounting control 
system. Solicitations and written proposals were reviewed and discussed 
and a contractor was selected by the end of October.
    The Accounting and Accounts Payable Department also assisted the IT 
Department in the testing and implementation of the new travel advance 
reporting. The new travel advance reporting became effective in 
September 2002, and with this new process, started accounting for 
travel advances as obligations.
    The Accounting Department was able to test and implement the first 
document purge process in Federal FAMIS. The testing was performed 
during December and the production purge was done successfully last 
month.

Financial Reporting Requirements--External
    Monthly financial reporting requirements to the Department of the 
Treasury include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also reported to the 
Department of the Treasury is the Statement of Transactions According 
to Appropriations, Fund and Receipt Accounts that summarizes all 
activity at the appropriation level of every penny disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate.
    Annually, the Accounting Department transmits all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
Department also performs quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes are reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations are performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP. Monthly, all employee withholdings and agency 
contributions for life and health insurance, and federal retirement 
programs are transmitted to the Office of Personnel Management. Any 
adjustment to employee contributions for any of the health, life, and 
retirement plans from previous accounting periods are also processed by 
the Accounting Department.
    On a semiannual basis, the Accounting Department prepares necessary 
reports and information to be included in the Report of the Secretary 
of the Senate. All organizations and appropriation accounts reported 
are validated 100 percent to the financial system. During 2002, no 
major changes were incorporated to the Secretary's Report. The 
Accounting Department is also working with our contractor, Bearing 
Point, on several new reports that are expected to be completed before 
the end of the fiscal year.

Financial Reporting Requirements--Internal
    Monthly, the Accounting Department prepares and reviews ledger 
statements to all Member offices and all other offices with payroll and 
non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. The reformatting of 
the monthly ledgers was completed during April 2002 to comply with the 
requirements of the Senate Offices.
    In addition, to better assist Senate offices and to facilitate the 
research of voucher payments within Disbursing Office, the Accounting 
Department reviewed and completed requirements to implement four new 
WEB inquiries. The new inquiries (payment number, document number, 
service date and vendor payment) were tested and moved to production in 
September 2002. The following month, the Disbursing Office financial 
management staff was trained on how to use the new inquiries.

Pro-forma Financial Statements and Auditability Assessment
    During 2001, the Disbursing Office initiated a contract with the 
outside firm (KPMG Consulting) to develop the first U.S. Senate wide 
pro-forma consolidating financial statements. This initiative was based 
on the desire to adopt to the extent possible the financial reporting 
requirements of the Government Management Reform Act of 1996 (GMRA), 
the Chief Financial Officers (CFO) Act of 1990, and comply with the 
Statements of Federal Financial Accounting Standards (SFFAS) 
promulgated by the Federal Accounting Standard Advisory Board (FASAB). 
The main objective of this contract is to develop the first pro-forma 
financial statements of the United States Senate as required by OMB 
Bulletin No. 01-09, ``Form and Content of Agency Financial 
Statements.'' This project was kicked off in November 2001. The final 
report and all required deliverables of the Senate wide financial 
statements for fiscal year 2000 were completed in April 2002. Based on 
the results of this exercise, suggestions for corrective actions were 
given and the Disbursing Office is working in conjunction and with full 
cooperation from the SAA Finance Division to establish a corrective 
action plan and schedule, including a Senate-wide capitalization 
policy. Another corrective action was the need to have written 
accounting procedures for the Secretary's Revolving Funds. With the 
assistance of the Deputy for Financial Management, all the Secretary's 
revolving funds completed their written procedures by December 2002.

                            ACCOUNTS PAYABLE

Audit Department
    One of the two sections under the Accounts Payable Department is 
the Audit Section. The Accounts Payable Audit Department is responsible 
for auditing vouchers and answering questions regarding voucher 
preparation and the permissibility of the expense, providing advice and 
recommendations on the discretionary use of funds by the various 
accounting locations, identifying duplicate payments vouchered by 
offices, monitoring payments related to contracts, training new Office 
Managers and Chief Clerks about Senate financial practices, training 
Office Managers in the use of the Senate's Financial Management 
Information System, and assisting in the production of the Report of 
the Secretary of the Senate. The Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances adjusted for 
reuse of the advance funds. An ``aging'' process is also performed to 
ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Department, currently a group of eleven, 
has the responsibility for the daily processing of expense claims 
submitted by the 160 accounting locations of the Senate. During the 
first months of the year, the Accounts Payable Audit Department had 
some turnover and some new auditors were hired. The new audit staff has 
been fully trained and during fiscal year 2002, the Department has 
processed approximately 129,000 expense vouchers. The voucher 
processing ranges in scope from providing interpretation of Senate 
rules, regulations and statute, applying the same to expense claims, 
monitoring of contracts and direct involvement with the Senate's 
central vendor file. After relocating back to the Senate Hart Building 
and once again being fully staffed, the Department was able to audit 
vouchers within two days of receipt. On average, and as long as the 
voucher did not have any issues or questions, vouchers were received, 
audited, sanctioned by Rules and paid within the required directive of 
10 business days.
    During December 2002, the Chairman of the Committee on Rules and 
Administration delegated the sanctioning authority of vouchers $35.00 
or less to the Financial Clerk of the Senate. These vouchers are 
sanctioned by the Certifying Accounts Payable Specialists and are 
received, audited, and paid within 5 business days of receipt.
    The Accounts Payable Audit Department provided training sessions in 
the use of new systems, the process for generation of expense claims, 
the permissibility of an expense, and participated with seminars 
sponsored by Secretary of the Senate, Sergeant at Arms, and the Library 
of Congress. The Section was trained 12 new Office Managers and Chief 
Clerks and conducted 4 informational sessions for Senate staff through 
seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable Department also assisted the IT Department in 
the testing and implementation of the new travel advance reporting. The 
new travel advance reporting became effective in September 2002 and 
with this new process, travel advances are accounted for as 
obligations. The Accounts Payable Audit Department has been fully 
trained in the new travel advance system and in the use of the four new 
WEB inquiries. Disbursing staff participated in the SAVI (Senate 
Automated Vendor Information) system training to assist Senate staff 
with any questions related to their reimbursements paid either by ACH 
(Automated Clearing House) or by check.

Disbursements Department
    The second department under the Accounts Payable Department is the 
Disbursements Department. The Accounts Payable Disbursements Department 
consists of four individuals whose primary responsibility is the 
receipt of more than 129,000 individual expense vouchers and the 
writing and delivery of the resulting 53,000 checks in payment thereof.
    During the month of April, the Disbursing Office started making 
payments to Senate staff via ACH (Automated Clearing House). From April 
through December, the Department issued approximately 9,500 wire 
transfers for expense reimbursements. The Department also took over and 
currently maintains the Senate's central vendor file that includes the 
addition of approximately 2,000 to 3,000 new vendors per year to an 
existing vendor file of more than 30,000.
    The Disbursement Department is responsible for researching returned 
checks as vendors request additional information relating to payment 
allocation. The department also prepares the forms required by the 
Department of Treasury for stop payments. These stop payments result 
from employees not receiving salary or expense reimbursements, and 
vendors claiming non-receipt of expense checks.
    This year, the group processed approximately 330 stop pays. During 
the summer, a stop pay tracking table was created in Excel to better 
track their status. The process of reissuing checks and/or subsequent 
collection of erroneously issued checks also falls within the scope of 
this department. On a semiannual basis, the staff here is also 
responsible for filing, rotating and archiving all expense vouchers 
processed and paid by the Disbursing Office.
    Monthly, the Accounts Payable Disbursement Department assists the 
Accounting Department in the preparation and distribution of the 
monthly ledger statements for delivery to the 160 accounting locations 
throughout the Senate. This includes the maintenance of a central file 
of office contacts and the maintenance of a list of special 
instructions for handling the distribution of the statements. The 
ledger statements are produced, sorted, and ultimately delivered or 
picked up according to the list of special instructions.
    The Disbursements Department has been tasked to prepare the 
quarterly State tax returns. The amounts are provided in spreadsheet 
form and payment coupons are prepared for the 43 State jurisdictions. 
The payment coupons are obtained from each jurisdiction either in 
hardcopy format or on-line via the Internet. Vouchers are prepared from 
the payment coupons and checks are generated from the vouchers. Once 
the checks are written, letters of transmittal are prepared and mailed 
to the appropriate State jurisdictions and the District of Columbia.
    The Accounts Payable Disbursements Department also assisted the IT 
Department in the testing and implementation of the new travel advance 
reporting which became effective in September 2002. This Department 
also has been fully trained in the new travel advance system and in the 
use of the four new WEB inquiries. They also participated in the SAVI 
(Senate Automated Vendor Information) system training to assist Senate 
staff with any questions related to their reimbursements paid either by 
ACH (Automated Clearing House) or by check.
    Currently, the Accounts Payable Disbursements Supervisor is in the 
process of training one newly hired staff person and implementing the 
Department of Treasury--Financial Management Service (FMS) on-line stop 
pay process called PACER. This PACER system provides on-line access to 
digital images of negotiated checks for viewing and printing.

                           BUDGET DEPARTMENT

    The third component of the Disbursing Office financial management 
group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). This year the budget justification worksheets were 
mailed to the Senate accounting locations during January and responses 
were received in the first week of February. This department is also 
responsible for the formulation, presentation and execution of the 
budget for the Senate and provides a wide range of analytical, 
technical and advisory functions related to the budget process. The 
Budget Department acts as budget officer for the Office of the 
Secretary, assisting in the preparation of testimony for the hearings 
before the Committee on Appropriations and the Committee on Rules and 
Administration. The group is also responsible for reporting to the 
Office of Management and Budget, via the MAX database, the budget 
baseline estimates that were developed for fiscal year 2004.

                DISBURSING OFFICE INFORMATION TECHNOLOGY
                FINANCIAL MANAGEMENT INFORMATION SYSTEM

    The Disbursing Office Information Technology (IT) Department, 
currently operating with a staff of four, provides both functional and 
technical assistance for all Senate Financial Management activities. 
Activities revolve around support of the Senate's Financial Management 
Information System (FMIS) which is used by approximately 140 Senate 
accounting locations (i.e., 100 Senator's offices, 20 Committees, 20 
Leadership & Support offices, and the Disbursing Office). 
Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities 
        and Continuation of Operations Plan (COOP).
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2002, 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
Bearing Point (formerly known as KPMG).
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, and database administration; and 
regular batch processing. Bearing Point is responsible, under the 
contract with the SAA, for operational support, and under contract with 
the Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of three Web FMIS releases, one of these made Travel 
        and Petty Cash advances obligations of the office which 
        required substantial revisions to the accounting for advances 
        (March, July and September 2002);
  --Articulation of a five year Disbursing Office Strategic Initiatives 
        plan, which formed the base for Secretary of the Senate's 
        request for $5 million in multi-year funds for further work on 
        the FMIS project (April 2002);
  --Pilot and Senate-wide implementation of the Senate Automated Vendor 
        Inquiry system (SAVI), a Web site on which all Senate staff can 
        lookup the status of reimbursements (Pilot--Spring 2002; 
        Senate-wide availability--July 2002);
  --Pilot of Web-ESR, a sub-system of SAVI that enables Senate staff to 
        create a travel expense summary form on-line and submit it 
        electronically to their office manager (Fall 2002);
  --Implementation of a revised Office Information Authorization form 
        and scanning of this form. The new form combines three old 
        forms, which significantly simplifies the paperwork required by 
        the DO. Scanning the forms make them immediately available to 
        all DO staff which has improved our efficiency (October 2002);
  --Implementation of a new document approval process for vouchers of 
        $35 or less. Under this, vouchers of $35 or less do not go to 
        the Committee on Rules and Administration for sanctioning, but 
        instead are routed to certifying Accounts Payable specialist 
        for review and posting to FAMIS. This has reduced the amount of 
        time required to pay a voucher (December 2002); and
  --Implementation of Outlook as the DO's e-mail system (December 
        2002).
    In the past four years many subsystems providing additional 
functionality have been added. These subsystems are outlined in the 
table on the following page.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                         Functionality                           Source                       Primary Users           Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)...........  Financial general ledger................  Off the shelf federal system    Disbursing Office.............  October 1999
                              Vendor file                                purchased from Bearing Point.
                              Administrative functions
                              Security functions
ADPICS (Mainframe)..........  Preparation of requisition, purchase      Off the shelf federal system    Sergeant at Arms..............  October 1999
                               order, voucher from purchase order, and   purchased from Bearing Point.  Disbursing Office
                               direct voucher documents.                                                Secretary of the Senate
                              Electronic document review functions
                              Administrative functions
Checkwriter (Client-server).  Prints checks and check registers.......  Off the shelf state government  Disbursing Office.............  October 1999
                                                                         system purchased from and
                                                                         adapted to Senate's
                                                                         requirements by Bearing Point.
Web FMIS (Client-server and   Preparation of vouchers, travel           Custom software developed       All Senators offices..........  October 2000
 intranet).                    advances, vouchers from advance           under Senate contract by       All Committee offices
                               documents, credit documents and simple    Bearing Point.                 All Leadership & Support
                               commitment and obligation documents.                                      offices
                              Entry of detailed budget                                                  Secretary of the Senate
                              Reporting functions (described below)                                     Sergeant at Arms Disbursing
                              Electronic document submission and                                         Office
                               review functions
                              Administrative functions
FATS (PC-based).............  Tracks travel advances and petty cash     Developed by SAA Technology     Disbursing Office.............  Spring 1983
                               advances (available to Committees only).  Services.
                              Tracks election cycle information
SAVI (Intranet).............  As currently implemented, provides self-  Off the shelf system purchased  Senate employees..............  Pilot--Spring
                               service access (via the Senate's          from Bearing Point.                                             2002
                               intranet) to payment information for                                                                     Senate-wide--
                               employees receiving reimbursements via                                                                    July 2002
                               direct deposit.
                              Administrative functions
Web ESR (Intranet)..........  A component of SAVI through which Senate  Custom software developed       Senate employees..............  April 2003
                               employees can create on-line Travel       under contract by Bearing
                               Expense Summary Reports and submit them   Point.
                               electronically to their Office Manager/
                               Chief Clerk for processing.
Secretary's Report            Produces the Report of the Secretary of   Custom software developed       Disbursing Office.............  Spring 2000
 (Mainframe extracts,          the Senate.                               under contract by Bearing
 crystal reports, and client-                                            Point.
 server ``tool box'').
Ledger Statements (Mainframe  Produces monthly reports from FAMIS that  Developed by SAA Technology     Disbursing Office Senate        Winter 2000
 database extracts, and        are sent to all Senate ``accounting       Services.                       Accounting Locations.
 crystal reports).             locations''.
Web FMIS Reports (mainframe   Produces a large number of reports from   Custom software developed       Senate Accounting Locations...  October 2000
 database extracts, crystal    Web FMIS, FAMIS and ADPICS data at        under contract by Bearing
 reports, client server, and   summary and detailed levels. Data is      Point.
 Intranet).                    updated as an overnight process and can
                               be updated through an on-line process
                               by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
and the Disbursing Office Accounts Payable, Accounting, Disbursements 
and Front Office Sections. The activities associated with this 
responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staffs the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Office Managers 
        and Chief Clerks as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Training--provide functional training to all Senate FMIS users. 
        During 2002, the IT Department conducted 37 classes, seminars, 
        and demonstrations on Web FMIS. The class schedule is issued 
        quarterly and the classes offered were:
      Introduction to Web FMIS--conducted eight times. This hands-on 
        class covers the basics of preparing, printing, and submitting 
        vouchers and travel vouchers, and managing your inbox. Also 
        covered are adding items to an office's lookup tables (e.g., 
        vendor and expense category), using search to find records, and 
        what information goes in the Unique Invoice Number and Account 
        Number fields.
      Web FMIS Budget & Reports Seminar--conducted eight times. This 
        demo-style seminar covers how to enter and change an office's 
        budget, and how different budgets show on an office's Summary 
        of Financial Status Report. Several budgets, from simple to 
        complex are discussed, based on the interests of the attendees. 
        Also discussed are the on-line reporting functions including 
        refreshing report data and exporting report data into another 
        application (e.g., Excel). In addition, we look in detail at 
        the Analysis by Vendor, Analysis by Expense Category, and 
        Analysis by Office Control Number Reports, at the Changed 
        Document Report, and other reports based on the interests of 
        the attendees.
      Web FMIS Reconciliation Class--conducted five times. This hands-
        on class covers how to reconcile an office's Web FMIS balance 
        with the DO's balance on a monthly basis.
      Web FMIS Special Topics--conducted three times. Occasionally a 
        ``special topics'' seminar covering different subjects is held. 
        Twice, in May and November, the seminar topic was how to use 
        commitments and obligations. This seminar is offered at the 
        points in the year when offices are most likely trying to 
        estimate expenses through the end of the fiscal year.
      User Demos--In advance of each Web FMIS release, we demonstrate 
        at a Joint Office Manager Chief Clerks meeting, the new 
        functionality included in the release. In addition, we repeat 
        this demo for those unable to attend the meeting and conduct a 
        ``hands-on'' class covering the same material for those who 
        prefer to ``do it'' rather than ``see it''. For Web FMIS 
        release 5, we presented this material four times; for release 6 
        we presented this material three times; and for release 7 only 
        a demo was offered. The release 7 demo also included a demo of 
        SAVI functionality.
      DO Staff Training--During 2002 the DO staff received the same 
        training as Office Managers and Chief Clerks. For the DO staff, 
        the DO IT section conducted a Web FMIS release 5 class twice; 
        the Budgets & Reports seminar twice; and the Reconciliation 
        class once.
  --Security--30 ADPICS, FAMIS and 80 Web FMIS users and other users as 
        requested by Senators and Chairmen, added, deleted, and changed 
        user rights for, as well as, maintaining the document approval 
        paths and creating new approved paths for vouchers less than 
        $35. One of the most important functions the DO IT staff 
        perform is maintaining user rights for all ADPICS, FAMIS, and 
        Web FMIS users.
  --System Administration--design, test and make entries to tables that 
        are intrinsic to the system (i.e., preparation for change in 
        fiscal year, change in Senate organization tables or new 
        office, new accounting transaction codes, new approval path for 
        vouchers of $35 or less, 108th Congress); and
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities. During 2002, the following 
        activities were performed--Upload of files into FAMIS, Year End 
        rollover, SAVI Information Letter, and Ad hoc queries.
            Infrastructure changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2002, the following 
components of this infrastructure were changed:
  --Mainframe hardware and software--upgrade of the mainframe security 
        software (ACF/2), database (DB/2v7), and operating system 
        (OS390/2.10 [including CICS and CA/7 upgrades], OS Upgrade for 
        mainframe upgrade, and Mainframe Upgrade) required that the 
        Disbursing Office extensively test all FMIS subsystems both in 
        a testing environment and in the production environment which 
        in turn enabled installation of a new mainframe in December 
        2002;
  --Printing online via ``Reveal''--installation of the ``Reveal'' 
        software enables the DO staff to examine mainframe reports 
        online and eliminated daily printing of large reports; and
  --Senate ``Helpdesk'' support vendor--the SAA contracted with a new 
        company, Signal/Veridian, to provide hardware and software 
        installation services for offices and to provide a 
        ``helpdesk''. Met with representatives of the company to 
        demonstrate the Web FMIS application and answer questions about 
        system implementation.

Managing and testing new system development
    During 2002, we supervised development, performed extensive 
integration system testing and implemented changes to the following 
FMIS subsystems: Web FMIS; Senate Vendor Information (SAVI); Web ESR; 
and Checkwriter.
    Web FMIS.--Three major releases of Web FMIS were done in 2002, and 
one mini release was completed in 2002 but not implemented until the 
beginning of January 2003, detailed requirements for a fourth were 
completed, and general requirements for a fifth were begun. These are:
  --Web FMIS r5--Implemented in March 2002.--This release included a 
        number of ease-of-use features in the document entry function 
        (e.g., automatic population of end date from start date) and in 
        the inbox functions, the ability to refresh report data on user 
        demand (i.e., instead of having to wait for the nightly batch 
        report cycle to run), the ability to unsubmit a document, and 
        the ability to void a document;
  --Web FMIS r6--Implemented in July 2002.--This release included nine 
        new or revised reports, the most important of which are two 
        cross-FY summary reports that enable easy comparison of data 
        from up to four funding periods; a FY-independent research 
        function; and improvements in the status and history 
        information shown on each document;
  --Web FMIS r7a--Implemented in September 2002.--This release included 
        six new or revised reports, the most important of which is the 
        Summary of Financial Status by Month; submitting travel advance 
        requests and treating advances as obligations of the office, 
        which required substantial changes to the accounting underlying 
        the travel advance and voucher from advance transactions; 
        introduction of a credit document to accompany repayments; 
        addition of equipment certification language which eliminates 
        stamping the invoice that the equipment is Senate-owned or 
        leased; and addition of disbursement type information (i.e., 
        check or direct deposit) in the payment information field on 
        each document and in the vendor file;
  --Web FMIS r7a for Windows XP--Implemented in January 2003.--This was 
        a technical release that made changes necessary for Web FMIS to 
        run on Windows XP PCs, which is the operating system that new 
        Senators' offices received. No new functionality was involved 
        in this release, but Bearing Point made technical changes to 
        the software which we tested;
  --Web FMIS r7b--Implemented April 2003.--This release enables the 
        Rules Committee to review documents and perform sanctioning on-
        line. During 2002, we met with Rules Committee Audit staff and 
        Bearing Point to complete requirements and detail design 
        discussions for this new functionality. Bearing Point completed 
        the programming for this functionality as well. Implementation 
        of this release was originally scheduled for December 2002, but 
        was postponed to April 2003, due to installation of a new 
        mainframe computer in November 2002, during the time that this 
        release was scheduled for testing. Due to the timing of this 
        release, it will also include technical changes to the 
        underlying mainframe software, WebSphere, from ``compliance 
        mode'' to ``compatibility mode,'' which is required before the 
        software can be upgraded to WebSphere release 4, currently 
        scheduled for June 2003, and will apply the changes required 
        for the Windows XP PC operating system to all supported PC 
        operating systems;
  --Web FMIS r8--Release not currently scheduled.--During 2002, we 
        began requirements discussions on changing the underlying 
        security paradigm of Web FMIS. This would allow us to more 
        exactly control the user rights to different kinds of Web FMIS 
        users. Implementation was originally scheduled for April 2003, 
        but has been postponed due to the revised release 7b 
        implementation date;
  --Senate Automated Vendor Inquiry (SAVI).--One of the Senate's goals 
        in implementing FMIS was reimbursing employee expenses and 
        paying vendors via direct deposit. We have been prepared to pay 
        via direct deposit for some time, however the benefit of doing 
        so was limited if a notice acknowledging payment still had to 
        be sent to the employee. In other words, if we have to send a 
        check stub-like notice via mail, why not just send the check 
        with check stub via mail? With the Spring 2002 pilot and then 
        the Senate-wide implementation of SAVI in July 2002, the Senate 
        resolved this issue and took a major step towards meeting the 
        direct deposit payment goal. SAVI, an intra-net enabled system, 
        allows Senate employees to inquire on the status of payments, 
        and provides the deposit information that would be on a check 
        stub.
      Since this system is inside the Senate's firewall, it is 
        available only to Senate staff. As of July 2, 2002, all Senate 
        employees who receive their paycheck via direct deposit were 
        given an option to receive any expense reimbursements via 
        direct deposit. Implementing direct deposit reimbursements 
        required coordination with the Federal Reserve and the Senate 
        Credit Union. All Senate staff were notified of this change in 
        a Senate-wide mailing, and new staff are notified in a new 
        employee mailing. Provisions were made for Senate staff who 
        preferred to continue to receive check reimbursements and for 
        staff who wanted reimbursements to be deposited to an account 
        different from the account for their paychecks. Thus, staff 
        ``opt-out'' if they don't want to receive reimbursements via 
        direct deposit. On the other hand, Senators have to ``opt-in'' 
        if they want to receive reimbursements via direct deposit.
      Two releases of SAVI were implemented in 2002. The first was used 
        by the pilot and for the July Senate-wide implementation. Based 
        on comments from the pilot, we also defined requirements for a 
        second release of SAVI that substantially improved the display 
        of payment information and provided more useful search 
        criteria. This was released in September 2002;
  --Web ESR.--This system, a subsystem of SAVI, enables Senate staff to 
        complete an on-line Travel Expense Summary Report (ESR) and 
        submit it so that their office manager can ``import'' the data 
        and create a voucher, without retyping the ESR data. As of the 
        end of December 2002, it was in use by employees in 10 pilot 
        offices and was to be implemented in new Senators offices and 
        in offices with new office managers. Currently, this 
        application is Intra-net based, but its first implementation, 
        to a pilot group in the Spring of 2002, was as a client-server 
        application. The original application was well received, but 
        the pilot users requested enhancements that were difficult to 
        provide in a client-server application. We decided to re-write 
        the application and tie it to SAVI so that Senate staff could 
        use one system to create ESRs and to check the status of 
        reimbursements. In the Fall of 2002, the pilot offices gave us 
        additional feedback on Web ESR, and during 2002 we began 
        defining requirements for the next release of Web ESR. 
        Implemented with Web FMIS r7b in April 2003; and
  --Checkwriter.--During 2002, we defined requirements for, tested and 
        implemented several new versions of the checkwriter software, 
        which enables printing U.S. Treasury Checks, and compiling the 
        direct deposit file transmitted to the Federal Reserve. We also 
        defined requirements for additional checkwriter releases that 
        will be implemented in 2003. In addition, we began 
        investigating alternatives for the checkwriter printer to find 
        one that provides more flexibility in the event of a disaster.

Planning
    There are two main planning activities: schedule coordination--
planning and coordinating a rolling 12 month schedule; and strategic 
planning--setting the priorities for further system enhancements.
    Schedule Coordination.--While we were evacuated from the Hart 
Building due to anthrax contamination, the DO staff worked at Postal 
Square in the same space as the SAA and Bearing Point staff. This 
enabled ad-hoc meetings and easy communication. When the DO staff 
returned to the Hart Building in January 2002, we wanted to continue 
the effectiveness of our co-location. Meetings with the DO, SAA and 
Bearing Point staff have evolved into three types of meetings:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings);
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss co-ordination among the active projects, including 
        scheduling activities and resolving issues; and
  --``Project Office''--a monthly meeting among senior Senate staff 
        (e.g.,the Financial Clerk, Rules Committee staff), the Bearing 
        Point engagement partner, SAA technical and functional staff, 
        DO IT and functional staff, and Bearing Point staff to discuss 
        progress on each project.
    Strategic Planning.--The FMIS strategic plan has a longer time 
horizon than the rolling 12-month time frame of the technical meeting 
schedule. It is designed to set the direction and priorities for 
further enhancements. In 2002, a five year strategic plan was written 
by the IT and Accounting staff for Disbursing Office Strategic 
Initiatives. This detailed description of five strategic initiatives 
formed the base for Secretary of the Senate Jeri Thomson's request for 
$5 million in multi-year funds for further work on the FMIS project. 
The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        again occur;
  --Web FMIS--Requests from Accounting Locations.--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System--Requests from Accounting Locations.--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Sub-system Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.

Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office. We 
facilitated two major upgrades to our LAN during 2002, installation of 
new PCs and migration of our e-mail to Outlook, completed several 
projects for the Payroll and Employee Benefits sections, and installed 
new software for the DO staff working on the Report of the Secretary of 
the Senate.
  --New PCs and Laptops.--In August 2002, the 50 DO staff received new 
        PCs with the Windows 2000 professional operating system. In 
        order for all PCs to be identical, it is our practice to create 
        a DO-specific PC template, which is used when the new PCs are 
        set up by the vendor. This enables testing of all applications 
        that the DO uses, including mainframe applications that are 
        used solely by the DO. Thus conflicts between the new operating 
        system and the applications we use can be identified and 
        resolved prior to installation of 50 PCs. The creation and 
        testing of the DO Windows 2000 professional workstations was 
        completed before the August 2002 installation date. Following 
        this, we co-ordinated the purchase, installation and testing 
        for replacement of the DO's ten laptops with laptops using the 
        Windows 2000 professional operating system;
  --Outlook.--In December 2002, we migrated our e-mail system from 
        cc:Mail to Outlook. This upgrade required installation of a new 
        server, training for all the DO staff, and extensive work to 
        recreate office mailing lists;
  --Projects for Payroll and Employee Benefits Sections.--We supported 
        activities of the Payroll and Employee Benefits sections with 
        four specific projects:
    --Coordinated the development of a Payroll Imaging system to 
            electronically capture payroll documents turned in at the 
            DO front counter, including ordering all required system 
            components. This system is still being implemented;
    --Installed the required software and worked with the SAA to 
            establish proper communication protocols to provide the 
            Employee Benefits section the ability to transmit employee 
            health plan information electronically to the National 
            Finance Center in order to participate in a new program 
            called Centralized Enrollment Clearinghouse System (CLER);
    --Posted Overtime Schedules for different work weeks along with a 
            generic time sheet on the DO website. This eliminated 
            maintaining hard copies of the various work weeks at our 
            front counter;
    --In October 2002, we implemented a revised permissions form, the 
            Office Information Authorization form, which combined three 
            old forms. This significantly simplified the paperwork that 
            offices are required to submit in order to add, delete or 
            change user rights for Web FMIS users. Additionally, these 
            forms are now scanned and therefore available to all DO 
            staff the same day that the document is received. This has 
            eliminated the need for a database of users and improved 
            efficiency; and
    --Migrated the DO Fedline system from a DOT matrix printer to a 
            laser printer.
  --Software for the Report of the Secretary of the Senate.--Several DO 
        staff review and edit data for the Report of the Secretary of 
        the Senate. This requires special software and dictionaries. We 
        performed the following on this software: Coordinated the 
        update and installation of the ``Toolbox'' software (provided 
        by Bearing Point) on the new PCs; reviewed existing spell check 
        dictionaries, and worked with Bearing Point to make the 
        required updates; and established procedures to ensure that 
        dictionaries are maintained after each reporting cycle.

Coordinating the Disbursing Office's Disaster Recovery Activities
    The DO's disaster recovery activities include two related 
activities:
  --Disaster Recovery Testing--participating in the computer system 
        disaster recovery tests conducted by the SAA; and
  --Coordinating the Continuation of Operations Plan (COOP)--the COOP 
        is the broader focused activity and addresses all aspects of DO 
        operations, not just computer operations.
    Disaster Recovery Testing.--Since 1995, the SAA has contracted with 
an offsite contractor for backup services in case of a disaster 
affecting the Senate's main data center. The Senate's Payroll system 
and FMIS are included in this recovery process. Since the contract's 
inception, the Senate has tested its ability to restore systems and 
perform normal activities at least once, and often twice a year. 
Disbursing Office staff and SAA Procurement staff are active 
participants in the planning and execution of these tests. For 2002 two 
tests were planned: one in late February and one in the late fall. Only 
one test, the February test, was actually held. In this test, the 
mainframe subsystems of FMIS (i.e., ADPICS and FAMIS) were tested 
successfully, but two critical subsystems, checkwriter and Web FMIS, 
were not tested successfully. The checkwriter testing failed for the 
second disaster recovery test in a row, and Web FMIS was not tested at 
all. Both were scheduled to be included in the fall 2002 test, but that 
test was cancelled because the contractor's computer was not running 
the same version of the mainframe operating system, OS390 v2.10, which 
the Senate implemented in August 2002. The tests were subsequently 
rescheduled for February of 2003 and subsequently conducted with 
favorable results.
    Disaster Recovery Background.--Every night, data and software from 
the Senate's mainframe computer systems are backed up to a magnetic 
cartridge and taken to First Federal Corporation, which provides a 
secure off-site facility. In the event of a disaster in the SAA 
computing facilities at Postal Square, SAA technical staff would 
immediately arrange to have the data, software, and appropriate 
operating instructions forwarded from the off-site facility to one of 
the contractor's data centers. Senate staff would travel to this 
facility to oversee the restoration of all software and data on the 
contractor's computer. By contract, restoration would be complete 
within 24 hours and systems would then be available to users. Sungard's 
facilities can currently support up to 48 concurrent Senate users.
    Disaster Recovery of the Payroll System.--Several key components 
are necessary for access to the payroll system after the restoration of 
data at the contractor's facility is complete. At least one terminal 
identification (term-ID) must be coded in the payroll system to allow 
CICS access because the payroll application has an internal security 
module that ties a user to a specific term-ID that controls user 
access. Another key component is FTP software that allows the movement 
of files from point to point.
    Most payroll payments are made via Direct Deposit to the Federal 
Reserve Bank using the Automated Clearing House (ACH). After the 
payroll system is closed-out for the payroll period, the SAA 
programmers provide an ACH data set which is transmitted to the Federal 
Reserve Bank in Atlanta, Georgia, via a specially configured PC 
containing an encryption board and a specialized modem. During our 
evacuation from the Hart Building, the DO did not have access to the 
Fedline PC. The DO entered into an open-ended agreement with the Senate 
Federal Credit Union that allows the DO to transmit from their facility 
in Alexandria, VA. The Federal Reserve Bank of Atlanta must be notified 
prior to any transmission changes, but this agreement gives us the 
flexibility to transmit from an alternate access point in the event we 
encounter transmission problems in the future.
    Disaster Recovery for FMIS.--The DO has participated in disaster 
recovery testing of mainframe FMIS facilities since the system was 
implemented in October 1998. For the February 2002 test, DO and SAA 
Procurement staff tested the various modules of the mainframe 
application to ensure they were functioning correctly at the back-up 
site. Using workstations connected to the Senate's fiber network as 
well as laptop computers dialing into the offsite location, users have 
tested various types of document preparation and posting to FAMIS. In 
addition, batch report testing, and system inquiries into both the 
procurement and financial modules were tested. Finally, various batch 
processing tasks were tested to ensure that they perform as expected. 
In the February 2002 testing, these tests were completed 
satisfactorily.
    Three components of FMIS, checkwriter, Web FMIS, and printing of 
ADPICS purchase orders and vouchers, have not been tested 
satisfactorily. Testing of the ``checkwriter'' process, which generates 
checks in payment to vendors, failed in the February 2002 test because 
communications between the check writing facilities in the Hart 
Building and the contractor's data center could not be completed in the 
testing time frame allowed under the Senate's contract. This was a 
repeat of the problem experienced in the spring 2001, despite a longer 
testing time frame for the February 2002 test.
    No disaster recovery testing of Web FMIS was accomplished during 
2002. Such testing required installation of additional hardware and 
software at the contractor's facility. Testing of Web FMIS was 
scheduled for the fall 2002 recovery testing, but did not happen due to 
the cancellation of the fall 2002 disaster recovery test described 
above.
    Printing of ADPICS purchase orders and vouchers is not possible 
with the current disaster recovery communications infrastructure of 
``dial-up'' lines. Workaround facilities or a revised infrastructure 
have not been finalized for this functionality. As a result, entities 
that prepare ADPICS purchase orders and vouchers, primarily the 
Secretary of the Senate and the SAA, would not be able to print these 
documents in the event of a disaster. The proposed Alternate Computer 
Facility would have more advanced infrastructure and thus such 
documents would be able to be printed.
    Coordinating COOP.--During the summer of 2001, the DO staff wrote a 
Continuation of Operations Plan (COOP). This document addresses issues 
beyond the scope of disaster recovery. The plan was activated on 
October 21, 2001, when the DO staff were evacuated from the Hart 
Building due to anthrax contamination, and deactivated in January 21, 
2002, when we returned. Prior to our reoccupation of our Hart office 
space, we tested all DO office systems to ensure that they were 
operational and facilitated a review of our office space by a disaster 
restoration specialist from an outside contractor. Additionally, we 
participated in the planning and execution of the June 22, 2002 COOP 
exercise.

                         ADMINISTRATIVE OFFICES

                    1. CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include: 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate Leadership.
    As part of several Senate traditions, for more than 22 years, this 
office has bound a copy of Washington's Farewell Address for the annual 
Washington's Farewell Address ceremony. In 2002, a volume was bound and 
read by Senator Jon S. Corzine, and this year, Senator Saxby Chambliss 
read the Address and received a copy of the bound edition.
    In addition, the office continued its work for the Leader's Lecture 
Series with the fabrication of two speech holder boxes and leather 
notebooks. The office also fabricated for the Office of 
Interparliamentary Services, seven marbled paper slipcases for the 
book, The United States Capitol: Photographs by Fred J. Maroon.
    At the direction of the Secretary of the Senate, and the Senate 
Gift Shop, marbled paper liners were fabricated for twelve mahogany 
boxes to house a ceremonial gavel presented at the Commemorative Joint 
Meeting of the Congress of the United States in New York City. A Bible 
was gold embossed for the occasion on September 6, 2002.
    The Office of Conservation and Preservation also completed the 
following: gold-embossed 148 mats for the Senators' group picture of 
the 107th Congress, embossed 140 books for the Senate Leadership, and 
matted and framed 406 items for the Senate Leadership.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2002, conservation 
treatments were completed for 95 volumes of a 7,000 volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. In 2003, the 
Office of Conservation and Preservation will continue preservation of 
the remaining 4,277 volumes.
    In addition, this office sent 481 books from the Senate Library to 
the Library section of Government Printing Office for binding, and 
assisted the Senate Library with four exhibits located in the Senate 
Russell building basement corridor. For the Curator's office, 
Conservation and Preservation assisted with the Brumidi exhibit located 
on the first floor of the Capitol.
    On an ongoing basis, this office assists Senate offices with 
conservation and preservation of documents, books, and various other 
items.

                               2. CURATOR

    The Office of Senate Curator, under the direction of the Secretary 
of the Senate, who is the Executive Secretary of the Senate Commission 
on Art, administers the museum programs of the Senate for the Capitol 
and Senate office buildings. The curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings; and exercises supervisory responsibility for the chambers 
in the Capitol under the jurisdiction of the Senate Commission on Art. 
All records of research and documentation related to these areas of 
responsibility are available for use by Senators' offices, the media, 
scholars, and the public. With the establishment of the United States 
Capitol Preservation Commission, the Senate Commission on Art has 
become the designated recipient of objects with Senate association 
received by the Preservation Commission, and is tasked to ``provide to 
the Capitol Preservation Commission such staff support and assistance 
as the Preservation Commission may request.''

Collections: Commissions, Acquisitions, and Management
    The Senate Commission on Art unveiled new portraits of Senators 
Blanche Kelso Bruce and James Eastland last year. Other commissions 
currently in progress include paintings of Senators Bob Dole and George 
Mitchell for the Senate Leadership Portrait Collection; Senators Arthur 
Vandenberg and Robert Wagner for the Senate Reception Room; and 
Margaret Chase Smith.
    Thirty-one objects were accessioned into the Senate collection this 
year. These included three notable items associated with 19th century 
Assistant Doorkeeper Isaac Bassett: a snuff box; walking stick; and 
scrapbook of news clippings, letters, and various mementos related to 
Bassett's Senate years. The majority of the newly accessioned objects 
were historic prints.
    Twenty-six new foreign gifts were reported to the Select Committee 
on Ethics and deposited with the Curator's Office. These have been 
catalogued and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Many of these gifts reflect the 
historic, unprecedented visit of senators to countries such as 
Uzbekistan and Afghanistan.
    The Senate collection and Foreign Gifts collection were inventoried 
in 2002. A cyclical schedule to complete a wall-to-wall inventory of 
all collections every three years was established by the Registrar. 
Every year all objects on display in the Capitol and all Senate Office 
Buildings are inventoried in order to verify that no changes in 
location or condition have occurred. In addition, an inventory was 
completed of all fine and decorative arts, memorabilia, publications, 
and manuscripts located in a 4th floor storage room in the Capitol and 
the offsite warehouse. In 2003, all prints, drawings, and advertising 
images in storage will be inventoried.
    The Sergeant at Arms also approved the Secretary's request to 
obtain a lease through General Services Administration (GSA) for museum 
quality off-site storage, as the Senate Curator was asked to vacate its 
existing space. Fifty-one items, primarily historic furniture, which 
had been stored at the warehouse were temporarily relocated in October 
2002, to an off-site until such time as a GSA lease is negotiated. The 
final result will be an environmentally controlled storage space 
suitable for the storage and preservation of historic objects.
    The Associate Registrar and Curatorial Assistant initiated a 
project to professionally photograph the more than 1,000 historic 
prints in the Senate's collection. For emergency purposes, a pair of 
4''  5'' color transparencies will be created for each print, allowing 
for one complete set to be stored off-site. The in-office working copy 
will be used for image requests, future publications, and new web site 
postings. This year, the transparencies will be transferred to CD's, 
along with adding the images and associated database information to the 
Senate web site, and compiling an updated checklist publication of the 
Senate's entire historic print collection. 861 prints have been 
photographed to date.

Conservation and Restoration
    A total of 25 objects received conservation treatment in 2002. 
These included three historic clocks, one gilded window valance, 
fifteen Senate Chamber desks, and six Russell Senate Office Building 
chairs.
    This year the major project of conserving all one hundred Senate 
Chamber desks passed the halfway point. Twice a year, during Senate 
recess periods, desks are removed from the Senate Chamber and sent out 
for restoration. Treatment is extensive, and follows a detailed 
protocol developed in 1997 to address the wear and degradation of these 
historic desks due to continued heavy use. Sixty-one desks have been 
restored to date, and the project is on schedule for completion in 
August 2005. The program also involves thorough documentation of the 
condition, construction details, wood type, and measurements. 
Additional initiatives will include: professional photography; posting 
desk information on the Senate web site; developing a maintenance 
program to continue to preserve the desks; and treating the inkwells 
and sand blotters located in each desk. As part of its preventive 
maintenance program, the Curator's office continues to work with the 
Senate Sergeant at Arms Cabinet Shop to install rubber bumpers on the 
end of the Senate Chamber chairs to further eliminate damage to the 
desks.
    Six historic chairs, originally purchased for the Russell Senate 
Office Building in 1909, were studied and restored. The chairs were 
examined by professional conservators in order to determine the 
original finish and upholstery methods, and to serve as prototypes. A 
detailed protocol treatment to restore all 1909 Russell chairs to their 
historic appearance was established.
    A comprehensive Collection and Historic Structures Care manual has 
been developed. The manual will provide basic, practical information 
needed to enable non-curatorial staff within the Capitol complex to 
plan and implement sound collections care and building maintenance 
programs. The primary purpose of the manual is to teach specialized 
handling practices, identify acceptable repair, maintenance, and care 
treatments, and establish necessary monitoring and maintenance 
schedules. In addition, the Associate Curator and Registrar conducted 
training sessions for the Capitol Police on the care and protection of 
art in the Capitol. The staff also continues to work with housekeeping 
personnel on maintenance issues related to the fine and decorative arts 
collection.

Historic Preservation
    One of the office's directives is to work with the Architect of the 
Capitol to ensure the preservation of the architectural and decorative 
elements within the Senate wing of the Capitol, with emphasis on those 
spaces of primary historic and architectural significance. After making 
substantial progress in 2001, on the development of the Senate 
Preservation Program by defining a policy and procedures, the office 
spent much of the year focusing on the functionality of the program and 
how it could effectively interact with the Office of the Architect of 
the Capitol and congressional offices. Based on such considerations, 
the office identified infrastructure systems and effective procedures 
that will allow the staff to conduct and collect research, document 
current projects, respond to and approve upcoming project scopes in a 
timely manner, and develop and direct preservation projects. The 
results of those efforts include: an historic structures report 
program; a detailed index to Bill Allen's History of the U.S. Capitol; 
a draft historic context and period of significance statement for the 
Capitol; paint analysis guidelines; and office attendance at the 
Architect of the Capitol's project update meetings.
    In an effort to significantly advance the preservation program by 
putting policies and procedures into practice (in order to test and 
refine them), the office outlined two Senate-controlled preservation 
projects as test cases: the Senate Reception Room preservation project 
and the Historic American Building Survey (HABS) documentation project. 
The first phase of the Reception Room project, the development of an 
Historic Structures Report, is currently underway and will continue 
through 2003. Regarding the HABS project, the office has developed a 
plan and first phase proposal for review.
    Along with the important work of developing and implementing a 
Senate Preservation Program, the Curator's office, working in 
partnership with the Architect of the Capitol, continued to serve as 
project coordinator for the Democratic leadership suite rehabilitation 
project. Over the past year, the following tasks were completed: 
application of tinted varnish on the S-223 and S-224 enframements; 
painting the walls and enframements in S-222; painting the enframements 
in S-221; application of gold leaf in S-222, S-223, and S-224; 
restoration of the ceiling murals in S-222 and S-223; consolidation of 
the ceiling plaster in S-221; conservation of the crystal chandeliers 
in S-222, S-223, and S-224; restoration of three 1909 Russell Senate 
Office Building chairs for S-223; installation of gilded window cornice 
replicas in S-221 and S-223; and installation of new curtains in S-222 
and new rugs in S-222 and S-224.
    Serving as the Senate's authority on preservation, the office has 
extended professional advice, guidance, and services to the Architect 
of the Capitol and various congressional offices on numerous upgrade, 
renovation, preservation, and repair projects in the Senate wing of the 
Capitol. These projects include testing and stabilization planning for 
the President's Room ceiling plaster; preservation of the second floor 
corridor; mural conservation and restoration of the Brumidi Corridors; 
handicap access for the Old Supreme Court Chamber; and renovation of S-
312.

Historic Chambers
    The Curator's staff maintains the Old Senate and Old Supreme Court 
Chambers, and coordinates periodic use of both rooms for special 
occasions. By order of the U.S. Capitol Police, the Old Senate Chamber 
has been closed to visitors since September 11, 2001. Twenty-nine 
requests were received from current Members of Congress for after-hours 
access to the chamber. Four special events were held in the room. Of 
significance was former Vice President Walter Mondale's lecture 
delivered in the chamber as part of the Leader's Lecture Series. In 
addition, the Chamber was used for an educational interview with former 
Majority Leader Bob Dole conducted by the National Constitution Center 
in Philadelphia regarding the history of debate in the Senate. Senate 
Historian Richard Baker also presented a lecture to the newly-elected 
Senators of the 108th Congress. The Chamber was also used for the re-
enactment swearing-in ceremony for Senator Dean Barkley of Minnesota, 
and again on January 7, 2003, for the opening of the 108th Congress. In 
addition, B-roll footage of the room was taken by NBC to illustrate the 
historic significance of the 19th century Senate Disbursing Office 
ledgers recently found.
    On April 1, 2002, the Old Supreme Court Chamber was opened to the 
public for the first time since September 11, 2001. Nineteen requests 
were received by current Members of Congress for admittance to the Old 
Supreme Court Chamber after-hours. New carpeting was installed in the 
public area of the Old Court, and two exhibits were de-installed to 
allow easier access to the room for visitors.

Loans To and From the Collection
    A total of 63 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership in the Capitol. 
The Curator's staff returned eleven paintings to the South Dakota Art 
Museum at the expiration of their loan period, and requested nine new 
paintings from the museum for display in the Democratic leadership 
suite. One outgoing loan from the Senate collection was approved for 
the Octagon Museum; two objects from the collection and two replicas 
were loaned for display as part of the exhibition, Inside the Temple of 
Liberty.
    The Curator's office began work to assemble information on Senate 
objects under consideration for loan to the exhibition space in the 
main gallery of the Capitol Visitor Center. Approximately 50 objects 
have been identified at this time. In addition, the office facilitated 
a loan request to the Smithsonian Institution's National Museum of 
American History on behalf of the Senate Commission on Art. The 
Curator's office has identified two large, historic vases for display 
in the public area of the Capitol Visitor Center, and tentative 
approval was received from the Smithsonian pending final confirmation 
of conditions in the display location.
    The Secretary's china was distributed and returned three times in 
2002. It was used for events such as a dinner for the retiring 
Republican Senators of the 107th Congress and a Senate leadership 
dinner. The official Senate chinaware was inventoried and used at 31 
receptions for distinguished guests, both foreign and domestic.
Publications and Exhibitions
    Much of the office's focus in 2002, was devoted to producing the 
five-hundred page catalogue entitled U.S. Senate Fine Art Collection, 
which will provide previously unpublished information on the 160 
paintings and sculptures in the U.S. Senate. Each work of art is 
illustrated with a full-page color photograph, accompanied by an essay 
and secondary images that place the object in historical and aesthetic 
context. The publication features an introductory essay by art 
historian and principal author William Kloss to provide a comparative 
perspective on the collection. The book is the definitive new resource 
on the fine art in the United States Senate. Staff worked with the 
Government Printing Office on all aspects of the design and proofing of 
the publication. A printer has been selected and delivery of the 
publication is expected in the summer of 2003.
    Several brochures were reprinted, including: The United States 
Congress & Capitol: A Walking Tour Handbook, volumes I and II; The 
Senate Vestibule; and The President's Room. In addition, the office 
published a new brochure, The Republican Leadership Suite.
    The office deinstalled I Do Solemnly Swear, an exhibition of 
presidential inauguration images and a photographic diary of 
Inauguration Day 2001, and reinstalled the exhibition The United States 
Capitol: Photographs by Fred J. Maroon. The first phase of the 
exhibition Constantino Brumidi: Artist of the Capitol was installed 
under the west stairwell of the Brumidi Corridors, on the first floor 
of the Senate wing. The second phase of the exhibit will be completed 
in 2003.

Policies and Procedures
    The office undertook a major initiative to create a strategic plan, 
and started by reorganizing and prioritizing office objectives and 
developing a mission statement.
    Progress continued on preparation of a Collections Management 
Policy to be approved by the Commission on Art. The introductory 
section of the policy was reorganized to create a clear statement of 
the principles and goals that guide the Office of Senate Curator in the 
development and care of the Senate collections.

Collaborations, Educational Programs, And Events
    As part of the seminar series conducted under the auspices of the 
Secretary of the Senate and the Sergeant at Arms, the Curator's staff 
continued to deliver periodic addresses on various aspects of the 
Senate's art and history. Staff conducted or assisted with several 
sessions, including ``Congress & the Capitol: Tour Guide Series'' and 
``The Vice Presidential Bust Collection.''
    Curator staff participated as team members for the redesign of the 
Senate web site, which was launched in the fall of 2002. For the first 
time, visitors to the Senate web site can view images and catalogue 
information for all fine art in the Senate collection. Results of this 
increased visibility have already been seen, as the number of requests 
from the public for images of art in the Senate collection has nearly 
doubled.

Objectives for 2003
    Conservation and preservation concerns remain a priority. Projects 
in 2003, will include the restoration of 15 Senate Chamber desks during 
the August and fall recess periods, conservation of the frame for 
Pocahontas; and the restoration of two historic overmantel mirrors.
    Policy initiatives and strategic planning are a major endeavor. 
Additionally, the Collections Management Policy will be completed and 
submitted for peer review by museum professionals.
    A comprehensive restructuring of the Senate collection database 
will be completed. Once an outside contractor has organized the files 
and reports to the specifications of the office, collections staff will 
complete the work of cleaning up data contained in fields and create 
all additional reports and layouts needed for current collections 
related projects. An additional goal is to evaluate the options for 
display of object images in the layouts used to view the Senate 
collection database and to establish image field standards.
    Regarding the Senate Preservation Program, the Curator's office 
will begin to establish the systems necessary for the office to meet 
its preservation responsibilities and to function as the Senate's 
authority on preservation issues. The office will complete the first 
phase of the Senate Reception Room preservation project. In addition, 
the office will present to the Senate Commission on Art a proposal for 
the HABS documentation project, with emphasis on the establishment of 
CAD-related databases and documentation procedures. In the area of 
physical preservation, the office will continue to serve as the project 
coordinator for the Democratic leadership suite renovation and provide 
assistance with preservation issues related to Architect of the 
Capitol's Senate projects. In conjunction with the Architect of the 
Capitol, the office will develop a system that will assure the 
involvement of the Curator's staff in all Senate wing project planning. 
Such a plan will require the Curator's office to review all Senate wing 
projects for their effect on historic resources.
    Publications scheduled for 2003, include a brochure on the history 
of the Senate Democratic leadership suite; the Senate Appropriations 
Committee, Room S-219; and on 19th century Senate employee Isaac 
Bassett. The office will install informational panels for important 
Senate art work as part of its educational mandate with the paintings 
of George Washington at Princeton and The Recall of Columbus the first 
to be highlighted.
    Internet exhibits scheduled include web sites on the political 
cartoons of Puck, a 19th century satirical magazine, the drawings of 
Lily Spandorf illustrating the filming of the motion picture Advise and 
Consent, the Senate Chamber desks, and information on current 
conservation/preservation projects.
    As part of its emergency preparedness plan, the office will 
microfilm several important record series. Collections and history 
files, and the Isaac Bassett Papers, will be reproduced in microfilm or 
fiche, as well as digitized for both research and web publication.

               3. JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training, a shared responsibility 
between the Secretary of the Senate and the Sergeant at Arms, provides 
employee training and development opportunities for 7,000 Senate staff 
both in Washington D.C. and in the states. There are four branches 
within the department:
  --The technical training branch is responsible for providing 
        technical training support for approved software packages used 
        in either Washington or the state offices.
  --The computer training staff provides instructor-led classes; one-
        on-one coaching sessions; specialized vendor provided training, 
        computer based training; and informal training and support 
        services.
  --The professional training branch provides courses for all Senate 
        staff in areas including: management and leadership 
        development, human resources issues and staff benefits, 
        legislative and staff information, new staff and intern 
        information.
  --The health promotion branch provides seminars, classes and 
        screenings on health related and wellness issues. This branch 
        also coordinates an annual Health Fair for all Senate employees 
        and four blood drives each year.
    In 2002, The Joint Office of Education and Training offered 565 
classes with 5,566 Senate employees participating. The registration 
desk handled 13,248 requests for training and documentation.
    Of the above total, in the technical training area 321 classes were 
held with a total attendance of 1,883 students. An additional 1,686 
staff received coaching on various software packages and other computer 
related issues.
    In the professional development area, 244 classes were held with a 
total attendance of 3,683 students. Individual managers and supervisors 
were also encouraged to request customized training for their offices 
in areas of need.
    The Office of Education and Training made itself available to work 
with teams on issues related to team performance, communication or 
conflict resolution. During 2002, 50 requests for special training or 
team building were met. Professional development staff also traveled to 
State offices to conduct specialized training/team building during the 
year.
    In health promotion, 896 Senate staff participated in Health 
Promotion activities throughout the year. These activities included: 
cancer screening, bone density screening and seminars on health related 
topics. Additionally 1,163 staff participated in the Annual Health Fair 
held in September.
    The Office of Education and Training continues to coordinate with 
the Office of Security and Emergency Preparedness to provide security 
training for Senate staff. In 2002, the Office of Education and 
Training coordinated 87 sessions of Escape Hood Training for 3,514 
Senate staff.
    Since most of the classes offered are practical only for D.C. based 
staff, the Office of Education and Training continues to offer the 
``State Training Fair,'' now three years old. In 2002, three sessions 
of this program were offered to state staff. We also implemented the 
``Virtual Classroom,'' an internet based training library of 300+ 
courses. To date, 134 state office staff representing 49 Senators are 
using the training option.

                    4. CHIEF COUNSEL FOR EMPLOYMENT

    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with the legal representation 
of Senate offices in all employment law cases at both the 
administrative and court levels. Also, on a day-to-day basis, the 
office provides legal advice to Senate offices about their obligations 
under employment laws. Accordingly, each of the 180 offices of the 
Senate is an individual client of the SCCE, and each office maintains 
an attorney-client relationship with the SCCE.

Background
    Each of the SCCE attorneys came to the office after having 
practiced as employment law litigators in major, national law firms 
representing Fortune 100 corporations. All services the office provides 
are the same legal services the attorneys provided to their clients 
while in private practice. The areas of responsibilities of the SCCE 
can be divided into the following categories: Litigation (Defending 
Senate Offices in Federal Court); Mediations to Resolve Lawsuits; 
Court-Ordered Alternative Dispute Resolutions; Preventive Legal Advice; 
Union Drives, Negotiations and Unfair Labor Practice Charges; OSHA/
Americans With Disability Act (``ADA'') Compliance; Layoffs and Office 
Closings In Compliance With the Law; and Management Training Regarding 
Legal Responsibilities.

Litigation, Mediations, Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states. The SCCE 
represents a defendant Senate office from the inception of a case 
through U.S. Supreme Court review. The office handles all work 
internally without the assistance of outside law firms or the 
Department of Justice.
    During 2002, the SCCE defended Senate offices against 33 lawsuits, 
which required approximately 11,000 attorney work hours \1\. No case 
was lost.
---------------------------------------------------------------------------
    \1\ Attorney hours spent on each case include, but are not limited 
to, time for conducting the initial investigation of allegations; 
mediation with employee; negotiating settlements; reviewing employing 
office files; interviewing witnesses; investigating and responding to 
the complaint; preparing for pretrial and trial proceedings, including 
taking witness depositions, conducting extensive discovery with 
opposing counsel (propounding and responding to interrogatories, 
requests for production of documents, etc.), interviewing expert 
witnesses, preparing, researching and filing any necessary motions with 
the court, preparing witnesses for trial, preparing exhibits for trial; 
trying the case; preparing post-trial briefs; preparing appellate 
briefs; arguing before the appellate courts.
---------------------------------------------------------------------------
Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice and/or that the SCCE negotiate with the employee's attorney 
before the employee files a lawsuit. The successful resolution of such 
matters substantially reduces an office's liability.
    Also, the SCCE advises and meets with Members, chiefs of staff, 
office managers, staff directors, chief clerks and general counsels at 
their request. The purposes of the advice and meetings are to educate 
and inform Members, officers and employees and to prevent litigation 
and to minimize liability in the event of litigation. For example, on a 
daily basis, the SCCE advises Senate offices on matters such as 
disciplining/terminating employees in compliance with the law, handling 
and investigating sexual harassment complaints, accommodating the 
disabled, determining wage law requirements, meeting the requirements 
of the Family and Medical Leave Act, and management's rights and 
obligations under union laws and OSHA.

Union Drives, Negotiations, and Unfair Labor Practice Charges
    The Office provides the following with respect to a union drive: 
conducts training sessions for managers and supervisors regarding their 
legal obligations during a union campaign, negotiates an election 
agreement with the union, advises the client in selecting its 
representatives for the election, conducts training sessions for the 
employer representatives regarding improper conduct at elections, and 
conducts an investigation to determine whether ground rules exist to 
challenge the election results.

OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued. In 
2002, the SCCE handled 8 OSHA complaint procedures.

Layoffs and Office Closings in Compliance with the Law
    The SCCE provides legal advice and strategy to individual Senate 
offices regarding how to minimize legal liability in compliance with 
the law when offices reduced their forces.
    In addition, pursuant to the Worker Adjustment and Retraining 
Notification Act (``WARN''), offices that are closing must follow 
certain procedures for notifying their employees of the closing and for 
transitioning them out of the office. The SCCE tracks office closings 
and notifies those offices of their legal obligations under the WARN. 
In 2002, the SCCE advised 10 Senate offices of their legal obligations 
under this law.

Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws, thereby reducing 
their liability. In 2002, the SCCE gave 59 legal seminars to Senate 
offices. Among the topics covered were: Preventing and Addressing 
Sexual Harassment in the Workplace; The Congressional Accountability 
Act of 1995: What Managers Need to Know About Their Legal Obligations; 
Managers' Obligations Under the Family and Medical Leave Act; The Legal 
Pitfalls of Hiring the Right Employee: Advertising, Interviewing, Drug 
Testing and Background Checks; Disciplining, Evaluating and Terminating 
an Employee Without Violating Employment Laws; Management's Obligations 
Under the Americans With Disabilities Act; and Equal Pay for Equal 
Work: Management's Obligations Under the Equal Pay Act.

Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices in 
preparing and updating employee handbooks, office policies, 
supervisors' manuals, sample job descriptions, interviewing guidelines, 
and job evaluation forms to ensure that they are legally compliant.

Technological Advances
    The SCCE is continuing its implementation of two electronic systems 
that put the office at the forefront of electronic offices. First, the 
SCCE has installed and implemented a comprehensive document management 
system. The system profiles and indexes every document in the office, 
regardless of whether the document was created internally or received 
from an outside source. Thus, the office maintains all-electronic 
files. The system saves hours of time by eliminating electronic 
directory/folder-type searches, and filing cabinet searches. It also is 
instrumental in preserving institutional knowledge.
    Second, the SCCE continues its conversion to a ``paperless'' 
office. It has completed Phases I and II and most of Phase III of the 
3-phase process, which involves scanning and OCRing every document the 
office receives from an outside source. This means that all paper in 
the office, whether created on our computers or received from outside 
the office, is electronically accessible. This paperless system saves 
time and office space. In addition, it allows staff members to access 
electronically every office document from remote locations, such as a 
courtroom, and it allows the office to remain fully operational in the 
event of an unanticipated closing of the Hart building.

                              5. GIFT SHOP

    With each successive year since its establishment, the Senate Gift 
Shop has continued to provide outstanding products and services that 
maintain the integrity of the Senate as well as increase the public's 
awareness of the mission and history of the U.S. Senate. The Gift Shop 
provides services to Members, Officers and employees of the Senate, as 
well as constituents and visitors. Products include a wide variety of 
souvenirs, collectibles, and fine gift items created exclusively for 
the Senate. Services include special ordering of personalized products 
and hard-to-find items, custom framing, gold embossing, engraving, and 
shipping.

Facilities
    For several years, the services offered by the Senate Gift Shop 
were over-the-counter sales to walk-in customers at a single location. 
Today, after 10 years in operation, and as a result of extended 
services and continued growth, the Gift Shop now provides service from 
three different locations. Services from these locations include walk-
in sales, telephone orders, fax orders, mail orders, and a variety of 
special order and catalog sales.

Sales Activity
    The Gift Shop's gross sales for fiscal year 2002 are recorded at 
$1,418,065.88. The cost for goods sold during this same period was 
$1,102,433.12. This accounts for a gross profit of $315,632.76. Records 
show total gross sales in fiscal year 2001 were $1,585,062.49. This 
represents a decrease in sales of $166,996.61 from fiscal year 2001 to 
fiscal year 2002, largely due to the impact of September 11, 2001, and 
the anthrax incident.
    In addition to tracking profit from gross sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2002, the balance in the revolving fund was $880,022.88 
with on-hand inventory valued at $1,997,419.86.
    At the request of the Secretary, the General Accounting Office will 
conduct an audit of the fiscal year 2002 transactions of the Senate 
Gift Shop's Revolving Fund.

Technology Upgrades
    One of the most important objectives for 2003, is replacing our 
outdated software application, Basic Four, which is more than 20 years 
old and no longer meets the increasingly unique needs of the Gift Shop. 
During the first three quarters of 2002, the Secretary of the Senate, 
through the Senate Gift Shop, and with the assistance of staff from the 
Senate Offices of Disbursing, and the Customer Support Division of the 
Sergeant at Arms, studied proposals in search of an outside vendor who 
would provide and install the most suitable retail and financial 
management software package. The necessary funds for this upgrade were 
included in the Secretary's budget request for fiscal year 2003 and 
have been appropriated. The selected vendor will provide required 
technical assistance during implementation, training of Gift Shop 
staff, and continued technical support of the new system.

Accomplishments and New Products in 2002

            Official Congressional Holiday Ornaments
    The year 2002 marked the beginning of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles will feature an architectural 
milestone of the United States Capitol with each image of the Capitol 
and corresponding historical text taken from the book, History of the 
United States Capitol: A Chronicle of Design, Construction, and 
Politics by William C. Allen, architectural historian in the office of 
the Architect of the Capitol.
    The 2002 ornament, our 10th annual ornament, pictures the original 
architectural design of the Capitol by William Thornton. In keeping 
with tradition, the authentic colors of the original drawing were 
reproduced onto white porcelain stone and set with a brass frame 
finished in 24kt gold.
    Holiday sales of this ornament in 2002 were strong and additional 
sales are expected throughout 2003. Revenue from the sale of more than 
35,000 of these ornaments has generated more than $40,000 in 
scholarship funding for the Senate Child Care Center.

            Pickard China Porcelain ``Liberty'' Box
    The ``Liberty'' box is the first in a series of four porcelain 
boxes that will display different images from the Constantino Brumidi 
fresco painted on the ceiling of the President's Room located in the 
Senate Wing of the United States Capitol. ``Liberty'' is one of four 
allegorical figures that represents the foundations of the government--
the other three are Executive, Religion, and Legislation. These boxes 
will be released on an annual basis.

            Temple of Liberty Greeting Cards
    Peter Waddell, a local artist, created the ``Temple of Liberty'' 
collection. His oils on canvas depict the interiors of the Capitol 
Building, and the visitors to it, as they might have appeared in the 
19th century when the Capitol was still in its early years of 
construction. The Senate Gift Shop secured exclusive rights to 
reproduce these images onto greeting cards which are now sold as boxed 
sets. The beautiful tones and colors of Mr. Waddell's works have been 
faithfully reproduced on the face of the cards. On the reverse of each 
of these cards is the artist's written interpretation of that 
particular painting. The Gift Shop reviewed the written interpretation 
to confirm both clarity and factuality.

            Capitol Visitor Center Coins
    When the U.S. Mint terminated its promotion and sale of the Capitol 
Visitor Center (CVC) coin in June 2002, the Gift Shop, with the 
assistance and guidance of Senate Legal Counsel, arranged to purchase 
the balance of the more than 22,000 already minted CVC coins. In order 
to better promote the CVC and to better showcase the CVC coins, the 
Gift Shop has successfully incorporated the coin into a variety of 
appropriate gift items:
  --CVC coins encased in Lucite paperweights have sold well since their 
        development last year.
  --During the latter half of 2002, the Gift Shop worked with a vendor/
        manufacturer to create ladies' and men's wristwatches and 
        pocket watches with CVC coins serving as the face.
  --Other items incorporating the use of the coins are in various 
        stages of development and will be introduced later in 2003.

            Products Created for the Commemorative Joint Session of 
                    Congress
    The Secretary of the Senate worked with the Senate Gift Shop to 
create and develop an official gavel and a variety of presentation and 
gift items suitable for the Commemorative Joint Session of Congress 
held in New York City on September 6, 2002.
    In an attempt to create a unique gavel that appropriately defined 
this moment in history, the Gift Shop first consulted with the masonry 
team under the Architect of the Capitol to determine if marble that was 
once part of the Capitol could be used. Next, the Gift Shop selected a 
contractor to produce a replica of the original ivory gavel used to 
preside over Senate proceedings. Upon completion of the prototype of 
the gavel, the Senate Gift Shop enlisted the assistance of the Senate 
Office of Conservation and Preservation to modify a wooden box, 
provided by the Gift Shop, to showcase the commemorative gavel. In the 
meantime, the Senate Gift Shop researched appropriate historical text 
and composed custom insert cards that were reproduced with the 
assistance of the Senate Service Department. A dozen marble gavels were 
presented at the Commemorative Joint Session.

Projects and New Ideas for 2003

            United States Senate Fine Art Guide
    The Gift Shop is working with the Senate Curator in order to secure 
copies of the forthcoming publication, United States Senate Fine Art 
Guide. The book will be sold in both the Dirksen and Capitol Gift 
Shops.

            Capitol Trees
    During the early construction stages of the CVC, the Senate Gift 
Shop contracted with a company to recover felled trees from the Capitol 
grounds. The recovered trees have been milled and kiln dried. The 
resultant 12,000 board feet of cut lumber is stored in a warehouse in 
West Virginia. The Gift Shop is in the process of developing products 
from the recovered trees. Items will include presentation pieces for 
official use and a variety of commemorative collectors' items available 
for sale to the general public.

            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development, and manufacture of the 108th 
Congressional Plate. The first stage of choosing a design for the 108th 
Congressional Plate will begin soon. After reviewing proofs and working 
through the many design changes, the goal is to have a finished product 
arrive in mid-November, in time for holiday sales.

                          6. HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by Members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,775 former Senators. It 
edits for publication historically significant transcripts and minutes 
of selected Senate committees and party organizations, and conducts 
oral history interviews with key Senate staff. The photo historian 
maintains a collection of approximately 40,000 still pictures, slides, 
and negatives that includes photographs and illustrations of most 
former Senators, as well as news photographs, editorial cartoons, 
photographs of committees in session, and other images documenting 
Senate history. The Office develops and maintains all historical 
material on the Senate website.

Fiscal Year 2002 and Continuing Editorial Projects
    The Senate Leader's Lecture Series.--This series brings 
distinguished speakers to the Senate to present insights about the 
Senate's recent history and long-term practices. From 1998 through 
2002, lectures featuring former Senate presidents and party floor 
leaders on the topic of Senate leadership were held in the Capitol's 
historic Old Senate Chamber before an audience of current Senators and 
invited guests. The Historical Office has provided editorial and 
production support for the series, including the September 4, 2002, 
lecture by former Vice President Walter Mondale. Text and video of all 
nine lectures are available on the Senate's website, and the Historical 
Office is preparing a book edition for publication in 2003.
    Executive Session Transcripts of the Permanent Subcommittee on 
Investigations, 1953-1954.--The Historical Office completed editing and 
annotating 3,800 pages of previously unpublished executive-session 
hearing transcripts produced by the Senate Permanent Subcommittee on 
Investigations (PSI) under the chairmanship of Senator Joseph R. 
McCarthy (1953-1954). The Government Printing Office has recently 
delivered all five volumes to the PSI for a public announcement and 
press conference within the next few weeks. This publication will allow 
researchers nationwide to have equal access to these highly sought 
after and richly revealing historical documents.
    Biographical Directory of the United States Congress.--Since the 
most recent printed edition of the Biographical Directory of the United 
States Congress appeared in 1989, the assistant historian has added 
dozens of new biographical sketches and has revised and updated most of 
the database's 1,875 Senate entries. A current version of the database 
is available online at http://bioguide.congress.gov. The assistant 
historian has recently completed necessary revisions and additions of 
data to allow for expanded online search capabilities. Work is 
proceeding on the next print edition, tentatively planned for 
publication in 2004.
    Administrative History of the Senate.--During 2002, the assistant 
historian revised an earlier chapter structure and focused on the years 
1789 to 1861 in this historical account of the Senate's administrative 
evolution. This study traces the development of the offices of the 
Secretary of the Senate and Sergeant at Arms, considers nineteenth and 
twentieth-century reform efforts that resulted in reorganization and 
professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified over the past two 
centuries.
    Documentary History of the Senate.--The Historical Office is 
conducting an ongoing documentary publication program to bring together 
fundamental source materials that will help explain the development of 
the Senate's constitutional powers and institutional prerogatives. 
Currently in production are volumes on Senate impeachment trials, the 
Senate's consideration of controversial treaties, and the evolution of 
the Senate's standing rules. For the impeachment trial volume, working 
drafts have been prepared to summarize each case, with selection of key 
documents and writing of textual notes underway. For the controversial 
treaties volume, much of the research has been completed and major 
chapters have been drafted. Work on the rules volume has proceeded to 
provide coverage from 1789 through the 1850s.
    ``The Senate of the United States''.--Between 1988 and 1994, the 
Government Printing Office published The Senate, 1789-1989, a four-
volume reference work by Senator Robert C. Byrd. During 2002, the 
Historical Office began work on a consolidated, updated, and 
illustrated one-volume edition of ``Byrd's History.'' This work will be 
available for distribution in 2005 through the Senate Gift Shop.
    Senate web site redesign.--Historical Office staff played a key 
role on history content in the redesign of the Senate web site. The 
history content amounts to about 60 percent of the static content on 
the site, or more than 5,000 pages. The office has continuing 
responsibility for expanding and updating the history content and for 
adding history-based features to illuminate ongoing Senate news events, 
as well as coordinating efforts among the various content teams.
    ``Idea of the Senate''.--This narrative book will be based on the 
memoirs of Senators, providing eyewitness accounts of the Senate from 
its early years to the modern era. Each chapter in the book will focus 
on the writings of one Senator. Additional primary and secondary 
sources will be examined for contextual information. The Historical 
Office's researcher-writer has completed preliminary project research 
and has begun drafting the first chapter on John Quincy Adams.
    Capitol Visitor Center Exhibition Content Development.--The Senate 
historian assisted in preparing detailed plans for the 20,000 square-
foot exhibition gallery of the Capitol Visitor Center. Three staff 
historians prepared scripts for major exhibitions on the historical 
role of Congress in helping to realize the nation's basic aspirations 
and on the chronological history of the Senate.
    Member Services.--At the request of the Senate Democratic Leader, 
the Senate historian prepared and delivered a ``Senate Historical 
Minute'' at each of thirty-five Senate Democratic Conference weekly 
meetings during the year. These four-hundred-word Minutes are designed 
to enlighten members about significant events and personalities 
associated with the Senate's institutional development, and with 
familiar objects and places within the Capitol. The nearly 200 Minutes 
prepared since 1997, are available as a feature on the Senate website.
    Members' Office Records Management and Disposition Assistance.--The 
Senate archivist continued to assist Members' offices with planning for 
the preservation of their permanently valuable records, with special 
emphasis on archiving electronic information from computer systems and 
transferring valuable records to a home state repository. Forming a 
team with customer support service staff from the Office of the 
Sergeant at Arms, the archivist worked with all Senators' offices that 
closed at the end of the 107th Congress, including the office of 
Senator Paul Wellstone, to prepare the collections for donation. The 
handbook entitled ``Closing a Senate Office'' was updated, and 
assistance was given in the compilation of ``Opening a Senate Office.'' 
The latter was published and also broadcast on the transition office 
intranet site. As a follow-up to the Congressional Papers Forum that 
was held in August 2001, the archivist edited The Congressional Papers 
Forum: The Third Report of the Advisory Committee on the Records of 
Congress. The archivist began a comprehensive revision of Records 
Management Handbook for United States Senators and Their Archival 
Repositories which will be published in 2003.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. Over 3,000 feet 
of records were transferred to the Archives. The Office's archival 
staff continued to provide processing assistance to committees and 
administrative offices in need of basic help with noncurrent files. The 
archivist worked with the House of Representatives' archivist to 
inventory the records of the anthrax contamination cleanup and is 
working with Secretary of the Senate and Clerk of the House counsels to 
develop protocols for the transfer of these records to the Center for 
Legislative Archives. In 2003, a records disposition guidelines for the 
offices under the Secretary's jurisdiction will be published.
    Oral History Program During Fiscal Year 2002.--The Historical 
Office concluded its series of twenty-three debriefing interviews with 
staff involved with the dislocation following the attacks of September 
11, 2001, and the October 2001 delivery of letters containing anthrax 
to the Hart Senate Office Building. This adds to the already extensive 
collection of oral history interviews that provide personal 
recollections of Senate careers dating from 1910 to the present. Oral 
history interviews were also conducted with Tom C. Korologos, former 
administrative assistant to Senator Wallace Bennett and White House 
Senate liaison; Jade West, former staff director of the Republican 
Policy Committee; and J. Stanley Kimmitt, former Secretary for the 
Majority and Secretary of the Senate.
    Photographic Collections.--The photo historian continued to expand 
the Office's 40,000-item photographic collection by obtaining images of 
former Senators not previously represented in the collection, and 
documenting Senate life by photographing historically significant 
Senate events, including hearings of Senate committees. Digital images 
of frequently used photographs were created in order to promote their 
use and safeguard the originals. Images can now be transmitted to 
patrons via e-mail or CD, or can be printed onto photographic paper in 
the Historical Office. The photo historian also continued to catalog 
photographic negatives into an image database in order to increase 
intellectual control over the Office's image collection.
    Conference of Congressional Research Center Directors.--The Senate 
Historical Office, the Center for Legislative Archives at the National 
Archives, and the Robert C. Byrd Center for Legislative Studies just 
completed a conference at the Byrd Center in Shepherdstown, West 
Virginia. This first-of-its kind meeting brought together the directors 
of 20 university-based congressional research centers. Among those who 
attended were the directors of center associated with the public 
service careers of the following U.S. Senators: Howard Baker, Bob Dole, 
Everett Dirksen, Margaret Chase Smith, Strom Thurmond, George Aiken, 
Thomas Dodd, Wendell Ford, Hubert Humphrey, Richard Russell, John 
Stennis, John Glenn and Robert C. Byrd.
    Historic Senate Salary and Mileage Ledger, 1790: 1880.--The Library 
of Congress has scanned all 400 pages in an electronic version of this 
major resource, which documents the administrative operations of the 
Senate during its first 90 years. It will be available to researchers 
on senate.gov within the next few weeks.

                           7. HUMAN RESOURCES

    The Office of Human Resources (HR) was established in June 1995, as 
a result of the Congressional Accountability Act. The Office focuses on 
the development and implementation of human resources policies, 
procedures, and programs for the Office of the Secretary of the Senate, 
both to fulfill the legal requirements of the workplace and to 
complement the organization's strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; employee handbooks and manuals; 
internal grievance procedures; employee relations and services; and 
organizational planning and development.
    HR also administers the Secretary's Public Transportation Subsidy 
program and the Summer Intern Program that offers college students the 
opportunity to gain valuable skills and experience in a variety of 
Senate support offices.

Classification and Compensation Review
    The Secretary of the Senate is conducting a complete classification 
and compensation study which entails a thorough review of the entire 
system. This classification study will include a comprehensive 
collection of current job classifications and specifications for every 
position in the Office and the pay plan and bands will reflect the 
accurate and equitable layout of all staff within the organization. HR 
staff has conducted job audits/interviews with each incumbent to ensure 
all roles and responsibilities are accurately factored into the study.

Policies and Procedures
    HR will annually update and revise the Employee Handbook of the 
Office of the Secretary.

Assisting the Secretary and Department Heads
    HR continues to work with the Executive Office and department heads 
to establish objectives that reflect the mission of the Senate and the 
Secretary's Office. HR has met with each department head and discussed 
their departmental and personal objectives, challenges and results of 
the past year, and to assist each department head in establishing new 
objectives for this calendar year and beyond.

Attraction and Retention of Staff
    HR is responsible for the advertisement of new vacancies or 
positions, screening applicants, interviewing candidates and assisting 
with all phases of the hiring process. HR works closely with the 
applicable department to ensure the process moves smoothly and 
expeditiously. HR acts as the liaison to the Secretary before any 
payroll actions are presented, so that the Secretary has ample 
knowledge of all hiring decisions or recommendations. As new staff 
joins the office, HR is in charge of the orientation to the office's 
policies.
    HR is also responsible for the management of performance-related 
issues. In addition, the HR staff finds ways to solicit suggestions and 
feedback from the Secretary's department heads and staff in an ongoing 
effort to continually improve processes and procedures.

New Programs
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff.

Training
    In conjunction with the Senate Chief Counsel for Employment, HR has 
worked to prepare training for department heads and staff. Some of the 
topics include Sexual Harassment, Interviewing Skills, Conducting 
Background Checks, Providing Feedback to Employees and Goal Setting. 
These skills will further enhance the ability of our staff to comply 
with office policies and advance in their professional development.

                         8. INFORMATION SYSTEMS

    The staff of the Department of Information Systems provide 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the Sergeant at 
Arms (SAA), the Government Printing Office (GPO), and outside vendors 
on technical issues and joint projects. The Department provides 
computer related support for the all LAN-based servers within the 
Office of the Secretary of the Senate. Information Systems staff 
provide direct application support for all software installed 
workstations, evaluate new computer technologies, and implement next 
generation hardware and software solutions.
    The primary mission of Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the office of Secretary of 
the Senate. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies.
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support provided by the Information Systems 
Department, and augment that support with assistance from the Sergeant 
at Arms whenever required. The Secretary's Network supports 
approximately 300 user accounts and patron accounts in the Capitol, 
Hart, Russell and Dirksen, along with the Page School.
    For information security reasons, Secretary departments implement 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of inter-departmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.
    In addition, the staff of Information Systems has continued to 
expand its responsibilities. Information System staff has helped to 
backfill the retirement of Senate Library technical personnel. Improved 
diagnostic practices were adopted to stretch support across all 
Secretary departments. Several departments, namely Disbursing, Office 
of Public Records, Chief Counsel for Employment, Office of Public 
Records, Page School, Senate Security, and Stationery/Gift Shop have 
dedicated information technology staff within those offices. 
Information Systems personnel continue to provide first level escalated 
hardware and software support for these office staff members.
Summary

            Senate Mail Infrastructure Project (SMI)
    The original plan involved replacing all CC:MAIL servers and 
gateways with a de-centralized Microsoft Outlook solution. The 
Secretary's office previously had six post offices in six different 
server domains. There was no central Public Address Book for all 
Secretary employees. Additionally, Secretary mail requirements needed 
to be refined to insure the implemented solution was both cost-
effective and reliable for the Office of the Secretary.
    The Microsoft Outlook Client implementation began in August within 
the Disbursing Office. The SAA scheduled implementation for the 
remainder of the office staff occurred in December 2002. The initial 
plan, which outlined all staff employees be enrolled in one central 
server, was modified to implement three independent Mail servers; the 
first for Disbursing, the second for Chief Counsel, and all other 
office staff enrolled in the third post office. Support for each 
Exchange server is provided by that appropriate office. Five of the six 
cc:mail post offices were completed in 2002. The Office of Employment 
Counsel is pending further review by the SAA Design Team.

            Disbursing Office Hardware/Software Upgrade
    Desktop systems in the Disbursing Office were over 4 years old and 
required replacement. New hardware and web-based applications, along 
with several legacy applications were installed in 2002. All 
workstations, monitors, and printers were replaced for Disbursing 
office staff.

            Office of Public Records Upgrades
    FileNet servers were retired in fiscal year 2002. This was based on 
the SAA Application Development Branch rewriting the existing OPR 
software. Three Microsoft SQL servers were consolidated into one server 
configuration, and then replicated at the Postal Square location. For 
archival purposes, a Volkswagen-size optical jukebox was retired and 
replaced with Quantum snap server Updated scanners. Software was 
purchased to upgrade existing office equipment. In the event of a 
possible office relocation, arrangements have been made for the OPR 
staff to operate and continue their scanning operation.

            Digital Sender Project
    A Secretary wide-initiative was developed to provide all staff with 
the ability to scan, save, and electronically capture paper documents 
in pdf format for archival purposes. In 2002, six additional HP Digital 
sender scanners were purchased for the following departments: Chief 
Counsel, Stationery, Gift Shop, Page School, Webmaster, and Bill Clerk.
Hardware and Software Upgrades
    Approximately 88 percent of all department computer workstations 
were upgraded and all legacy applications migrated to the Microsoft 
Windows 2000 operating system in 2002. These departments include: 
Disbursing, Human Resources, Public Records, Historian, Chief Counsel, 
Interparliamentary Services, Bill Clerk, Legislative Clerk, Enrolling 
Clerk, Parliamentarian, Daily Digest, Executive Clerk, Senate Library, 
Stationery, Gift Shop, and Webster Hall.

                     9. INTERPARLIAMENTARY SERVICES

    The Office of Interparliamentary Services (IPS) has completed its 
21st year of operation. IPS is responsible for administrative, 
financial, and protocol functions for all interparliamentary 
conferences in which the Senate participates by statute, for 
interparliamentary conferences in which the Senate participates on an 
ad hoc basis, and for special delegations authorized by the Majority 
and/or Minority Leaders.
    The statutory interparliamentary conferences are: 1. NATO 
Parliamentary Assembly; 2. Mexico-United States Interparliamentary 
Group; 3. Canada-United States Interparliamentary Group; and 4. 
British-American Parliamentary Group.
    In May 2002, the 43th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Rhode Island. Arrangements for 
this successful event were handled by the IPS staff.
    Planning is now underway for the 42nd Annual Meeting of the Mexico-
U.S. Interparliamentary Group and the British-American Parliamentary 
Group meetings to be held in the United States in 2003. Advance work, 
including site inspection, will be undertaken for the 45th annual 
Canada-U.S. Interparliamentary Group meeting to be held in the United 
States in 2004. Preparations are also underway for the spring and fall 
sessions of the NATO Parliamentary Assembly.
    All foreign travel authorized by the Leadership is arranged by the 
IPS staff. In addition to delegation trips, IPS provided assistance to 
individual Senators and staff traveling overseas. Senators and staff 
authorized by committees for foreign travel continue to call upon this 
office for assistance with passports, visas, travel arrangements, and 
reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.

                              10. LIBRARY

    The Senate Library provides legislative, legal, business, and 
general reference services to the United States Senate. The Library's 
comprehensive legislative collection consists of congressional 
documents dating from the Continental Congress. In addition, the 
Library maintains executive and judicial branch materials and an 
extensive book collection on politics, history, and biography. These 
sources, plus a wide array of online systems, assist the Library staff 
in providing nonpartisan, confidential, timely, and accurate 
information services.

Information Services

            Patron Services
    Information Services responded to 40,359 requests during 2002, a 
4.6 percent increase above the 2001 total. This total included 24,205 
phone, fax, and e-mail requests and 10,145 walk-in visits by Senate 
staff who used resources in the Library. Tabulated for the first time 
are the 6,009 times Hill staff accessed the Hot Bills List on LIS. 
Patrons borrowed 1,952 books and documents and 4,467 information 
packages were delivered to Senate offices.
    The Library's request totals have increased at an annual rate of 
four percent over the past two years. The Senate's information needs 
are dramatically changing with desktop access to major online services 
and research products. The Library has responded to these changing 
information needs by offering new services and products and by 
continuing an aggressive outreach program to the Senate community. New 
services include the LIS training sessions, regularly scheduled, two-
hour sessions which utilize the librarians' extensive online skills and 
considerable legislative experience. The Library's LIS telephone help 
line provides continuing assistance. The Library has also made many key 
sources available through the Senate Intranet, such as Information 
Resources in the Senate Library, a 55-page annotated bibliography that 
is tailored to the needs of Hill offices; and Presidential Vetoes, a 
two-volume set that traces the legislative history of every veto since 
1789. The provision of this effective database training and valuable 
access to resources quickens the transition for new Senate staff in 
particular.
    Additional indicators that reflect the continued strong activity 
are the 3,847 faxes sent and the 132,903 photocopies produced by the 
Library. In addition, the Micrographics Center produced 4,421 printed 
pages from the extensive collection of newspapers, magazines, and 
executive branch and congressional materials.

------------------------------------------------------------------------

------------------------------------------------------------------------
Phone, Fax, E-mail.........................................       24,205
Walk-in Visitors...........................................       10,145
Hot Bills List on LIS......................................        6,009
                                                            ------------
      TOTAL REQUESTS.......................................       40,359
------------------------------------------------------------------------

            Client Relations
    Public relations has always been an integral part of the Library's 
activities. The constant arrival of new staff underscore the importance 
of successful outreach programs. Senate staff were introduced to the 
many Library services during the 44 tours and seminars conducted during 
2002. The schedule includes the quarterly ``Services of the Senate 
Library Seminars,'' two ``State Fairs,'' five ``District-State 
Seminars,'' and eight ``New Staff Seminars.'' In addition, the Library 
conducted two special seminars for the Senate Page School. The success 
of these efforts can be seen in the 364 new Library accounts that were 
established for Senate staff during 2002.
    The Library regularly assists researchers, authors, and academics, 
and gives special tours to professional groups and students. During 
2002, scholars from Tokyo University and the University of Cairo 
conducted research in the Library. Researchers from England included 
Paul Lennon, a House of Commons staff member, and author Dr. Michael 
Dunne from Cambridge University. Special tours were given to staff from 
the State Department, Government Printing Office, Congressional 
Research Service, Justice Department, and Trinity College, and to 
Parliament librarians from India and representatives from Tokyo's Far 
Eastern Booksellers.
    For the fifth year, the Library hosted activities in honor of 
National Library Week. The events for 2002, included an open house, 
dessert reception, and a book discussion. The guest speaker for the 
book discussion was Senator Bill Frist, who discussed his book When 
Every Moment Counts: What You Need to Know about Bioterrorism from the 
Senate's Only Doctor. Forty-seven staff attended the book discussion 
and 125 attended the afternoon dessert reception. These annual events 
are an excellent public relations tool that appeal to frequent users 
and also introduce new Senate staff to the wide array of Library 
services.
    The Russell Building corridor displays continue to be popular, 
informative, and educational. The displays provide staff and visitors 
an excellent opportunity to enjoy rare and unique books from the 
Senate's rich collection. During 2002, the displays included The Nine 
Capitals of the United States; Montgomery C. Meigs, Capitol Builder; 
and one honoring African-American History Month.
    A major goal is to provide the Library's online catalog through 
Webster, the Senate's Intranet site, to the entire Senate community. 
The catalog has more than 150,000 items providing access to the books, 
legislative documents, periodicals, newspapers, and legal materials. 
With funds appropriated for fiscal year 2003, new Oracle-based software 
will be purchased, as soon as it is available, to move this project 
along. Patron access to library catalogs is a standard service and the 
Library will continue to work to make the catalog available to every 
Senate office. In other outreach activity, the Library received a new 
Webster address that makes it easier for Senate staff to access the 
valuable information posted on the site (webster.senate.gov/library).

            LIS
    A major Library objective is to increase and improve access to the 
wealth of data and information on the Legislative Information System 
(LIS). Two key sources were added to the LIS homepage: the Hot Bills 
List and the Fiscal Year 1988 to Fiscal Year 2003 Appropriations 
Tables. These two sources list legislation and key documents associated 
with the legislation, along with links to the full text of documents. 
The availability of LIS to every Capitol Hill office ensures that all 
congressional staff will be able to access these resources.
    The Library's role in LIS development continues to expand as staff 
work closely with the Congressional Research Service, Senate Computer 
Center, and Senate staff. The Library teamed with CRS on major 
redesigns of the bill summary and status pages; provided definitions 
and documentation for the Amendment Tracking System; and initiated a 
numbering system for issues of the Senate Executive Calendar. Other 
ongoing projects include improvements in the Congressional Record 
search requirements, LIS Alert Service training, and a proposed 
database tracking congressional committee hearings. In all of these 
efforts, the Library's 28 years of experience in legislative systems 
(starting with Aquarius 1975) is invaluable to the success of LIS.

            Senate.gov
    The 2002 redesign of senate.gov involved extensive participation by 
Library staff. The Library has developed and maintains more than 200 
site pages that provide informative text and hundreds of information 
links to additional source material. The staff's extensive knowledge of 
the legislative process was critical to the success of Active 
Legislation, a selective listing of key legislation with electronic 
links to the full text of all related documents through Thomas and GPO 
Access. The Virtual Reference Desk is an online vertical file that 
traces 200 years of American history, congressional activity, and 
legislative initiatives. Other contributions include annotated 
bibliographies on a variety of subjects including books by current 
Senators, Capitol art and architecture, and key sources on Congress and 
politics. Informative How To guides have been expertly developed to 
assist researchers identify and locate government documents online and 
through local libraries.

Technical Services

            Acquisitions
    The Library acquired 9,797 new items in 2002, which includes books, 
congressional and executive branch documents, and microforms. This 
represents a 4 percent increase over the previous year. Included in the 
new items were 628 books and reference volumes (an 80 percent increase 
from last year), 5,799 congressional documents, and 3,370 executive 
branch publications. The 80 percent increase in new book arrivals was 
due to the fourth quarter 2001 mail delivery embargo and the resulting 
large number of arrivals during the first quarter of 2002.
    Two major acquisitions were the Unpublished U.S. Senate Committee 
Hearings, 1977-1980 and Presidential Executive Orders and 
Proclamations, 1921-1983. The 1,040 unpublished Senate hearings were 
previously only available at the National Archives, and the executive 
orders completes a collection that totals more than 58,000 presidential 
documents. These titles, which provide the full text of the documents 
with excellent indexes, are important additions to the permanent 
collection.
    The Acquisitions Librarian selected several titles for the 
Library's collection throughout 2002. Works on the early republic, 
constitutional history, biographies of the founders, and American 
expedition were very prominent. Representative titles include Journals 
of Benjamin Henry Latrobe, 1795-1820; Latrobe's View of America, 1795-
1820; John Marshall and the Heroic Age of the Supreme Court; Aaron 
Burr: Conspiracy to Treason; Original Journals of the Lewis and Clark 
Expedition, 1804-1806; John Adams and the Founding of the Republic; 
Martin Van Buren and the Emergence of American Popular Politics; and 
John Hancock: Merchant King and American Patriot. New acquisitions are 
announced in the monthly New Books List. The list is available through 
the Library's Intranet site and distributed to Senate offices.
    In other acquisitions activity, the Congressional Documents Clerk 
captured 2,000 pages from committee Web sites. Congressional sites are 
carefully monitored for those elusive materials that are only available 
online and often only available for a limited time. The Senate Finance 
Committee made a significant addition to the permanent collection by 
donating materials dating from the 1930s, and the Clerk prepared five 
volumes of hearings and 11 volumes of committee prints from these 
previously unavailable materials. The Library received 100 committee 
print volumes from the House Appropriations Committee following the 
loss of their storage area due to the Capitol Visitor Center 
construction. These volumes were reviewed, prepared and added to the 
Senate's collection.

            Cataloging
    The cataloging team added a total 4,558 new titles to the Library's 
catalog, which included 3,451 congressional publications. Efforts 
focused on rare Senate treaties, executive reports, and older committee 
hearings. The Senate Library is often the only depository for these 
rare items and the cataloging requires great skill and considerable 
experience with legislative materials. This original cataloging is 
extremely time consuming and demands great care to meet the Library's 
quality standard. As the important retrospective cataloging project 
continues, the overall cataloging totals will decline, which occurred 
during 2002 with a 22 percent decline.

            Government Publications Collection
    Although the total number of government documents received during 
2002 was virtually unchanged from the previous year's level, a dramatic 
change did take place: there is a one-third decline in paper documents 
in favor of electronic dissemination. The Cataloguing Technician and 
the Reference Librarians are reviewing the list of electronic titles 
provided through GPO. Once selections are finalized, URL links to the 
documents will be added to the Library's online catalog.
    This is the second year of the Library's ongoing review of 
executive branch publications received through the Federal Depository 
Library Program. In this two-phase project, librarians review every 
title received and then evaluate the existing holdings. The review team 
is headed by the Cataloging Technician, who is joined by the Government 
Documents Clerk and the Head of Information Services. In 2002, 6,730 
outdated, superseded, or surplus items were withdrawn from the 
collection, and 4,385 of these items were offered to other federal 
depository libraries. It was gratifying that 2,587 items (59 percent) 
were claimed and delivered to requesting libraries. During the second 
phase, 185 item numbers were deselected from the Library's depository 
selection list. Retention or removal decisions are determined by patron 
use and alternative access, primarily online availability.

            Warehouse
    A detailed review of the Library's offsite storage requirements was 
submitted to the Sergeant at Arms in September 2002. The proposal 
considered growth for both ten and twenty years, utilized fixed 
shelving, and provided for industry standard environmental controls and 
security. Current storage facilities are less than optimum, creating 
some potential risk to our rare collections. However, the Library 
continues to work with the Sergeant at Arms to address this issue.

            Library.Solution, the Library's Integrated Online Catalog
    The Library's computerized catalog, Library.Solution, provided by 
The Library Corporation (TLC), was installed in January, 2000. The 
system houses 152,149 items containing bibliographic records to 
legislative and legal materials, books, periodicals, serials, and 
microforms. Through the watchful oversight and perseverance of the Head 
of Technical Services, the system's performance has dramatically 
improved. In 2002, there were several new software upgrades for 
circulation and serials that improved module flexibility and 
functionality. The increased functionality reduced daily maintenance 
and improved search capabilities (regular catalog maintenance is 
necessary for efficient and accurate retrieval). During 2002, 25,495 
maintenance transactions were recorded, which included creating and 
editing authority headings, editing existing records, barcoding new 
volumes, editing PURLS from electronic resources, and withdrawing 
records for discarded materials.

Collection Maintenance, Preservation, Binding, and Equipment
    Maintenance and preservation projects have resulted in a better-
organized and environmentally protected collection. The Library's 
historic collection of more than 125,000 volumes requires constant 
monitoring of environmental conditions. The prevention of mold is 
accomplished by maintaining temperatures below 70 degrees and humidity 
levels below 50 percent. However, these levels can be very difficult to 
achieve in the Russell Building location. Dehumidifiers operate 24 
hours a day and satisfactorily control the humidity, but the 
ventilation system is not always capable of maintaining acceptable air 
quality and temperature levels. Another major concern is the 
crisscrossing maze of century-old water pipes hovering just a few feet 
above the historic collection. To mitigate this concern, constant 
monitoring is necessary and historic volumes have been moved to safer 
areas.
    The Library has begun to develop in-house expertise in regard to 
bookbinding and paper conservation. The Congressional Documents Clerk 
works closely with the Secretary's Department of Conservation and 
Preservation to learn basic skills.
    In response to the Senate's transition to electronic access to 
information, the Library acquired a book scanner and a second microform 
reader printer. It is now possible to scan documents from text sources 
and microform and electronically transmit those images to any 
workstation anywhere. The versatility of this technology cannot be 
overstated since images can be stored, edited, or reproduced to meet 
the individual needs of the user.

Staff Development
    During 2002, Library staff participated in 58 training sessions, 
workshops, and professional development seminars. New Library staff 
have a particularly active training schedule and veteran staff are 
required to maintain and upgrade skill levels. Database training 
sessions included Lexis-Nexis, Westlaw, OCLC, Excel, CQ Online, 
PhotoShop, and Web publishing. Technical Services staff attended 
several skill enhancement classes including copy cataloging, Library of 
Congress subject headings, serial holdings, and cataloging concepts. 
Reference Librarians completed the CRS Advanced Legislative Process 
Institute in November, and other staff completed Documentum Web 
Publishing Training in October. Other activities included seminars on 
the legislative process, bookbinding techniques, legal research, 
disaster recovery, effective writing, and several seminars focused on 
Capitol history.

UNUM, Newsletter of the Office of the Secretary of the Senate
    UNUM, Newsletter of the Office of the Secretary of the Senate, was 
published four times during 2002. The Chief Editor continues to lead a 
team of talented volunteers and cope with constant deadlines and 
revised text. Joined by two experienced co-editors, along with other 
contributors from the Library staff, the newsletter includes detailed 
profiles of offices and individuals within the Secretary's Office, 
institutional histories and book reviews, in addition to other current 
and pertinent topics of interest to the Senate community.

Other Projects
    The Library continued to support the Friends of Tyler School, a 
tutoring program for Capitol Hill's Tyler Elementary School, by making 
weekly donations of unneeded magazines. These are basic educational 
resources that would be unavailable to most of the children. Other 
surplus magazines were sent to the Senate Page School for inclusion in 
the packages sent to soldiers stationed overseas.
    The Senior Reference Librarian proofread and copyedited the soon-
to-be published catalog of the Office of Senate Curator.

Budget
    The sixth year of aggressive budget reviews delivered reductions 
totaling $12,511.52. The targeted expenditure categories were 
subscriptions and standing orders ($5,011.52) and online service 
contracts ($7,500.00). The reductions for the past six years total 
$59,205.34, and these efforts have been critical in offsetting cost 
increases for core materials. The Senate's ever-changing information 
needs require comprehensive annual reviews of collection expenditures. 
These evaluations can be difficult, but they ensure that the Senate 
will receive the highest level of service using the latest technologies 
and the best available resources. These considerable goals will be 
accomplished within budget and without compromising service.

Major Library Goals for 2003
    Major 2003 goals are the continuation of the active client 
relations program and personalized service that have been key to the 
Library's success. Our long-term goal of 40,000 annual requests was 
reached in 2002. The goal now is to build on this success with an 
additional 3 percent increase in 2003.
    The aggressive budget review program will continue in 2003, with 
the target for another three percent reduction. During the six years of 
budget reviews, most of the major reductions have been implemented, so 
future reductions will be less substantial. The key to all reductions 
is that they not comprise information services to the Senate.
    Document preservation is a critical issue, and the Library will 
continue working with the two major recovery firms, BMS Catastrophe and 
Munters. These firms can restore critical working papers and historic 
documents that have suffered from fire or water damage.
    The senate.gov design team will continue to maintain existing pages 
and expand the offerings made available to the public. The site will 
provide many new products, including several that will provide a 
greater understanding of Congress, the legislative process, and 
representative democracy.
    Teams from Technical Services and Information Services will 
continue the review of executive branch materials and significant 
portions of that collection will be deaccessioned. The titles will be 
discontinued from Library's depository selections list and deleted from 
the online catalog. All deaccessioned holdings will be offered to other 
libraries and information centers.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       Books           Government Documents             Congressional Publications
                                             ------------------------------------------------------------------------------------------------
                                                                                                                                   Reports/      Total
                                                Ordered    Received      Paper       Fiche     Hearings     Prints       Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.....................................          20          37         194          53         300          12          23         114         733
February....................................          27          35         179         108         154          15          21          61         573
March.......................................          30          25         201          23         223          10          25          62         569
                                             -----------------------------------------------------------------------------------------------------------
      1st Quarter...........................          77          97         574         184         677          37          69         237       1,875
                                             ===========================================================================================================
April.......................................          20          44         301          43         294          18          65         166         931
May.........................................          16          45         183         230         267          11          72         119         927
June........................................          25          51         175          80         235          18          76         169         804
                                             -----------------------------------------------------------------------------------------------------------
      2nd Quarter...........................          61         140         659         353         796          47         213         454       2,662
                                             ===========================================================================================================
July........................................          28          60         296         138         244          10          79         107         934
August......................................           5          65         134          86         284          13          29         196         807
September...................................          30          67         144          41         364           9          36         287         948
                                             -----------------------------------------------------------------------------------------------------------
      3rd Quarter...........................          63         192         574         265         892          32         144         590       2,689
                                             ===========================================================================================================
October.....................................          30          81         167         135         237          13          99         421       1,153
November....................................          15          73         151          43         241          10          25         120         663
December....................................          17          45         162         103         251          13          26         155         755
                                             -----------------------------------------------------------------------------------------------------------
      4th Quarter...........................          62         199         480         281         729          36         150         696       2,571
                                             ===========================================================================================================
      2002 Total............................         263         628       2,287       1,083       3,094         152         576       1,977       9,797
      2001 Total............................         321         347       3,431         724       3,054         293         391       1,225       9,465
                                             ===========================================================================================================
Percent Change..............................      -18.07       80.98      -33.34       49.59        1.31      -48.12       47.31       61.39        3.51
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           OCLC Records Produced
                                                   Hearing #s ------------------------------------------------------------------------------    Total
                                                    Added to                  Government Documents          Congressional Publications         Records
                                                     LEGIS        Books    -----------------------------------------------------------------   Produced
                                                                               Paper        Fiche       Hearings      Prints    Docs./Pubs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.........................................            0           53           10           85          130           14           41          333
February........................................           15           35           51            1          437            3           69          596
March...........................................            1           33           17           13          249            7           50          369
                                                 -------------------------------------------------------------------------------------------------------
      1st Quarter...............................           16          121           78           99          816           24          160        1,298
                                                 =======================================================================================================
April...........................................           23           29           13            1          207           16           30          296
May.............................................           10           24           29           43          388            3           33          520
June............................................            9           33            8            2          255           17           55          370
                                                 -------------------------------------------------------------------------------------------------------
      2nd Quarter...............................           42           86           50           46          850           36          118        1,186
                                                 =======================================================================================================
July............................................            0           39           30           10          384            6           55          524
August..........................................            0           11           35            0          134            6           26          212
September.......................................            5           35          203            7          205           13           59          522
                                                 -------------------------------------------------------------------------------------------------------
      3rd Quarter...............................            5           85          268           17          723           25          140        1,258
                                                 =======================================================================================================
October.........................................            0           60           20            0          144           17           12          253
November........................................           36           48           18            0          215           14           21          316
December........................................            0           30           54           21          125            7           10          247
                                                 -------------------------------------------------------------------------------------------------------
      4th Quarter...............................           36          138           92           21          484           38           43          816
                                                 =======================================================================================================
      2002 Total................................           99          430          488          183        2,873          123          461        4,558
      2001 Total................................          103          772          411          531        3,668          236          207        5,825
                                                 =======================================================================================================
Percent Change..................................        -3.88       -44.30        18.73       -65.54       -21.67       -47.88       122.71       -21.75
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2002--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   Center Pages      Pages
                                                   Loaned     Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January........................................         219         384         743           651        10,436
February.......................................         155         386         631           356         8,230
March..........................................         200         406         650           966        10,125
                                                ----------------------------------------------------------------
      1st Quarter..............................         574       1,176       2,024         1,973        28,791
                                                ================================================================
April..........................................         203         511         389           195        14,912
May............................................         142         366         640           139        11,026
June...........................................         203         402         648           733        14,524
                                                ----------------------------------------------------------------
      2nd Quarter..............................         548       1,279       1,677         1,067        40,462
                                                ================================================================
July...........................................         284         410         732           160         9,220
August.........................................          97         322         482           252        10,647
September......................................         127         310         625           208        15,976
                                                ----------------------------------------------------------------
      3rd Quarter..............................         508       1,042       1,839           620        35,843
                                                ================================================================
October........................................         154         429         622           275         9,626
November.......................................          96         261         486           342         9,295
December.......................................          72         280         500           144         8,886
                                                ----------------------------------------------------------------
      4th Quarter..............................         322         970       1,608           761        27,807
                                                ================================================================
      2002 Total...............................       1,952       4,467       7,148         4,421       132,903
      2001 Total...............................       2,148       4,791       4,551         7,810       168,769
                                                ================================================================
Percent Change.................................       -9.12       -6.76       57.06        -43.39        -21.25
----------------------------------------------------------------------------------------------------------------

                         11. SENATE PAGE SCHOOL

    The United States Senate Page School provides a smooth transition 
from and to the students' home schools. The pages are given as sound a 
program, both academically and experientially, as possible during their 
stay in the nation's capital, balancing a unique work situation with 
the Senate's demanding schedule.

Summary of Accomplishments
    Accreditation for the page school continues until December 31, 
2008. The Middle States Commission on Secondary Schools reviewed the 
progress report filed by the U.S. Senate Page School and determined no 
further reports are required.
    In the last school year, two page classes successfully completed 
their semester curriculum. Closing ceremonies were conducted on June 7, 
2002, and January 24, 2003, the last day of school for each semester.
    Extended educational experiences were provided to pages. Nineteen 
field trips, seven guest speakers, opportunities to compete in writing 
contests, to play musical instruments, and to continue foreign language 
study with the aid of tutors were all afforded pages. Twelve field 
trips to educational sites were provided for summer pages as an 
extension of the page experience. National tests were administered for 
qualification in scholarship programs as well.
    Given the uniqueness of the pages' roles, greater coordination of 
communication among all responsible parties--the Secretary's Office, 
the Sergeant at Arms, Page Program, Page School, and Cloakrooms--has 
been established. In addition, an evacuation plan and COOP have been 
completed. Pages and staff have practiced evacuations to primary and 
secondary sites. Escape hood training is provided to all pages, staff, 
and tutors and staff have been retrained in CPR.
    Faculty have also pursued professional development opportunities 
with additional courses.
    A community service project has been embraced by pages and staff, 
now for three classes. Items for gift packages were collected, 
assembled, and shipped to military personnel in Afghanistan, Kuwait, 
Oman, Germany, Japan and the U.S.S. Essex. Pages included letters of 
support to the troops participating in Operation Enduring Freedom. In 
gratitude, letters, a certificate of appreciation and flags were sent 
to the Page School by the 145th and the 774th Expeditionary Airlift 
Squadrons.

Summary of Goals
    For the coming year, the goals of the administration and staff of 
the Senate page school include:
  --Tutoring by teachers on an as-needed basis, and individualized 
        small group instruction will be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, and German.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance.
  --Staff development options will include additional computer 
        training, seminars conducted by Education and Training, subject 
        matter conferences conducted by national organizations, and 
        formal graduate work.
  --Creation of curriculum to support a summer academic session will be 
        completed for consideration.

                   12. PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services is responsible for 
managing the printing and/or distribution of the Senate's official 
Title 44, U.S. Code printing requirements. The office manages Senate 
Printing expenses, and functions as the Government Printing Office 
(GPO) liaison to schedule and/or distribute Senate bills and reports to 
the Senate Chamber, staff, and the public. The department provides page 
counts of Senate hearings to commercial reporting companies and Senate 
committees; orders and tracks all paper and envelopes provided to the 
Senate; provides general printing services for Senate offices; and 
assures that all Senate printing is in compliance with Title 44, U.S. 
Code, as it relates to Senate documents, hearings, committee prints, 
and other official publications.
    During 2002, OPDS staff maintained all services and fulfilled all 
daily requirements of the office. Additionally, the office has 
continued to implement efforts to consolidate duties and cross-train 
personnel, thereby ensuring office continuity. Under this ``cross- 
working'' program newly learned skills are continually honed and 
customer service is upgraded. Printing department staff and document 
specialists work hand-in-hand to provide quick response to changes 
within the department and provide better human resource management.
    During 2002, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 952 billing verifications of 
Senate hearings and business meetings. This is an average of 50 
hearings/meetings per committee, a 4.1 percent increase over 2001. 
Billing verifications are how the reporting committees request payment 
from a Senate committee for transcription services. Although some 
hearings are cancelled or postponed, they still require payment to the 
reporting company.
    The OPDS utilizes a program developed in conjunction with the 
Sergeant at Arms Computer Division that provides more billing accuracy 
and greater information gathering capacity, while adhering to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                       PERCENT
                                                                  2000         2001         2002     CHANGE 2002/
                                                                                                         2001
----------------------------------------------------------------------------------------------------------------
Billing Verifications.......................................          910        1,004          952         -5.4
Average per Committee.......................................           43           48           50          4.1
Total Transcribed Pages.....................................       61,898       72,799       71,558         -1.7
Average Pages/Committee.....................................        2,814        3,467        3,766          8.6
Transcribed Pages Cost......................................     $401,231     $479,921     $471,807         -0.2
Average Cost/Committee......................................      $18,238      $22,853      $24,832          8.6
----------------------------------------------------------------------------------------------------------------

    During fiscal year 2002, the OPDS prepared 5,794 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. This is an 
increase of 8.2 percent over the number of requisitions processed 
during fiscal year 2001. Because the requisitioning done by the OPDS is 
central to the Senate's printing, the office is uniquely suited to 
perform invoice and bid reviewing responsibilities for Senate Printing. 
Within the OPDS cost accounting duties lies its ability to review and 
assure accurate GPO invoicing as well as play an active role in helping 
to provide the best possible bidding scenario for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates job scheduling, proof handling and job tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, 
including the Curator, the Historian, Disbursing, and Legislative 
Clerk, along with the U.S. Botanic Garden, U.S. Capitol Police and the 
Architect of the Capitol. Last year's major printing projects included 
the Report of the Secretary of the Senate, the New Senator's Guide, the 
Senate Manual, Leader's Lecture Series brochure, the U.S. Senate 
Catalogue of Fine Art, as well as a 500 page four-color case bound 
book, History of the United States Capitol.
    The Service Center within the OPDS is staffed by experienced GPO 
detailees that provide Senate committees and the Secretary of the 
Senate's Office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
as committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.
    The DocuTech Service Center within the OPDS is also staffed by 
experienced GPO detailees that provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports, as 
well as supplementing depleted legislation. In 2002, the DocuTech 
Center produced 656 jobs for a total of 801,888 printed pages.
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands.

                                     DOCUMENT SERVICES--CONGRESSIONAL RECORD
----------------------------------------------------------------------------------------------------------------
                                                                       2000            2001            2002
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          28,232          25,051          29,690
    For the Senate..............................................          12,469          14,084          14,489
    For the House...............................................          15,763          10,967          15,201
Total Copies Printed & Distributed..............................       1,300,000       1,300,000       1,268,603
    To the Senate...............................................         450,842         318,572         439,953
    To the House................................................         308,842         459,477         301,383
    To the Executive Branch and the Public......................         540,316         492,915         532,813
Total Production Costs..........................................     $14,966.755     $15,428,530     $13,488,381
    Senate Costs................................................      $6,364,265      $7,452,933      $6,339,539
    House Costs.................................................      $7,920,490      $7,333,134      $6,609,307
    Other Costs.................................................        $682,000        $642,462        $539,535
Per Copy Cost...................................................          $11.51          $12.14          $10.63
----------------------------------------------------------------------------------------------------------------

    In 2002, a total of 29,690 pages were printed in the Congressional 
Record. Of this total, 14,489 were printed for the Senate, and 15,201 
pages were printed for the House of Representatives. These page counts 
are comprised of the Proceedings of the Senate and the House of 
Representatives, Extension of Remarks, Daily Digest and miscellaneous 
pages. This is 4,639 more pages than were produced in 2001, an increase 
of 18.5 percent. A total of approximately 1.3 million copies of the 
Congressional Record were printed and distributed in 2002. The Senate 
received 439,953 copies, the House 301,383, with the remaining 532,813 
delivered to the Executive Branch agencies and the general public.
    The OPDS continually tracks demand for all classifications of 
Congressional legislation. Twice a year the office adjusts the number 
of documents ordered by classification. The goal is to adjust numbers 
ordered in each classification to closely match demand and thereby 
reduce waste. In recent years, the OPDS has taken a more aggressive 
approach to reducing waste of less requested legislation. The office 
supplements depleted legislation where needed by producing additional 
copies in the DocuTech Service Center as previously mentioned. While 
OPDS curtails waste, at the same time, the office pledges never to run 
out of copies of legislation.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility to the 
general public, the press, and other government agencies is virtually 
indistinguishable from these services provided to the Senate. Requests 
for material are received at the walk-in counter, through the mail, by 
fax, phone, and e-mail. Recorded messages, fax, and e-mail operate 
around the clock and are processed as they are received, as are mail 
requests.

                                          SUMMARY OF ANNUAL STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                CONGRESS/    CALLS      PUBLIC      FAX                 COUNTER
                 CALENDAR YEAR                   SESSION    RECEIVED     MAIL     REQUEST     E-MAIL    REQUEST
----------------------------------------------------------------------------------------------------------------
1999..........................................    106/1st     27,570      6,872      5,162        N/A    156,454
2000..........................................    106/2nd     17,356      4,066      3,129        112     95,186
2001 \1\......................................    107/1st     16,186      3,449      2,093        621     88,769
2002 \1\......................................    107/2nd     15,732      3,637      1,866        662     55,930
----------------------------------------------------------------------------------------------------------------
\1\ NOTE: From October 17, 2001 until January 22, 2002, the Document Room was displaced to the Capitol and
  operated with one telephone and one computer.

Online Ordering
    The OPDS is continuing to seek new ways to use technology to assist 
Members and staff with added services and enhancements to current 
methods. Beginning in late 2000, Senate offices, by way of a link to 
the Secretary of the Senate's home Web page, could order legislative 
documents online. Via the same link, a Legislative Hot List Link was 
launched where Members and staff can confirm arrival of printed copies 
of the most sought after legislative documents. The site is updated 
several times daily, and each time new documents arrive from GPO in the 
Document Room. Efforts are also under way to provide the capability of 
online ordering of blank paper for Member offices and Senate 
committees.

                           13. PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October, 2001, through September, 2002, the 
Public Records office staff assisted more than 2,000 individuals 
seeking information from reports filed with the office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995. A total of 95,630 photocopies were sold in the 
period. In addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.

Fiscal Year 2002 Accomplishments
    The office deployed its disaster recovery plan prepared in fiscal 
year 2001 with the closure of the Hart Senate Office Building. Based 
upon the review of that plan and a ``look backward'' to see how the 
plan worked, the office made changes to the plan in order to be even 
better prepared. An off-site scanning facility was established in 
coordination with the Sergeant at Arms. Additionally, the identical 
hardware and software are nearly in place in the Public Records office 
to allow for reciprocity for Public Records and SAA scanning functions. 
The office staff was also involved as participants on the content teams 
for senate.gov.

Automation Activities
    During fiscal year 2002, the Senate Office of Public Records 
transferred its public financial disclosure and FECA records from WORM 
disk storage to digital storage on a server by rewriting these two 
applications. The value to the Senate is that in the event of a COOP 
activation, these records become easily accessible off site.

Federal Election Campaign Act, as amended
    The Act required Senate candidates to file quarterly reports in an 
election year. Filings totaled 3,320 documents containing 213,968 
pages. The page count represents a greater than 100 percent increase 
over last year. This was due to changes in the FECA forms that reduced 
the amount of information that could be disclosed on a page.

Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2002, 5,536 registrants represented 17,575 
clients and employed 21,089 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports were 36,587.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2002. The reports were available to the public and press by Friday, 
June 14th. Copies were provided to the Select Committee on Ethics and 
the appropriate State officials. A total of 2,457 reports and 
amendments were filed containing 14,084 pages. There were 359 requests 
to review or receive copies of the documents.

Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received over 1,320 reports 
during fiscal year 2002.

Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 655.

Plans for Fiscal Year 2003
    The Public Records office plans to enhance its lobbying web site by 
offering an on-line tutorial video that provides e-filers with 
information that makes the program easier to use. The office is also in 
the process of developing a manual detailing the policies and 
procedures of the Public Records Revolving Fund. In addition, at the 
request of the Secretary, the General Accounting Office will conduct an 
audit of the fiscal year 2002 transactions of Public Records' Revolving 
Fund. At the request of the Secretary, the General Accounting Office 
will conduct an audit of the fiscal year 2002 transactions of the 
Public Records' revolving fund.

                          14. SENATE SECURITY

    The Office of Senate Security is responsible for the administration 
of classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate.

Personnel Security
    In 2002, OSS processed 1,833 personnel security actions. Seventy-
two investigations for new security clearances were initiated last 
year, and eighty security clearances were transferred from other 
agencies. Senate regulations, as well as some Executive Branch 
regulations, require that individuals granted Top Secret security 
clearances be reinvestigated at least every five years. Staff holding 
Secret security clearances are reinvestigated every ten years. During 
the past 12 months, reinvestigations were initiated on 59 Senate 
employees. OSS processed 140 routine terminations of security 
clearances during the reporting period and transmitted 288 outgoing 
visit requests.
    The remainder of the personnel security actions consisted of 
updating access authorizations and compartments. In addition, 206 
records checks were conducted at the request of investigative agencies 
supporting the personnel security program.

Security Awareness
    OSS conducted or hosted 78 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings.

Document Control
    OSS received or generated 2,419 classified documents consisting of 
69,670 pages during calendar year 2002. Additionally, 114,712 pages 
from 3,244 classified documents which were no longer required for the 
conduct of official Senate business were destroyed. OSS transferred 674 
documents consisting of 27,275 pages to Senate offices or external 
agencies. Overall, Senate Security completed 6,337 document 
transactions and handled over 211,657 pages of classified material in 
2002, an increase of 17.2 percent.
    In addition to the classified documents destroyed by OSS, 
approximately 866 linear feet of sensitive but unclassified material 
was destroyed for various committees.
    Secure storage of classified material in the OSS vault was provided 
for 106 Senators, committees, and support offices. This arrangement 
minimizes the number of multiple storage areas throughout the Capitol 
and Senate office buildings, thereby affording greater security for 
classified material.

                          15. STATIONERY ROOM

    The Senate Stationery Room's principal functions are: (1) to sell 
stationery items for use by Senate offices and other authorized 
legislative organizations, (2) to select a variety of stationery items 
to meet the needs of the Senate environment on a day-to-day basis and 
maintain a sufficient inventory of these items, (3) to purchase 
supplies utilizing open market procurement, competitive bid and/or GSA 
Federal Supply Schedules, (4) to maintain individual official 
stationery expense accounts for Senators, Committees, and Officers of 
the Senate, (5) to render monthly expense statements, (6) to insure 
receipt of all reimbursements for all purchases by the client base via 
direct payments or through the certification process, (7) to make 
payments to all vendors of record for supplies and services in a timely 
manner and certify receipt of all supplies and services, and (8) to 
provide delivery of all purchased supplies to the requesting offices.

------------------------------------------------------------------------
                                           Fiscal Year      Fiscal Year
                                               2002            2001
                                           Statistical      Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales............................      $4,628,342       $3,610,804
Sales Transactions.....................          61,479           62,970
Purchase Orders Issued.................           6,218            6,770
Vouchers Processed.....................           7,376            7,951
Metro Fare Media Sold..................          41,558           19,621
    $20.00 Media.......................         (36,943)  ..............
    $10.00 Media.......................          (1,978)  ..............
    $5.00 Media........................          (2,637)  ..............
------------------------------------------------------------------------

    The Stationery Room continues to work on the final phase of the 
voucher upload process. Fiscal year 2002 was the first full year in 
which voucher information was submitted using a customized spreadsheet 
interface with the Disbursing Office to pay vendors. This process has 
eliminated the duplicate efforts previously required in the voucher 
payment process between the Stationery Room and the Disbursing Office. 
The final phase to be completed in fiscal year 2003 will incorporate an 
automated voucher payment reconciliation.
    During fiscal year 2002, the Stationery Room completed the 
formation, development and deployment of its automated physical 
inventory process. This process utilizes radio frequency technology 
which is transmitted from the inventory data collectors back to the 
application software residing on the servers. This new process has 
eliminated the download time which was previously required to transfer 
data.
    The Accounts Receivable interface with the Disbursing Office was 
finalized after development and testing. Initially started in the 
middle of fiscal year 2000, this process involves importing expenditure 
information from each customer account that is certified for 
reimbursement in a Disbursing Office system format. It is then 
transmitted via e-mail and uploaded to the Disbursing Office system for 
reimbursement to the Stationery Room Revolving Fund. This process has 
eliminated the need for issuance of paper checks which required 
considerable staff time for both organizations in the past.
    Implementation of the Web FMIS access for the Stationery Room was 
installed for testing during March 2002, and additional programming was 
needed to address issues to accommodate Revolving Fund accounts. This 
project will eventually allow for key Stationery Room staff to access 
the Disbursing Office via the Web to perform a number of operations, 
which were previously time consuming and staff intensive. This project 
has been three years in the making due to the shear volume of 
transactions generated by the Stationery Room. Time-out errors also 
occurred because of this volume and were recently resolved by the FMIS 
project team.
    The Stationery Room will draft a requirements report during fiscal 
year 2003, that will outline upgrading to new application software for 
the operation, using appropriated monies for fiscal year 2003. It is 
envisioned that this document will be all inclusive and will take into 
account the latest technologies in the industry and the unique needs of 
the Senate.
    In addition, at the request of the Secretary, the General 
Accounting Office will conduct an audit of the fiscal year 2002 
transactions of the Stationery Room's Revolving Fund.

                             16. WEBMASTER

    The Webmaster is responsible for the three web sites that fall 
under the purview of the Secretary of the Senate: the public Senate Web 
site, www.senate.gov (except individual Senator and Committee pages); 
the Secretary web site on the Senate intranet, Webster; and an intranet 
site currently under construction that is intended for use by Secretary 
staff only. The focus of the past year was a redesign of the Senate Web 
site.

The Senate Web Site: http://www.senate.gov
            Background
    The senate.gov Web site was created in 1995. A 1998 redesign for 
the 106th Congress included a database for Senator/Committee 
information; daily updates on legislative activities; roll call vote 
tallies; and an expanded section, Learning About the Senate section. A 
project to redesign www.senate.gov and implement a Web Content 
Management System (WCMS) began in the fall of 2001 and continued 
through 2002. The new web site was launched October 30, 2002, and work 
continued through the rest of the year on further enhancements. Plans 
are underway to launch special presentations and micro-sites in phased 
launches in 2003 and 2004.
    Implementation of a Web Content Management System provided many 
advantages to the Senate including: allowing content to be published by 
content owners without web formatting skills; completing a content 
analysis and restructuring using XML tags allowing for repurposing of 
content; a new design and navigation structure based on the content 
analysis, best practices and customer usability studies; and the 
creation of seven content teams to identify new content and maintain 
current content on the site. Over thirty Senate staff worked on the 
project.

            Training and Support Requirements
    Documentation and how-to manuals for working with the WCMS were 
provided by a contractor. Senate staff are continually training and are 
constantly working to support the WCMS and the Web site.

            Future www.senate.gov Projects
    Possible further enhancements to the web site over the next two to 
three years include increasing content, improving content presentation, 
and creating special multimedia presentations such as using XML to 
structure and present the Isaac Bassett collection; converting to a web 
format two animated features developed by the Curator for the Capitol 
kiosk; developing a special feature on Senate desks; and producing a 
retrospective on inaugurals. These special presentations are small 
projects that may be priced and contracted separately.

            Webster
    Webster, the Senate Intranet, is available only to Senate staff 
within the Senate complex and in state office locations. The Webster 
intranet navigation is currently divided by organization. Senate staff 
must know which organization provides a service in order to locate 
information about that service on the web site. The Secretary and the 
Sergeant at Arms are currently evaluating the feasibility of initiating 
a project to redesign Webster to include a comprehensive list of 
services across all service organizations and a common navigation and 
user interface that would be agreed on by the major contributors.
    The Secretary's presence on Webster would be redesigned 
accordingly. A requirements analysis would be necessary to determine 
which of the Secretary's many services Senate staff want to access 
online and how best to deliver them. The Disbursing Office and the 
Office of Public Records already offer fillable forms online and staff 
can order documents from the Document Room via an online ordering form. 
Any redesign plan will likely include development of an online ordering 
system for Stationery supplies. The Documentum 4i Content Management 
System used for senate.gov could also be used for Webster.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project and oversees the Senate's outside 
contractors.

Background: LIS
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program and recommended the Standard 
Generalized Markup Language (SGML) as ``an appropriate technology on 
which to base the preparation of legislative information and document 
management systems.'' Since that time, as anticipated, a subset of SGML 
known as the eXtensible Markup Language (XML) became an industry 
standard, and in December 2000, the Senate Committee on Rules and 
Administration and the Committee on House Administration jointly 
accepted XML as the primary data standard to be used for the exchange 
of legislative documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January 2000, and the transfer of operations and maintenance 
of the LIS to the Office of the Sergeant at Arms (SAA) in March 2000, 
the LIS Project Office shifted its focus to procuring system 
development services in support of an LIS Augmentation Project (LISAP). 
The LISAP is focused on the data standard component to provide a 
Senate-wide implementation and transition to XML for the authoring and 
exchange of legislative documents. This component of the LISAP also 
includes the review and update of existing document type definitions 
(DTD), development of new DTDs, the conversion of legacy documents to 
XML formats, and conversion of documents in other formats to XML.
    A database of documents in XML format and an improved exchange 
process will result in quicker and better access to legislative 
information and will provide documents that can be more easily shared, 
reused, and re-purposed. Parts of one XML document can be reused in 
another XML document because the document structure is similar and the 
format of the data (XML) is standard. As more and more documents are 
created in the XML format, the necessity for re-keying or converting 
from one format to another (HTML to WordPerfect or XyWrite locator to 
Word or Word to WordPerfect, etc.) will disappear.
    The LISAP incremental development approach has helped the LIS 
Project Office build user acceptance, manage costs and adjust quickly 
when needed. The initial focus for the LISAP is to develop an XML 
authoring system for the Office of the Senate Legislative Counsel (SLC) 
and the Office of the Enrolling Clerk for bills, resolutions and 
amendments. Collaboration of Secretary of the Senate and Sergeant at 
Arms staff, augmented with strong contractor support, provides a great 
team effort and much progress has been achieved in the past year.

LISAP: 2002
    In October 2001, the LIS Project Office added a software engineer 
and provided oversight for two consultants to conduct an eight week 
evaluation of an XML authoring application being built by the Office of 
the Clerk for the House Office of the Legislative Counsel and the House 
Enrolling Clerk. The application, built in XMetaL, was in limited use 
for House simple resolutions, and the Senate contract looked at its 
applicability for Senate simple resolutions, as well as its potential 
for use for larger, more complex documents. Although the House 
application proved to be a very ambitious, well-conceived effort that 
provided most of the high priority requirements identified by the SLC, 
it did not support their general editing activities in an easy, 
straight-forward manner. Following a briefing for the Clerk and House 
developers, the Senate chose to move forward with XMetaL as the XML 
editor on which the Senate authoring application would be built.
    Two Senate staff were added to the LIS Project Office in 2002. A 
systems analyst was hired by the Office of the Sergeant of Arms in 
February and a systems analyst was hired by the Office of the Secretary 
in June. Two consultants returned in March to assist in the design and 
development of several functions with the editor to address the general 
editing requirements of the SLC. By the end of the contract, the 
project team had determined that it was possible to solve the SLC's 
general editing issues, and the Senate staff began building the 
authoring application in June. The first release of the Senate's 
Legislative Editing in XML Application (LEXA) was completed in 
September, followed by a release of additional functionality in 
December. In January 2003, eight attorneys and one staff assistant from 
the SLC began testing LEXA and providing feedback to the developers. 
LEXA was greeted with praise and enthusiasm from the SLC, and the 
testing/feedback cycle has yielded valuable information for the Senate 
development team. The development team will continue to refine and 
enhance LEXA over the next few months, adding the ability to create 
amendments, reported bills, and documents with tables.
    While LEXA was being developed by Senate staff, a contractor was 
engaged in June 2002 to begin addressing the requirements and design of 
a Document Management System (DMS) for the SLC. The first phase of 
development will be completed in February, and a second phase of 
development and implementation is planned to begin in March. The DMS, 
which will be integrated with LEXA, will provide the ability for the 
SLC to track and manage all work requests, legislative drafts, and 
internal office documents in a variety of formats including XML, 
XyWrite, Word, WordPerfect, e-mail, and PDF. The DMS will also provide 
search and retrieval and a means to exchange documents with the Senate 
Enrolling Clerk, the GPO, the House Office of the Legislative Counsel, 
and the Senate Appropriations Committee. The expansion of a DMS 
approach into other Senate offices will facilitate greater 
accessibility to legislative documents.
    Prior to roll-out of LEXA and the DMS, the contractor will develop 
a training program that will provide transition training for the entire 
office of the SLC and the Senate Enrolling Clerk, a printed and online 
reference manual, and computer-based training for new hires. The 
Contractor completed a short contract in January 2003, to gather the 
training requirements and prototype the products. Training will begin 
late this year, most likely immediately following adjournment.
    Another important element of the LISAP involves data conversion. In 
June 2002, the Senate contracted to convert Senate bills and 
resolutions and the SLC's drafts from the 106th and 107th Congresses 
from their current ``locator-coded'' format to XML. This conversion 
effort is to be completed by the end of March, and the documents will 
be loaded into the SLC's DMS for use in subsequent legislative 
documents authored in XML. The conversion software will be integrated 
into LEXA/DMS in order to provide the ability to convert a single 
document or batch of documents from earlier Congresses as needed. The 
Senate has also contracted on a project to convert the XML data back to 
locator codes for printing through GPO's Microcomp composition software 
and for exchange with offices that are still working in Xywrite and not 
yet ready to work with XML documents. Concurrent work on the bi-
directional conversions has greatly benefitted both conversion 
projects.
    Another project undertaken in 2002 was a move toward creating the 
Congressional Record in XML. The Congressional Record is an important 
research tool and historical document, and having the electronic data 
available in XML format will one day provide the ability to produce a 
much more useful and powerful searchable database than is possible 
today. One of the first steps in that direction is to create a document 
type definition (DTD) that describes the structure and contents of the 
Record. The Senate contracted to create a DTD for the Senate portions 
of the Record. The contractor also developed a high level strategy for 
a phased transition to an XML Congressional Record including time and 
resources required, hardware and software requirements, and change 
management considerations.
    To support the applications and interfaces for the authoring and 
exchange of legislative documents, LISAP deliverables include project 
plans; requirements and design documents; implementation, deployment 
and training plans; documentation; training materials; and training 
classes.

LISAP: 2003
    Plans for 2003, include the completion and deployment of LEXA and 
the DMS for the SLC and the Enrolling Clerk. Deployment to those 
offices must include the development and delivery of the training 
program and conversion of documents already created for the 108th 
Congress. One other set of documents that needs to be converted is the 
compilation documents of existing law that are created and maintained 
by the House and Senate Legislative Counsels.
    Completion of LEXA for the SLC for bills, resolutions and 
amendments will establish a framework on which to build applications 
for other offices and other legislative documents. Elements in bills 
are common to other legislative document types including conference 
reports, compilations, committee reports, the U.S. Code and the 
Congressional Record. Authoring applications for additional document 
types produced in other offices can be constructed by reusing certain 
functions built for the bill's application where common elements and 
requirements exist.
    The LISAP will also begin to address the needs of other Senate 
offices, starting with the Appropriations Committee. A contract project 
to determine unique requirements for drafting appropriations bills and 
to assess the feasibility and requirements for a document management 
system for the Committee is under development.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more useful searches.
                                 ______
                                 
                Prepared Statement of Timothy S. Wineman

    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 2004.
    Mr. Chairman, the fiscal year 2004 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
fiscal year 2004. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$753,747,000 which reflect an increase of $79,416,000 or 11.78 percent 
over the amount appropriated for fiscal year 2003 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 2003 are $674,331,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 2004 are divided into three 
major categories as follows:

------------------------------------------------------------------------

------------------------------------------------------------------------
Senate Items............................................    $133,968,500
Senate Contingent Expense Items.........................     612,279,500
Senate Joint Items......................................       7,499,000
                                                         ---------------
      TOTAL.............................................     753,747,000
------------------------------------------------------------------------

    Specifically, Mr. Chairman, the fiscal year 2004 budget estimates 
reflect increases over the fiscal year 2003 enacted levels as a result 
of: (1) the anticipated 3.9 percent cost-of-living adjustment for 
fiscal year 2004, and the annualization costs of the fiscal year 2003 
4.27 percent cost-of-living adjustment; (2) the cumulative under 
funding of previous fiscal years in the Senators' Official Personnel 
and Office Expense Account due mainly to increases in population 
categories of various states and increases in the Administrative and 
Clerical Assistance Allowance authorized by the Legislative Branch 
Appropriations Acts, 1999, 2000, 2002, and 2003; (3) personnel 
adjustments, other than the cost-of-living; (4) increases in agency 
contributions applicable to the cost-of-living adjustments and other 
personnel increase requests; and (5) other miscellaneous and 
administrative expense increases.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 2004.

    Senator Campbell. Thank you. Some of the questions require 
an extensive answer, so I will submit them in writing since we 
have a very short time. That is unless you want to wait until 
we get done voting twice, which will be 45 minutes or more with 
you sitting around.
    Ms. Reynolds. Your preference. So whichever you would like.

                   SELECTION OF ARTISTS FOR PORTRAITS

    Senator Campbell. Let me ask you a couple of easy ones 
first because I am particularly interested in the arts, having 
made my living in it for years and years before I ever got in 
public office. How are the portraits you mentioned of Senator 
Dole and one other.
    Ms. Reynolds. Mitchell?
    Senator Campbell. Yes. Are those done by bid or how do you 
pick who does those?
    Ms. Reynolds. I am going to defer, if I might, to our 
curator on that. She is here to come up and educate us on that.
    Senator Campbell. Please, your name for the record.
    Ms. Skvarla. Diane Skvarla.
    Senator Campbell. Why don't you come up here, Diane.
    Ms. Skvarla. Diane Skvarla, Senate curator.
    We select an advisory group of curators and historians to 
help us in the selection process of the artists. In the case of 
Mitchell and Dole, there are such curators as the curator of 
the National Portrait Gallery, the director of the National 
Gallery of Art, and a variety of other curators from the home 
State.
    Senator Campbell. So that becomes a committee and they 
decide? If an artist is out there and wants to have his name in 
the hopper, what do they do? Write a letter saying I----
    Ms. Skvarla. That is it exactly. They send their portfolio 
to our office and we consider them. Absolutely. And we keep 
them on file.
    Senator Campbell. And is there a standard fee that you pay 
them?
    Ms. Skvarla. The Senate Commission on Art has established a 
standard fee for the leadership work.
    Senator Campbell. How much is it for a painting?
    Ms. Skvarla. $40,000.

                              CURTIS CHAIR

    Senator Campbell. Thank you. Another thing that I want to 
become one of the joys of the Secretary's Office is retrieving 
some things for the new visitor center. I talked to you about 
it before. One was a chair. That sounds kind of crazy, thinking 
of a chair as an art piece. But it was hand-carved years ago 
for Charles Curtis who was the Vice President of the United 
States. It was a chair he used on the podium. Somebody called 
me about it 15 or 18 years ago. I may have mentioned this. It 
was a private antique store I think, and they wanted to sell it 
to me. And I was not in the market to buy a chair for the price 
they wanted. I could have bought a car cheaper than that chair. 
So I passed on it, but I know that Senator Dodd and several 
others now are really trying to get some interest going to 
reacquire some of the things that historically were in the 
Senate and now are somewhere else.
    I have gotten a couple of partial pictures of that chair, 
and I do not know where it is, but I understand it is in 
private hands somewhere now. I would hope maybe you would help 
us try to find the owner of that and see if they would like to 
sell it to the Senate or donate it and get a tax write-off or 
do something where we could reacquire that with some of the 
other things we are looking for.
    Ms. Reynolds. With the help of the curator's office, I can 
tell you we are very much in the hunt for that chair.
    Senator Campbell. A good chair.
    Ms. Reynolds. Your chair.
    Senator Campbell. No, it is not mine. It was a good chair.
    Ms. Reynolds. Senator Curtis' chair I should say. That is 
right. The chair.
    As of close of business yesterday, we had talked with the 
just-previous owner and we are in hopes of----
    Senator Campbell. Was it an antique store or a private 
owner?
    Ms. Skvarla. It was the antique store that we actually had 
spoken to, the owner of the antique store, but it now is in 
private hands and she is trying to locate it. She sold it about 
2 years ago.
    Senator Campbell. Well, hopefully when we do find that, 
maybe we can convince them of the importance to not only the 
Senate but to the country to try to preserve some of the things 
where all Americans will be able to see things like that in the 
new visitor center.

                         CAPITOL VISITOR CENTER

    Speaking of the visitor center, I know you have only been 
here 4 months. What is your assessment on how it is coming 
along? I know they have had to make some changes after 9/11 and 
that is going to add to the cost of it. When I look out there, 
not being an engineer, it just looks like a big hole so far, 
but I know there is definite progress being made and you are 
much more tuned in to it than I am.
    Ms. Reynolds. Thank you for asking. Obviously, I know we 
will all look forward to hearing Mr. Hantman's comments this 
afternoon on the visitor center.
    I will tell you that in my time here the work on the 
visitor center in terms of the time that it occupies on my own 
schedule and our staff, as we facilitate weekly meetings, both 
a joint meeting with our colleagues on the House side and then 
again here on the Senate side, both on Mondays and Thursdays, 
the time that it takes is extraordinary, but certainly 
worthwhile. The project is one of such complexity and 
magnitude. I share your thoughts. As someone who is obviously 
not an engineer, not a construction manager, it is mind-
boggling in many respects.
    Again, I know Mr. Hantman will address this. Clearly the 
awarding of the sequence 2 contract was a major goal that we 
got through just before the recess.
    They are making tremendous progress. You may notice as you 
come in, even in the mornings--and I have noticed this. I walk 
to work sometimes and come up the Hill. As early now as 6:30 in 
the morning, those big dumptrucks are loaded up to move that 
dirt out of here every day. So they are making progress. But 
again, it is a project of enormous complexity and magnitude and 
one that each day, there is a different moving piece to the 
puzzle, if you will. But it is an exciting project.
    And it is for all of us to remember that at the end of the 
day, we moved in this direction for security concerns when we 
lost our officers here in that tragic shooting, but clearly 
since 9/11, since October 15th with our anthrax incident, the 
world has changed for us once again. So the security 
enhancement, both for our whole community here, in addition to 
our visitors--you know, the short-term pain and long-term gain 
will be well worth this.
    And in addition, the educational component for our visitors 
will be so greatly enhanced.
    So I think we will end up in 2005 with a project of which 
we can all be very proud and one that will serve this 
institution very well in the years to come.
    Senator Campbell. Well, I am excited about that too. Before 
9/11, the halls were just full of children. You almost could 
not get through to get to vote because there were so many. I 
really miss the little buggers now.
    I did not realize how I could miss those crowds of kids, 
but I do. When that visitor center is opened, I am sure that is 
going to one of the main places they go before they come into 
the Capitol.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, thank you, and I will submit some questions for you 
dealing with employment retention and two or three other 
things, if you could get back to us on those. Thank you.
    Ms. Reynolds. Thank you, sir. I appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. Secretary Reynolds, your office has numerous 
initiatives underway to improve the operations of the Senate. 
What are your highest priorities for the year ahead?
    Answer. Our single highest priority is to continue to 
provide the best possible legislative, financial and 
administrative services to the U.S. Senate. To that end, in the 
year ahead, I would cite five specific areas of concentration:
    1. We will continue to make significant progress on our two 
mandated projects, the Financial Management Information System 
and the Legislative Information System Augmentation Project, 
for which we have received substantial appropriations.
    2. Our ongoing work with the Sergeant at Arms in Continuity 
of Operations and Continuity of Government planning will enable 
us to support carrying out the Senate's constitutional 
functions in the event of an emergency or some unforeseen 
circumstance.
    3. We will continue to strengthen our bench in each of our 
25 departments to ensure that our personnel continue the 
tradition of outstanding talent and skill in serving the 
Senate. Succession planning and cross-training, especially 
among our legislative specialities, remain a critical component 
of this focus and our overall operation.
    4. We take very seriously our curatorial role in protecting 
and preserving the Senate wing of the Capitol, and through the 
Historical Office, providing the Senate's institutional memory. 
With the approval of the Senate Commission on Art, we hope to 
approve a preservation policy this year and develop initiatives 
that will allow us to further enhance the Senate's collection 
with historic furnishings and fine art acquisitions.
    5. Using our appropriated dollars from fiscal year 2003, we 
will make much needed technology upgrades, particularly in 
Captioning Services and the Gift Shop. In addition, we hope to 
enhance www.senate.gov, for the further benefit of the general 
public.
    Question. The fiscal year 2002 legislative branch bill 
provided authority for repayment of student loans to Senate 
employees. It is my understanding that 109 of the roughly 900 
employees participating in the first year of the program were 
terminated from the program. Termination occurs if one fails to 
meet the one-year service requirement. This is an 
extraordinarily high termination rate. What is your sense as to 
the effectiveness of the student loan program as a recruitment 
and retention tool for the Senate? Could your office proceed 
with a study of the program, through a survey of offices, to 
determine how it is operating?
    Answer. Since the program is so new, it has yet to reach 
the maturation point where one could point definitively to its 
impact. In addition, while my office has responsibility for 
establishing the sample student loan agreement and addressing 
payment issues, each Senate office oversees the program in 
regard to its own employees.
    Although the rate of those breaking the student loan 
repayment contract appears substantial, continued favorable 
responses from Senate offices give us an overall impression 
that the program has been well-received. Moreover, we know that 
the number of offices using the program and consequently, the 
number of employees participating, has grown steadily during 
each month of this past year. Anecdotal evidence from 
participating offices also seems to indicate that the program 
has been used, at least through the first year, almost 
exclusively for retention purposes.
    In the next few days, I will meet with Senate office 
managers and administrators, and plan to discuss this subject. 
My goal is to create a small working group from several Senate 
offices to devise a means, perhaps through an informal, 
confidential survey, to give us both additional anecdotal 
evidence and statistical evidence of the program's use and 
effectiveness as a retention and recruitment tool. I look 
forward to reporting back to the Committee on our progress and 
results.
                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
    Senator Campbell. We will now hear from Mr. Hantman. If you 
will come up and just grab a chair and pull it up there.
    As we did with Ms. Reynolds, if you want to submit your 
complete written testimony, that will be fine because we are 
going to simply run out of time unless you want to wait around 
for an hour. That does not appeal to me either.
    Mr. Hantman. No. I appreciate that, Mr. Chairman. I would 
appreciate doing that.
    Mr. Chairman, I welcome this opportunity to testify today 
and I thank this committee for its support over the years. It 
has allowed us to complete many critical projects and assure 
continuously improving service at the Capitol, the Senate 
office buildings, and throughout the Capitol complex.
    My budget request for fiscal year 2004 meets my 
responsibilities for facilities management, for project 
delivery, and the stewardship at the Capitol complex.
    But just as importantly, it responds to the demands of our 
customers, the requirements for fire and life safety, as well 
as new security requirements. It has been a challenge, Mr. 
Chairman, to build this budget request in this fiscally 
constrained environment and balance these requirements against 
our current workload.
    We are requesting $513.9 million for fiscal year 2004, 
which is $57 million, or 12.5 percent, above the enacted fiscal 
year 2003 budget, including the fiscal year 2003 supplemental. 
The most significant factor in this increase is the request for 
funds to purchase the shared alternate computer facility at 
some $61 million.
    Other significant projects in this request include $40.8 
million to continue with the West Refrigeration Plant expansion 
project, $26.5 million for phase two of the design of the U.S. 
Capitol Building master plan, and $18.7 million to replace the 
high-voltage switchgear in nine buildings on the campus. Some 
other key items include $6.5 million to improve Capitol power 
plant operations, and $4.7 million for steam humidifiers in the 
Hart Senate Office Building. Details of each project, of 
course, are included in the formal statement so I will not go 
into them.
    These projects are in addition to more than 200 projects 
now underway. Among them are substantial projects necessary to 
meet the demand for heightened security as a result of our 
ongoing war on terrorism. In this environment, the AOC is 
carrying out its mission to provide Congress and the public 
with a wide range of professional expertise and services to 
preserve and enhance the Capitol complex and related facilities 
by completing many important projects.
    We have also undertaken significant efforts to improve the 
agency and take on what I like to call the magnificent 
challenges associated with maintaining and preserving our 
Capitol. One of our greatest challenges, Mr. Chairman, is to 
sensitively incorporate modern systems for health, safety, 
security, and accessibility into these historic buildings.
    Although our workload is immense, I am proud to say in the 
first quarter of 2003, 98 percent of our projects were 
completed within budget.
    Not only are we working to complete projects on time and 
within budget, we are doing our work much more safely, and with 
the generous support of Congress, we have increased our safety 
and our professional staff. We have modified our work practices 
and procedures and reduced our total injury and illness rate by 
some 53 percent and our lost time injury/illness rate by 36 
percent in just the last 2 years.
    There is an awful lot of good story over there, Mr. 
Chairman, and most of it is in the written record. So I will 
end my public testimony at this point in time and welcome any 
questions you might have.
    [The statement follows:]

              Prepared Statement of Alan M. Hantman, FAIA

    Mr. Chairman, members of the Committee, I welcome this opportunity 
to testify before you today. The Office of the Architect of the Capitol 
(AOC) has always worked closely with the Sub-Committee for the 
Legislative Branch on Appropriations in a successful and collaborative 
relationship. I thank the Committee for its generous support which has 
allowed us to complete many critical projects, provide exemplary 
service, and assure continuity of operations at the Capitol, the Senate 
Office Buildings and throughout the Capitol complex. My budget request 
for fiscal year 2004 meets my responsibilities for facilities 
management, project delivery, and the stewardship of the Capitol 
complex. But just as importantly this budget responds to the demands of 
our customers, the requirements for fire and life safety, as well as 
new security requirements. It has been a challenge to build this budget 
request in this fiscally constrained environment and balance these 
requirements against our current workload. I have personally reviewed 
the budget request with each of my Superintendents to ensure we fulfill 
our responsibilities as effectively and efficiently as possible 
reviewing the base amounts and looking for areas of savings.
    We are requesting $513.9 million for fiscal year 2004, ($447.1 
million excluding the items for the House of Representatives)--$57.1 
million or 12.5 percent above the enacted fiscal year 2003 budget 
including the fiscal year 2003 supplemental. This does not include the 
authority to use $4.4 million reimbursement of utilities provided to 
non-legislative branch agencies. The most significant factor in this 
increase is the request for funds to purchase the shared Alternate 
Computer Facility at $61 million. Other significant projects in this 
request are: $40.8 million to continue with the West Refrigeration 
Plant Expansion project; $26.5 million for Phase II of the design of 
the U.S. Capitol Building Master Plan; $18.7 million to replace the 
high-voltage switchgear in nine buildings; and $12.6 million for the 
design of new Library of Congress facilities and a condition assessment 
for the Library of Congress Buildings and Grounds. Other key items in 
my budget request include $6.5 million to improve Capitol Power Plant 
operations; $4.7 million to replace steam humidifiers in the Hart 
Senate Office Building; $4.3 million to refurbish Bartholdi Park; $4.2 
million to prepare a Capitol Complex Master Plan; $4.2 million to build 
an underground fuel storage tank for the Capitol Power Plant, and $4.1 
million to install a fire protection water tank at Ft. Meade.

                          PROJECT DESCRIPTIONS

Alternate Computer Facility--$61,000,000
    This request will fund the purchase of the land and buildings for 
the Alternate Computer Facility (ACF). Per Public Law 107-206, Section 
905(a), the AOC is authorized, subject to the availability of 
appropriations, to acquire buildings and facilities for use as computer 
backup facilities for offices in the legislative branch. The AOC 
entered into a 10-year lease in November 2002, with a single option of 
an additional ten years, for such a facility in Manassas, Virginia. The 
facility selected was one of two adjoining buildings, with the 
legislative branch occupying one building and the other occupied by 
commercial tenants. Included in the lease, is an option for the AOC to 
buy both buildings and the surrounding land within the first five 
years. Due to the design and interdependencies between the two 
buildings (e.g., common utility systems and mechanical rooms) it is not 
feasible to buy only one of the two buildings. Based on preliminary 
analysis in June of 2002, it is more advantageous to the government to 
procure both buildings than to continue a full 20-year lease for one 
building based on comparing the present value of the cost of ten years 
worth of lease payments to the cost of purchasing the entire building. 
We will undertake full due diligence in support of this purchase this 
summer. Continued leasing of the ACF will result in fiscal year 2005 
acquisition costs rising to $63,000,000 as priced in the lease 
agreement.

West Refrigeration Plant Expansion--$40,800,000
    This project provides funding for the final increment for the West 
Refrigeration Plant Expansion Project. The total project cost is $81.8 
million. The existing West Refrigeration Plant operates at its maximum 
capacity during peak summer load conditions and if the project is not 
funded, the Capitol Power Plant will be unable to meet the cooling 
needs of the Capitol complex. The Capitol Visitor Center (CVC) will 
also impose additional loads when it becomes operational in 2005. These 
demands make it critical that this project be completed before the CVC 
is completed. Construction of the West Refrigeration Plant Extension 
will accommodate new chillers and include all necessary auxiliary 
equipment, such as cooling towers, pumps, heat exchangers, piping and 
controls. It is imperative that this project be completed in time to 
meet future demands.

U.S. Capitol Master Plan Phase II--$26,500,000
    This project will provide initial design funding to implement the 
U.S. Capitol Master Plan which addresses upgrades to the 
infrastructure/support systems of HVAC; fire protection and life 
safety; security; electrical; lighting; vertical transportation; 
telecommunications; system integration; and plumbing systems throughout 
the Capitol Building. The scope is fundamentally an infrastructure 
upgrade coupled with limited architectural changes designed to meet 
fire and life safety codes for the interior of the U.S. Capitol. The 
proposed work includes upgrades to the Senate and House Chambers; a 
building-wide sprinkler system; an upgrade of the HVAC system to 
include smoke evacuation features; an essentially new electrical system 
to include new distribution wiring and panels and new or refurbished 
lighting and special electronic systems; additional vertical 
circulation; and upgraded public toilet facilities. The new special 
electronic systems include security, fire alarm, information 
technologies fiber optic backbone and legislative call systems. The 
Master Plan will not affect existing architectural design except in 
those areas where upgrades necessitate architectural modifications. We 
are currently in the process of engaging a consultant to conduct a 
feasibility and constructability analysis for construction phasing with 
emphasis on accelerating the life safety, fire protection, and other 
Master Plan recommendations and initiatives that can be accomplished 
with minimum disruption to building occupants and business operations. 
The analysis will also include the feasibility of accelerating life 
safety and fire protection recommendations on the House and Senate 
Chambers. If this phase of the Master Plan is not funded, the 
correction of basic fire and life safety deficiencies will be deferred, 
potentially resulting in harm to human life in the event of a fire or 
emergency evacuation.

Replace High Voltage Switchgear in Nine Buildings--$18,672,000
    This project will provide funds to replace High Voltage Switchgear 
in nine Capitol complex buildings. High Voltage Switchgear ensures 
adequate reliable electric power supply through power distribution 
interfaces with the PEPCO incoming feeders. It works at 13,800 volts 
and contains high voltage power breakers and system protective metering 
devices and constitutes the backbone of the electric power distribution 
system. The replacement switchgear will ensure maximum technical 
uniformity between switchgear in different buildings and simplify 
maintenance. The switchgear in all buildings are very old (in most 
cases 42 to 50 years old) and are either at the end of their life 
expectancy or are no longer logistically supported by the manufacturer. 
Currently, a single failure of high voltage equipment will not, in most 
cases, interrupt normal power supply. However, two consecutive failures 
(if the first one cannot be promptly fixed) would result in a major 
power supply breakdown to a building, possibly for days entailing 
significant costs to repair.

Design, Study and Condition Assessment for Library of Congress--
        $12,602,000
    This line item provides flexibility to meet the needs of the 
Library of Congress by performing studies, designs and condition 
assessments to improve project planning and programming. Specific 
initiatives under this category are:
  --Replace Drinking Water System.--Design revisions to the drinking 
        water system to ensure long-term safety and reliability of 
        water supply.
  --Logistics Warehouse Facility, Ft. Meade.--New warehouse facility at 
        Ft. Meade enabling the LOC to consolidate, increase service and 
        eliminate current leased facilities.
  --Offsite Storage Facility.--Design of new off-site facility to house 
        platinum level collections for the LOC.
  --Book Storage Module 5, Ft. Meade.--Design new Book Storage Module 5 
        at Ft. Meade to house general collections to alleviate safety 
        and overcrowding issues.
  --Master Plan, Ft. Meade.--Continuation of conceptual level master 
        plan study at Ft. Meade to plan and resolve utility issues.
  --Replace Bathroom Exhaust Systems, Jefferson Building.--Design 
        upgrades to mechanical exhaust system to alleviate building 
        code violations.
  --Upgrade Book Conveyor System.--Design upgrades to the book conveyor 
        system fire wall penetration resulting from a Citation from the 
        Office of Compliance.
  --Study, Damper Smoke Control.--Design a comprehensive smoke 
        management system to ensure safe egress of building occupants 
        and respond to a Citation from the Office of Compliance.
  --Upgrade Emergency Lighting.--Design upgrades to all emergency 
        lighting systems to ensure code compliance and the safety of 
        building occupants.
  --Steam-to-Steam Humidification.--Design upgrades to all building 
        humidification systems to improve operations, indoor air 
        quality and collections preservation.
  --Repair/Replace Copper Roof, Adams Building.--Design repairs to 
        deteriorated copper roof currently leaking and at the end of 
        its expected life cycle.
  --ADA Bathroom Renovations, Adams Building.--Design upgrades to 
        bathrooms in fire stairs resulting from a Citation from the 
        Office of Compliance.
  --Repair Clean Convector Units.--Study methods to clean existing 
        convector units to increase indoor air quality.
  --Provide Electrical Upgrade, Madison Building.--Study alternatives 
        to increasing available power throughout the Madison Building.
  --Conservation of Murals.--Ongoing study and conservation of historic 
        artwork in LOC facilities.
  --Design, Replace Windows.--Design and install prototype windows for 
        evaluation in accordance with the Capitol Police Blast-Cad 
        Study.
  --Condition Assessment.--Comprehensive condition assessment of all 
        facilities and equipment to facilitate a capitol improvement 
        plan & preventative maintenance plans.

Installation of Distributed Control System--$6,500,000
    This project will replace the existing pneumatic controls in the 
Capitol Power Plant Boiler Plant with digital controls. Existing 
obsolete controls utilize mercury, which is an environmental hazard. A 
``fieldbus'' protocol will be used in the new control system, which 
will allow accurate and remote monitoring of the plant. The controls to 
a boiler must be fully functional and accurate to ensure safe plant 
operation and compliance with environmental restrictions. Due to the 
age, inaccuracy, and unavailability of replacement parts, the system 
must be replaced. If not funded, the Capitol Power Plant will continue 
to use unreliable controls. The plant will not operate as safely or as 
efficiently as it should. Also, this installation will support future 
potentially more restrictive permit limits for environmental 
compliance.

Replace Steam Humidifiers, Hart Building--$4,715,000
    This project will fund the removal of the existing humidification 
systems in 25 major air handling units and retrofit them with new 
``Clean Steam'' chemical-free humidification equipment in the Hart 
Building. To enhance steam quality and reduce maintenance by in-house 
personnel, a water softening system will be incorporated to work in 
conjunction with the steam generators. The remaining air handlers will 
be supplied with cabinet-style humidifiers (located adjacent to air 
handlers) that will enable ``clean steam'' humidification. If not 
funded, a ``clean steam'' chemical-free humidification system, intended 
to improve indoor air quality, will not be installed.

Bartholdi Park Fountain Restoration and Park Renovations--$4,280,000
    This project will provide funding to restore the Bartholdi fountain 
which was purchased from the 1876 International Centennial Exhibition 
in Philadelphia, and was moved to Washington, DC in 1877. The 
restoration of the fountain to its cast iron metal base in 1986, was 
expected to last approximately 10 years. The four top coatings have 
disintegrated and the cast iron is exposed in areas. Although the 
fountain is functional, both the top and lower basins leak and many of 
the water sprays function sporadically. This project will renovate and 
restore the existing fountain and basin. This includes providing and 
applying a coating treatment to the deteriorating metal finish; 
upgrading and replacing all plumbing; upgrading the electrical 
components; installing a new utility vault, basin, light fixtures, and 
19th century replicas of the original light fixtures and basin 
standards. All irrigation to the fountain and Bartholdi Park will be 
replaced. Most of the park does not have an irrigation system and 
requires high maintenance and manpower during the summer months. 
Additionally, the deteriorating sidewalk will be removed and replaced. 
If not funded, the Bartholdi sculpture will continue to deteriorate and 
the fountain will become inoperable.

Capitol Complex Master Plan--$4,200,000
    This project provides funding to prepare a Capitol Complex Master 
Plan. The existing master plan is 22 years old and does not address 
facility requirements brought about by the Congressional Accountability 
Act, nor does it relate to the present need for a heightened security 
environment. A comprehensive Facilities Conditions Assessment (FCA) has 
not yet been performed, and there is insufficient global input to fully 
address all necessary decision factors. Therefore, a new master plan 
for the Capitol complex needs to be developed to:
  --Assess the present physical condition of the buildings;
  --Assess the buildings' capacities and functionalities to accommodate 
        current and future Congressional occupant requirements;
  --Identify and document current and future Congressional programmatic 
        needs;
  --Address code, environmental, and security requirements;
  --Address visitor and traffic circulation (including parking) and;
  --Address new technology opportunities.
    The resulting master plan will serve as a blue print to aid the AOC 
and Congress in determining capital expenditure requirements and 
priorities. Funding for the Facilities Conditions Assessment is being 
provided in fiscal year 2003 for the Capitol, Senate, and House 
facilities. In addition, a workshop was convened by the National 
Academy of Sciences to assist in identifying key issues and factors 
that need to be addressed by a master plan for the Capitol complex. 
Based on the results of the workshop, a Request for Proposal will be 
developed to solicit proposals from firms with demonstrated expertise 
in campus-type master planning. The scope will include identifying and 
documenting all of the critical factors that will affect the planning, 
funding, and implementation of future capital projects on the campus. 
The scope will also call for recommendations on a means of prioritizing 
the factors. Without this comprehensive master plan for the Capitol 
complex, capital projects will not be planned, developed, or 
prioritized within an appropriate comprehensive framework.

Install Oil Storage Tanks--$4,200,000
    This project will provide funding to install a 400,000-gallon 
underground fuel oil storage tank in the Capitol Power Plant auxiliary 
coal yard. The fuel oil tank will supply oil to the Capitol Power Plant 
boilers through a utility tunnel being installed as part of the Interim 
Coal Handling Project. The current fuel oil storage on the site does 
not provide sufficient capacity in the event of a gas curtailment. This 
additional 400,000 gallons of storage along with the existing 200,000 
gallons of storage will give a total of seven days storage at full load 
operation. Environmental restrictions have effectively limited the 
flexibility of burning coal, thus making the plant more dependent on 
fuel oil to stay within limits. If not funded, the Capitol Power Plant 
will be forced to continue to pay higher costs for natural gas. The 
plant would continue to operate on limited fuel storage capacity.

Water Tank, Ft. Meade--$4,103,000
    To meet fire code requirements of the Book Storage Module 2 Project 
at Fort Meade, a water tank is necessary as a second reliable water 
source for this and future projects. This project will include a 
500,000 gallon on-grade water tank, pumps and an associated 
distribution network. This is a code-required installation and Book 
Storage Module 2 cannot be occupied until the water tank and associated 
pumps and distribution network are provided.

                            EMPLOYEE SAFETY

    Not only are we working to complete our projects on time and within 
budget, we also want to complete them safely. I am pleased to report 
that, according to the most recent figures from the Occupational Safety 
and Health Administration, we have cut our total injury/illness rate by 
53 percent and our lost time injury/illness rate by 36 percent in the 
last two years. Our lost time rate for fiscal year 2002 was only 
slightly higher than the Federal agency average--a substantial 
achievement for a predominantly shop-oriented, blue collar work force. 
These significant injury reductions are a result of the priority I have 
placed on safety, the attention and commitment of the AOC management 
team, the hard work and dedication of AOC employees, and the ongoing 
support of this Committee.
    With the generous support of Congress, since 2000 we have increased 
our safety professional staff, modified work practices and procedures, 
and provided protective equipment and safety training to our employees. 
We also have greatly improved our ability to anticipate and prevent 
injuries and illnesses from occurring. While this is a substantial 
achievement, I believe our total injury rate remains high. I am 
committed to continue reducing this rate and achieving my ultimate goal 
of eliminating all injuries and work-related illnesses.
    Another achievement of note: There were no citations issued by the 
Office of Compliance (OOC) to the AOC in 2002. In fact, in its 2002 
Biannual Report, the OOC noted the ``improved workplace safety'' it 
witnessed during its inspections.

                  SENATE OFFICE BUILDINGS IMPROVEMENTS

    Over the past two years, we have made significant improvements to 
the three Senate Office Buildings. We have been systematically 
modernizing the passenger and freight elevators to improve their 
performance and reliability. As part of the overall security plan, we 
expeditiously installed blast resistant film on all the office windows. 
The Dirksen Building has undergone a major renovation to modernize the 
building systems in the areas of fire protection, life safety, 
electrical power, telecommunications, heating, ventilation, and air 
conditioning. Major improvements include new telecommunications systems 
infrastructure to support the upgrade of equipment and technologies; 
expansion of the existing sprinkler system to provide 100-percent 
building sprinkler protection for increased life safety and property 
protection; and energy-efficient lighting. Many of the restrooms in the 
Dirksen and Hart buildings are now fully ADA compliant, and the modular 
furniture replacement program was recently rolled out in the Hart 
Building.
    The AOC has made significant improvements to the Senate Office 
recycling program by implementing a combined paper program recommended 
as a best practice by an industry consultant. The combined paper 
program allows mixing of different types of paper which simplifies 
separation and collection, thereby increasing participation and 
reducing contamination. As a result, contaminated waste has been 
reduced from a high of 75 percent in fiscal year 2000 to nine percent 
in the first half of fiscal year 2003. There has been a 21 percent 
increase in the amount of combined paper products collected; a 200 
percent increase in the number of bottles and cans recycled; a 1,300 
percent increase in newspapers recycled; and a 66 percent increase in 
the amount of scrap metal recycled.
    In June 2002, we asked our Legislative customers to provide us with 
feedback regarding their satisfaction with the level of building 
services we provide. This will be an on-going process with the second 
survey scheduled for June 2003. In response to the feedback we 
received, we have modified and improved our cleaning procedures. 
Specific inspection procedures have been implemented to identify 
consistency and quality of cleaning operations, specific cleaning goals 
are set, and we are recognizing outstanding employee performance. As a 
result of the process changes, from July 2002 to January 2003, the 
Senate Office Buildings night cleaning division reached a performance 
score of 96.8 percent. (The performance score is the percentage of 
satisfactorily cleaned items over total inspected items based on stated 
objective criteria.)

                CAPITOL AND CAPITOL GROUNDS IMPROVEMENTS

    In the Capitol Building, we have orchestrated hundreds of projects 
from painting rooms, to the first phase of the Dome rehabilitation, and 
the preparation of construction documents for the major work yet 
remaining. One of the larger projects we have undertaken is the 
modernization of all elevators. Work has been completed on nine 
elevators, three are currently under construction, and the remaining 
one is scheduled for modernization in fiscal year 2004. In addition, we 
will complete the stairwell extension from the third floor to the 
fourth floor on the Senate side on time and within budget.
    We have achieved full compliance with ADA requirements at all the 
main building entrances and in the public restrooms. Smoke detectors, 
strobe signaling devices, emergency lighting, and other fire safety 
devices are continually being installed throughout the building. We are 
busily cleaning, restoring, and preserving the artwork, statues, and 
architectural features inside the Capitol Building. Outside the 
building, we have been tending to the grounds to assure that pathways 
were cleared of ice and snow during the many snow storms we endured 
this winter and planting bulbs so that we would be graced with a 
beautiful array of flowers now that spring has finally arrived.
    This is only a short list of our many accomplishments. I expect an 
even more significant list of successes through the implementation of 
our Strategic Plan which will help unify the Agency's priorities and 
provide the business management tools needed to accomplish our 
organizational goals.

                           STRATEGIC PLANNING

    When I testified before this Committee last year, I discussed the 
AOC's continuing improvements in planning and managing its projects and 
resources more effectively. Over the past year, the AOC has undergone a 
management review by the General Accounting Office (GAO). In January 
2003, GAO issued its final report that validates the initiatives that 
we had underway, such as structuring and implementing a Strategic Plan 
and a Performance Management Plan, and makes additional recommendations 
that we are incorporating into our operations. These plans will assure 
that the Agency better achieves its mission; improves its performance; 
reaches its goals; and employs best practices to achieve results. We 
are in the process of obtaining stakeholder feedback on drafts of both 
plans and we will finalize them shortly. In unifying the Agency's 
priorities, the Strategic Plan will concentrate the AOC's efforts on 
planning and excellence in the most critical areas of our work: state-
of-the-art facilities management and project management; business 
processes; and human capital planning and allocation.
    The foundation of our Strategic Plan is a commitment to our 
stakeholders to provide exceptional client service and to preserve and 
protect the national treasures entrusted to our care. It is our pledge 
to respond quickly to requests; to find the most efficient way to solve 
problems; to provide the services necessary for Members of Congress and 
their staffs to perform their jobs; and to appropriately accommodate 
the many visitors to the Capitol complex each year.

                             HUMAN CAPITAL

    We employ a diverse workforce consisting of individuals with a 
variety of skills and institutional knowledge. Because we are a 
service-based organization, these individuals comprise AOC's most 
valuable assets and are most critical to its success. AOC's focus on 
the strategic management of human capital covers all aspects of our 
staff assets, from recruitment to skill development to job motivation 
and satisfaction. We believe this strategic focus on human capital will 
ensure AOC's ability to deliver on our promises now and in the future.
    As part of our strategic planning initiatives, we have published a 
number of new or revised human capital policies and will continue to 
review and identify others that may need to be updated or developed. We 
are also focusing on further improvement in areas of recruitment and 
employee development, and on significantly increasing the quantity and 
quality of data collection to enable us to develop better projections 
of our workforce needs--in terms of succession planning, recruitment, 
and development--based on our strategic goals.
    Fiscal year 2003 marked the beginning of the third annual cycle of 
our individual performance management program for employees. The 
Performance Communication Evaluation System (PCES) has enabled AOC to 
complete non-executive employee performance plans and evaluations 
regularly and systematically.
    We developed and implemented a Performance Review Process that 
provides for performance plans and evaluations for our executives. We 
now plan to align our executive performance plans with our Strategic 
Plan to enable a top-down approach to cascading strategic goals 
throughout AOC.
    Establishing formal processes to gather and respond to employee 
feedback is extremely important. As we implement new programs and 
processes as part of our transition to a performance-based 
organization, there will likely be many changes. An established 
feedback process will ensure that AOC leaders and employees both 
understand and respond to each other's concerns. This form of 
communication will assist the AOC in achieving its mission in the 
fairest and most efficient way. We have formed a team to develop a 
comprehensive employee feedback program that will utilize focus groups, 
surveys, and other feedback mechanisms.
    In addition to these communications efforts, we continue to provide 
outreach and support to employees through the omsbudsperson, and our 
EEO/CP and Human Resources Offices.

                         INFORMATION TECHNOLOGY

    We are committed to adopting an agency-wide approach to managing 
Information Technology (IT) to provide the consistent direction needed 
to enhance mission performance across the agency. As such, we are 
implementing a portfolio-based approach to IT investment decision 
making; developing an Enterprise Architecture (EA) that will help drive 
the agency-wide approach to IT management while aligning business 
processes with IT; revising our structured system life cycle to include 
processes for IT system acquisition and development with quality 
standards built in during each phase of the process; monitoring the 
performance of AOC's information technology programs and activities; 
and building a comprehensive information security program.

                          FINANCIAL MANAGEMENT

    One key IT investment has been the implementation of the Financial 
Management System (FMS). The GAO noted in its management review report 
that the financial team has made great strides in improving the flow of 
financial data. The fiscal year 2004 budget continues to support this 
effort with funds to build policies and procedures and move us toward 
auditable financial statements. Our budget reflects the structure 
implemented under FMS with program groups and provides the recommended 
budget schedules and analysis of change formats from the Legislative 
Branch Financial Managers Council that details the individual 
appropriation budget requests.

                          FACILITY MANAGEMENT

    The ability to measure performance related to strategic goals will 
be improved by the continuing implementation of the Computer-Assisted 
Facilities Management (CAFM) system. In 2004, the application will be 
upgraded to a web-enabled environment, preventative maintenance will be 
rolled out for electrical and plumbing systems, handheld scanners will 
help employees in the field maintain more up-to-date work order 
information, and we are planning to interface the facility management 
system to the financial management system to help insure accurate 
material, labor, and asset costs associated with maintenance work.

                         CAPITOL VISITOR CENTER

    The most significant and most challenging project that began 
construction since I last appeared before this Committee is the Capitol 
Visitor Center (CVC). This is a much-needed project of momentous and 
historic importance. As the ninth increment of growth of the ``People's 
House,'' it will offer free and open access to all people in a safe and 
secure atmosphere so that they may witness the workings of democracy 
and the legislative process.
    This is a brief status report on the very significant progress we 
have made. The work is proceeding in several overlapping phases. In the 
winter of 2001-02, project bids were sought and the first major 
construction contract was awarded in spring 2002. This contract, called 
``Sequence 1--Foundation/Structure'' and worth $99 million, was awarded 
to a Northern Virginia contractor. The contract involves site 
demolition, slurry wall construction, excavation, installation of site 
utilities, construction of the concrete and steel structure, 
waterproofing, and construction of a new truck service tunnel.
    The contractor has nearly completed the installation of the 
perimeter foundation walls and has begun major excavation activities 
that will continue through the summer of 2003. The outer perimeter wall 
is essentially complete and full excavation of the site is beginning as 
some 300-400 truckloads of soil are being removed daily in a manner 
least invasive to our Capitol Hill neighbors. Excavation will continue 
into the summer and the contractor will begin erecting steel columns 
and begin pouring portions of the roof slab later this summer.
    With Sequence 1 moving at full throttle, we have just recently 
awarded the contract for Sequence 2, which includes installation of 
electrical, mechanical, and plumbing services, and all stone and 
architectural build-out and finishes of the CVC. A Source Selection 
Evaluation Board, headed by the General Services Administration (GSA), 
evaluated the bid proposals for this contract and I made the award with 
the approval of an obligation plan for Sequence II.
    While the contract award is approximately 10 percent above the 
government estimate, a range that is considered to be within an 
acceptable and reasonable range per GSA and Department of Defense 
governmental standards, I am currently reviewing the entire project 
scope and the total cost-to-complete with the assistance of an outside 
independent contractor and oversight by the General Accounting Office.

CVC Budget
    With regard to the overall budget, the original CVC project budget 
of $265 million was established in 1999. At that time, the budget 
provided for the core CVC facilities, including the Great Hall, 
orientation theaters, exhibition gallery, cafeteria, gift shops, 
mechanical rooms, unfinished shell space for the future needs of the 
House and Senate, and the truck service tunnel. After September 11, 
2001, new security requirements, pedestrian tunnels, et cetera, 
prompted the appropriation of $38.5 million in additional funds, which 
were provided in the Emergency Supplemental Appropriation. In November 
2001, the CVC team was then tasked to design and build-out the House 
and Senate shell space, requiring an additional $70 million, which was 
provided in the Legislative Branch Appropriations bill. These 
additional requirements to the original scope bring the total amount of 
the project to date to $373.5 million. I would like to emphasize this 
point--despite how these figures may have been reported in the papers--
additional new requirements to the original scope have resulted in the 
appropriation of additional funds.

Project Complexities
    As I mentioned, this project is arguably our most challenging. For 
example, many utility lines crisscrossing beneath the East Front Plaza 
had to be rerouted out of the project footprint before excavation could 
begin. During the past 100-plus years, water, sewer, electrical, and 
communication lines have been installed, and many of these lines were 
poorly or inaccurately documented on the existing building drawings--
some of them dating back to the early 1900s. As a result, we 
encountered many unforeseen site conditions related to this effort, 
including an incorrect elevation for the top of the Amtrak tunnel as it 
crosses beneath First Street, N.E. This necessitated a costly rerouting 
of a 30-inch water main that needed to cross above it. As it became 
increasingly apparent that existing drawings were unreliable, much of 
the utility work was completed at night or on weekends. To some extent, 
we also worked around the legislative calendar in an effort to minimize 
disruption to the business being conducted in the Capitol.
    There were many other tasks that we needed to accomplish before we 
put the first shovel in the ground. We are committed to preserving and 
protecting the trees on the East Capitol Grounds, and therefore hired a 
full-time tree preservation contractor; erected fencing and installed 
canopy misting systems to keep the trees free from dust; installed a 
new irrigation system; and relocated many significant, affected trees 
to safe locations. We removed and stored all of the original Frederick 
Law Olmsted features, including the fountains, lanterns and retaining 
walls. All of these historic features will be restored and reinstalled 
in their original locations on the Plaza. New visitor screening 
facilities were constructed on both the north and south sides of the 
Capitol and ramps were installed along the West Front to provide a 
respectful and ADA accessible visitor path into the building.
    To assure as little disruption as possible to the day-to-day 
activities in and around the Capitol, we continued to work closely with 
the Leadership, the Sergeants-at-Arms, the Capitol Police, and other 
key offices to address the following:
  --Alternate parking and pedestrian zones for the Senate and House.--
        The CVC team successfully offset every parking space that has 
        been impacted by construction activities.
  --Noise reduction.--Noise reduction window units were installed over 
        every window on the East Front. These windows have cut the 
        construction noise down significantly to the extent that 
        Senate-side occupants have not voiced a single noise complaint 
        since construction began.
  --Relocated staff.--A number of offices located in the East Front 
        Extension have been temporarily closed or relocated due to the 
        construction, with staff moves coordinated to assure smooth 
        transitions into alternate space.
  --Media Sites.--New media sites off the Plaza were established to 
        allow press operations to continue.
  --Security.--All of our pre-construction activities were accomplished 
        in an atmosphere of extremely tight security following the 
        terrorist events of September 11, 2001. Increased screening 
        requirements and more secure site logistics procedures 
        presented additional challenges. However, the Capitol Police 
        have been very accommodating in assisting us in maintaining a 
        secure site without impacting the work schedule.

Schedule
    Despite these many challenges--including the fact this was one of 
the wettest winters on record--with the timely award of Sequence 2, we 
are on schedule to complete the project in 2005 and to support the 
Inaugural in January 2005. We are in meetings now with the Rules 
Committee to determine what level of support is required. We will 
partner with the Sequence 2 contractor to examine what is needed for 
the Inaugural and determine the associated costs, if any.
    Regarding the schedule for substantial completion of the CVC in the 
fourth quarter of 2005, the Sequence 2 contract documents clearly 
stipulate that the facility will be--and I quote--``substantially 
complete and capable of being occupied and used by the Government for 
the intended purpose.''

                              MASTER PLAN

    In recent years the number and magnitude of our projects has 
greatly increased. Therefore, we are improving our ability to 
coordinate and efficiently complete our many projects by taking steps 
to implement a series of project management plans. These initiatives 
will help the AOC to baseline and compare building conditions; plan and 
evaluate funding requirements; set goals; and track progress. To 
formulate the shorter term plan for project prioritization and 
implementation, a five-year Capital Improvements Plan is under 
development. This effort began with the development of a process for 
project prioritization and will ultimately incorporate the findings of 
the facility condition assessments which will begin later this year.
    To provide consistent management and oversight of these efforts, a 
new Director of Planning and Programming has recently been hired. He 
has direct responsibility for both the Capitol Complex Master Plan and 
the Capital Improvements Plan as well as coordination of all planning 
and programming efforts.
    Additionally, a new Project Management Director has been hired to 
support and manage a myriad of on-going projects. For example, 
following an expansive ``best practices'' analysis of AOC project 
delivery processes, we have published several manuals to improve the 
consistency of design and project delivery processes including: the AOC 
Design Standards Handbook to assure consistency in our project designs; 
an A/E Design Manual to assist our architects and engineers with 
project design and delivery processes; and an AOC Project Manager's 
Manual to help institutionalize the project management process. We are 
also conducting ``lessons learned'' studies on several of our projects 
and are incorporating the results into these manuals to assure they 
remain current and practicable.

                    U.S. CAPITOL POLICE MASTER PLAN

    In 1999, the AOC and the United States Capitol Police (USCP) 
published the United States Capitol Police Master Plan. Since that 
time, other events have necessitated a comprehensive update of that 
plan as well as a clear implementation strategy that reflected the new 
demands on the Capitol Police.
    This implementation strategy focuses on two issues: changes to the 
USCP operational scenario and the need for a new Police Headquarters 
facility that responds to those changes. A specific site for this new 
structure has been identified and approved by the Capitol Police Board.
    Other ongoing Police projects include the construction of new 
chemical explosives handling and K-9 structures at D.C. Village; a new 
vehicle maintenance facility at 67 K Street, S.W.; reconfiguration of 
existing areas within the Capitol, Senate and House Office buildings 
and existing Police Headquarters; and the site selection for an Off-
Site Delivery Screening Center to replace the current P Street 
Warehouse.
    We have contracted with the Naval Facilities Engineering Command to 
assist us in project management and delivery for these projects to 
assure that this additional workload is addressed in a responsive and 
timely manner.

                           SENATE RESTAURANTS

    The Senate Restaurants have made strides in reducing economic 
dependency over the last five years through cost reductions and the 
marketing of its services. The effects of September 11, 2001, on the 
number of visitors to the Capitol complex have delayed our ability to 
reach the objective of a self-sufficient operation. The Senate 
Restaurants are committed to continuing its efforts to improve the 
quality of service, reduce costs, and market services.
    In the past year, the cash register stations in the Dirksen 
cafeteria have been redesigned to allow greater customer flow. We began 
offering new services designed to provide Senate offices with new menu 
options when planning small, in-office functions that are less 
expensive than fully catered events. We have also introduced a ``heart 
healthy'' menu in the Senate Dining Room. Senate staffers can log on to 
our expanded web site and check out the daily specials in each 
restaurant and look for special events. The site is registering more 
than 5,000 hits per month. We've also made available to the public our 
famous Senate Bean Soup mug. They have sold well and have appeared in 
stories in the Wall Street Journal and on NBC's ``Today'' show.
    In addition, we have installed the Food Trak inventory and cost 
control software package to enhance our operating systems. This 
program, together with the upgraded point-of-sale system, gives us the 
capability of interfacing our various systems to match items sold with 
up-to-date cost data and provides nutritional content information from 
the U.S. Department of Agriculture's data base.
    Finally, I am especially pleased to inform you that for the fifth 
straight year, independent auditors have found no reportable conditions 
or material weaknesses in financial controls.

                               CONCLUSION

    Mr. Chairman, the AOC has undertaken significant new projects and 
responsibilities, while at the same time improving the safety and 
efficiency of our employees. Our request for funds are in direct 
response to customer requests and the level of cleanliness, 
preservation, safety and security expected on the Capitol Complex. We 
have met challenges, developed a Strategic Plan, and hired skilled 
managers and employees to help us achieve our immediate and future 
goals. We have completed thousands of work orders, become more 
responsive to our clients, and are adjusting to the heightened security 
demands of a post-September 11th world.
    I am dedicated to providing a safe, secure, and productive 
environment for all who work in the Capitol complex and for all those 
who visit each year. We would not have made the progress we have 
without the dedication of all of our AOC employees. I am very 
privileged to lead a hard-working and professional team committed to 
exceeding the expectations of Congress and the American people.
    The Committee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'm happy to answer any questions you may have.

    Senator Campbell. Thanks. I will also submit some questions 
in writing for you too. But we will go as far as we can before 
the bell rings.

                         GAO MANAGEMENT REVIEW

    Senator Campbell. The GAO issued a general management 
review of your operation in January and they made a number of 
recommendations to improve management. I believe one of them 
had to do with hiring a chief operating officer. Are you making 
progress on that?
    Mr. Hantman. We absolutely are, Mr. Chairman. I have gone 
through many dozens of resumes. In fact, we are starting the 
interview process next week. We have some good candidates from 
a variety of backgrounds in Government and in the private 
sector as well.
    Senator Campbell. They also found some problems with 
facilities management, day-to-day activities such as cleaning, 
moving offices, maintenance and preservation of buildings, 
things of that nature. What do you consider the biggest 
challenges in facilities management, and have you started a 
plan for improving those areas that they noted?
    Mr. Hantman. We basically accepted all of GAO's 
recommendations, Mr. Chairman, and our plan is to complete the 
vast majority of them by the end of this year. Some of them are 
going to go into the following year's annual performance plan, 
and the most major of them, of course, is the completion of a 
strategic plan. We are currently reviewing our draft with 
stakeholders on both the Senate and the House side, and we 
clearly plan to incorporate the changes and the input from 
those stakeholders into the strategic plan before we finalize 
it.
    Also, as we select the COO, we plan to review this 
strategic plan with the COO and look at what potential 
organizational changes need to flow from that, so that person 
can buy into it and play a key role in the agency as we go 
forward.

                         CAPITOL VISITOR CENTER

    Senator Campbell. Looking through my notes, it says that 
you have over 200 projects underway at this time, the biggest 
one, obviously, being the visitor center. One of them proposes 
$26 million for the initial design of overhauling the Capitol 
Building to address life-safety and other deficiencies. Some of 
these large items like this--do we need to move them at the 
same time as the visitor center?
    Mr. Hantman. If we never did a visitor center, Mr. 
Chairman, we would still need to make these changes. It is 
really a question of the fact that over 200 years our Capitol 
has grown in eight different increments of growth, and we 
actually need additional stairways, additional means of egress, 
things to make the building safe on a primary level, including 
sprinkler systems in that building. So whether or not, again, 
we did the CVC, this work would have to be done.
    Our problem, of course--and we have talked to stakeholders 
on both the Senate and the House side--is how much discomfort, 
how much dislocation can the Members take while we are still 
completing the visitor center and doing the perimeter security 
and other things on the Capitol grounds. So what we have done 
is we have redirected the plan to take a look at the low-
hanging fruit, if you will, that really would not require major 
dislocations to how the Capitol Building works so that the 
business of the Capitol can be done on a day-to-day basis. So 
that is what we are looking at.
    Senator Campbell. Was the last kind of major overhaul of 
the rotunda a few years ago?
    Mr. Hantman. There certainly was scaffolding going from the 
floor of the rotunda up to the Apotheosis of Washington at the 
top and that was cleaned, conserved and repainted.
    In fact, we had a project, Mr. Chairman, several years ago 
where we did the first phase of restoration of the Capitol 
dome. The second phase actually would require doing major 
patches of existing cracks and things of that nature, 
repainting the exterior of the Capitol dome once we stripped it 
down to its base metal, all those kind of things. That major 
piece of work we put on hold also just because of the level of 
dislocation we have currently with the CVC.
    What we are really concerned with in the Capitol Building 
itself is safety, and we plan to look at some projects with the 
funding we are requesting in 2004 to be able to make it safer, 
again without dislocating the Senate and the House and allowing 
them to continue their business.

                      CAPITOL POLICE HEADQUARTERS

    Senator Campbell. You have also been working with the 
Capitol Police to develop a master facilities plan, including a 
new headquarters building. The Capitol Police testified last 
week about it. We have already appropriated roughly $60 million 
for that project. What is the status? Have you found a place 
yet that you expect to build on?
    Mr. Hantman. The Capitol Police Board has accepted a 
recommendation from the Capitol Police for square 695 at the 
corner of New Jersey Avenue and I Street, Southeast. We believe 
it meets the best requirements for the new headquarters 
facility.
    There was a potential conflict, Mr. Chairman, with the use 
of square 695, though. There was a Department of Energy study 
that recommended that same site for construction of a new 
replacement power plant. Now, in separate----
    Senator Campbell. What is there now? Is it just bare 
ground?
    Mr. Hantman. Basically it is low-use industrial works, some 
vacant land, truck storage area, things like that. It is a 
privately owned lot at this point in time, a couple of lots 
adjacent to our coal storage yard for the Capitol power plant. 
We agree that this is the right location for the Capitol Police 
headquarters.
    The recommendations coming out of this DOE study had talked 
about putting a replacement power plant potentially and a 
cogeneration plant on that site. We believe that the hundreds 
of millions of dollars that would be required by this project 
is really not necessary, that we continue to use our tri-fuel 
approach to running our power plant for using coal as a primary 
fuel, also oil and gas so that we can meet the EPA criteria for 
the site. But we think we can retrofit our existing buildings, 
use the existing site we have our Capitol power plant on, and 
release the site for the use of the Capitol Police 
headquarters.
    Senator Campbell. Well, when you are working with them, 
safety and security have got to be paramount in your plans and 
theirs too, and also some of the things that they are talking 
about but have not implemented but probably will be at a later 
time. They are expanding, as you know, very quickly. When 
taking their testimony the other day, it looks to me like 
anything we put in place now is going to be too small 5 years 
from now at the rate they are growing. So we will consider that 
too.
    Mr. Hantman. One of the things we do have to do, Mr. 
Chairman, is take a look at the program size of that building 
itself. The House has indicated that they prefer that the 
Capitol Police move out of the Capitol area and the House 
office buildings, and if we need to take those components of 
the police into the headquarters, the police are currently 
looking at that criteria right now so we can take a look at the 
magnitude of the size, just in response to what you are saying.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you.
    The rest of the questions I will submit. If you could 
answer them in writing at your earliest convenience, I would 
appreciate that.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

                     STATUS OF GAO RECOMMENDATIONS

    Question. Mr. Hantman, GAO issued a general management review of 
your operation in January and made a number of recommendations to 
improve management. Can you provide an update on the implementation of 
GAO's recommendations and the progress you have made in the last year? 
How will you ensure that there is accountability for implementing the 
strategic plan you are developing?
    Answer. Our work with the GAO on the Management Review resulted in 
a number of recommendations which we have integrated into our Strategic 
Plan and Annual Performance Plan. We accepted all of GAO's 
recommendations. Our plan is to complete the vast majority of the 
recommendations by the end of this year; some carry over into the 
following year's Annual performance plan. The GAO recommendations 
include:
  --Completion of an AOC Strategic Plan;
  --Continuing to strengthen Human Capital policies and procedures;
  --Continuing to improve Financial Management processes and systems;
  --Developing and implementing a strategic approach to IT management;
  --Continuing initiatives to achieve a safer workplace;
  --Institutionalization of best practices in Project Management;
  --Continue to improve the Recycling Program.
    We are in the final phase of implementing a performance management 
approach that includes strategic planning, annual planning and 
reporting, and assessment of our performance based on meeting specific 
milestones and measures. The Strategic Plan serves as the cornerstone 
of this process.
    We are currently soliciting stakeholder feedback on drafts of our 
first Strategic Plan and Annual Performance Plan. Our goal is to 
finalize the Strategic Plan and Performance Management Plan shortly.
    The Strategic Plan and Annual Performance Plan will concentrate the 
Agency's focus to continue to improve productivity and service 
excellence. To ensure accountability and results we are: establishing 
specific goals and milestones for each of the strategic objectives; 
linking our senior managers' performance standards to the milestones of 
the performance plan; identifying and developing specific business 
process improvements based on client feedback (i.e. office cleanliness, 
timeliness of response to requests, and quality of work); identifying 
and developing new workplace programs/policies based on employee 
feedback; integrating best practices into our operational strategies 
(i.e. facilities management, project management; and IT systems 
development and implementation).
    A significant challenge, once we reach agreement with our 
stakeholders on our Strategic and Annual Performance Plans, will be to 
address the unexpected construction, renovation, or other mission 
impacting requests from our customers. In order to be responsive to the 
high priority needs of our customers and to be able to initiate and 
complete projects on time, we will need to use the strategic and 
performance plan as a basis to shift already agreed to projects to meet 
new or unexpected demands.

                         FACILITIES MANAGEMENT

    Question. GAO found problems with facilities management. What are 
your biggest challenges in facilities management and what is your plan 
for improvement?
    Answer. The Architect of the Capitol (AOC) is entrusted with 
preserving, maintaining, and enhancing the national treasures that make 
up the Capitol complex. The Capitol complex is comprised of more than 
two dozen buildings, nearly 14 million square feet of space, and more 
than 270 acres of grounds. AOC is responsible for the maintenance, 
renovation, and new construction in and around the Capitol Building, 
the House and Senate office buildings, the Library of Congress, and the 
Supreme Court. The historic nature and high-profile use of these 
buildings creates a complex environment in which to carry out AOC's 
work. AOC must also perform its duties in an environment that requires 
balancing the needs of multiple stakeholders, including congressional 
leadership, committees, individual members of Congress, congressional 
staff, other clients, and the visiting public.
    Facilities Management is one of four focus areas that embody our 
Mission and Vision. Aligned with the facilities management area is a 
strategic goal that emphasizes core services and critical processes to 
deliver effective and efficient support and services.
    There are several focus areas in facilities management that were 
identified as areas of concern. Three major objectives were identified 
to facilitate improvements in facilities management: (1) Develop a 
comprehensive understanding of the condition of facilities under AOC's 
jurisdiction; (2) Address maintenance and care needs proactively; and 
(3) Preserve significant and historic heritage assets.
    In our effort to develop a comprehensive understanding of the 
condition of these facilities we are developing a scope of work and 
requirements document to procure consultant services to conduct a full 
conditions analysis and document current conditions of the facilities 
in the Capitol Complex. The assessment will be conducted in two phases. 
The first phase will include the Capitol Building, House Office 
Buildings, and Senate Office Buildings. The second phase will 
incorporate the remaining buildings in the AOC's jurisdiction.
    To address maintenance and care needs proactively, we have resolved 
several of the issues raised through procedural controls. Instituting 
these controls established a more consistent process for generating 
work schedules and providing feedback to the client as to when work 
will be accomplished. We also follow up with the client upon completion 
of work to ensure their requirements have been met and we ask them to 
complete a customer survey form to evaluate the work performed.
    To address general maintenance concerns, we are instituting a 
preventive maintenance tracking and scheduling program. The Architect 
of the Capitol's Office of Facilities Management is working with the 
Office of the Superintendent to begin loading assets into the 
preventive maintenance system program. The first phase for loading 
assets is scheduled for completion in fiscal year 2003. Full 
implementation of this system will be directly dependent upon funding 
availability. The program implementation will provide a systematic and 
consistent approach for performing routine recurring maintenance. The 
system will enable maintenance work to be effectively and efficiently 
planned and performed. In addition, the system will provide information 
for performance measures that can be used as a management tool to 
evaluate and effectively manage work performance.
    In addition, the following are the areas and the actions taken to 
address other concerns:
    Cleanliness.--Quality inspections are being performed regularly and 
the results of the inspections are forwarded to the Quality Manager for 
analysis and recommended actions. Also, monthly management meetings 
have been established to review inspection results and to discuss 
actions instituted to correct any noted patterns of concern.
    Wayfinding Signs.--A project is scheduled for award in fiscal year 
2003 to address the wayfinding signage concerns. The project will 
include the installation of interior and exterior signage for building 
directions, building exits, elevator locations, ADA access, etc. 
Completion of this effort is scheduled for fiscal year 2005.
    Elevators.--A project to modernize all the elevators in the Capitol 
is underway. The effort commenced in fiscal year 2002, and to date, 19 
of 27 elevators have been modernized and 3 are currently under 
construction. The remaining 5 will be completely modernized by fiscal 
year 2004.
    Heating, Cooling, Air Quality.--Air quality studies have been 
performed and continue to be performed on a case-by-case basis whenever 
there is a concern raised regarding air quality. Air monitoring/
sampling is performed and actions are recommended and implemented to 
address any negative air quality results.
    Preserve significant and historic heritage assets.--This effort is 
underway and will include defining the standards, verifying assets, 
establishing and facilitating a Congressional Working Group to define 
responsibilities for subcollections in question, and developing a 
memorandum of understanding. This effort was begun in January 2003 and 
is scheduled for completion in the third quarter of fiscal year 2004.
    Senate Office Buildings.--For the Senate Office Buildings there are 
many challenges in the daily management of these facilities. Cleaning 
and policing of public areas is challenging due to the heavy 
intermittent loading of our buildings. As waves of visitors move 
through the Senate Office Buildings, at various times of the day the 
need for immediate cleaning and policing becomes necessary, often after 
area cleaning cycles have been completed and at the expense of normal 
operations. Other challenges that face our cleaning operations include 
intensive contractor oversight and contractual administrative 
requirements to facilitate and manage contractor performance. 
Additionally, this type of work has a high personnel turnover rate 
resulting in reduced productivity and/or quality. To help resolve these 
conditions, additional staffing has been added to the day policing 
contract to increase the level and frequency of cleaning of public 
areas such as restroom facilities, entry ways and stairwells. The 
Senate Superintendent's Office has also increased its inspection 
efforts of public spaces in and around the Senate Office Buildings and 
implemented processes to facilitate quick remedies to identified 
deficiencies as part of a comprehensive Quality & Assurance Program.

              MAJOR PROJECTS--MASTER PLAN CAPITOL BUILDING

    Question. The Architect's office has over 200 major projects under 
way at this time--the most visible one being the Capitol Visitor 
Center. Your budget proposes $26 million for the initial design for 
overhauling the Capitol building to address various deficiencies. Why 
do we need to proceed with this very large undertaking at this time? 
Can you give me an idea of the magnitude of this proposed project, what 
would be involved, and a rough estimate of the cost to implement the 
master plan for the Capitol after you complete the design?
    Answer. The U.S. Capitol Building Master Plan Study proposes to 
coordinate five projects into one that would consist of (1) Capitol 
Infrastructure Master Plan, (2) Sprinkler System installation 
throughout the building, (3) House Chamber Study, (4) Senate Chamber 
Study, and (5) Security Work. As a once-in-a-lifetime project, 
coordination of these five projects ensures that the disruption of 
these spaces occurs only once.
    Public Law 104-1 passed on January 23, 1995, established the 
``Congressional Accountability Act (CAA) of 1995.'' Since Congress 
enacted this Act, the Office of Compliance (OOC) has conducted periodic 
inspections of the facilities under the AOC's jurisdiction. Those 
inspections identified a series of fire and life safety code 
deficiencies requiring corrective action. Most of these deficiencies 
have been corrected, but there are some that would require in-depth 
analysis and study to determine how best to integrate the solutions 
with the Capitol's unique architectural configuration and historical 
features. Since it is the AOC's responsibility to take necessary 
corrective actions to abate violations identified by the OOC and/or 
those identified through self-inspection and analysis, it became 
necessary to undertake a study to review the existing building 
conditions against the applicable building, life safety, and fire 
codes.
    The main purpose of this study (Capitol Building Master Plan) is to 
review code deficiencies and develop a series of recommendations on the 
corrective actions necessary to comply with the codes in a prescriptive 
manner or through alternate means called ``equivalencies,'' while 
upgrading the Capitol Building's support systems and infrastructure.
    The Capitol Building Master Plan Study is significantly complete 
pending identification of final security requirements and funding. The 
Master Plan addresses the provision of: adequate means of egress to 
safely evacuate building occupants during emergency situations; a 
building-wide sprinkler system; smoke control at vertical openings such 
as the Grand Stairs; security controls at all outside fresh air intakes 
entering the building's ventilation systems; ducted air return; and 
infrastructure improvements such as: electrical power and lighting 
upgrades, emergency power needs, elevator upgrades, smoke detectors, 
evacuation alarms, telecommunications & cable TV upgrades, plumbing 
renovations, and modernization to the heating, ventilation, and air 
conditioning systems to meet energy standards and security related 
requirements.
    The Capitol Building Master Plan Study, as proposed conceptually 
will take at least seven years to implement based on a phased approach 
and will require emptying sections of the building for periods of time 
to allow for full implementation of the recommended upgrades. This 
approach will require that swing space outside the Capitol Building be 
provided to house persons and functions displaced during a given phase 
of the project. The Master Plan Study's conceptual schedule recommends 
six construction phases.
    To achieve the proposed construction phasing suggested by the 
Capitol Building Master Plan Study, design development and the 
preparation of construction documents need to commence in fiscal year 
2004 and continue through fiscal year 2006 in the order reflected by 
the construction phases. Prior to beginning the design development and 
preparation of construction documents, extensive graphic documentation 
of the existing systems of the building's infrastructure and 
development of schematic designs are necessary to form the basis of the 
construction documents. Currently, the fiscal year 2003 budget includes 
funding necessary to begin the graphic documentation of existing 
building systems. The fiscal year 2004 budget submission included a 
request for $26.5 million to initiate design development and 
construction documents preparation for a phased approach.
    Prior to and during a March 21, 2003, briefing to House and Senate 
leadership staff, we sought feedback on the Capitol Building Master 
Plan Study recommendations and the proposed construction phases. The 
main concern of leadership staff is the physical impact of this project 
in addition to disruptions as a result of CVC construction. They noted 
the need to accomplish those recommendations while having a minimum 
impact on the building's occupants and operations. With these concerns 
in mind, the AOC was asked to explore options for the incremental 
implementation of Capitol Building Master Plan Study recommendations.
    Based on the recommendations from leadership staff, and upon 
approval to utilize available fiscal year 2003 funding we will initiate 
a Constructability and Phasing Analysis that emphasizes those life-
safety, fire protection, and security recommendations and initiatives 
that could be accomplished with minimum disruptions to the building 
occupants and business operations. Emphasis also will be placed on 
accelerating similar work for the House and Senate Chambers.

                   MAJOR PROJECTS--POSSIBLE DEFERRALS

    Question. Are there any areas in your budget request that could be 
deferred in order to allow you to complete the CVC and other major 
projects currently underway?
    Answer. There are several projects which could be deferred or 
phased in to reduce the workload during fiscal year 2004 and subsequent 
years. The projects listed below, by appropriation, could be eligible 
for deferral or phased approaches, if agreed to in consultation with 
our clients:

General Administration

            Conduct Energy Survey of Capitol Complex, $1,600,000
    The Legislative Branch Appropriations Act, Public Law 105-275, 
Section 310 requires the Architect to perform an energy survey of the 
Capitol complex. A total of $1.6 million is requested to perform the 
energy survey.
    The survey could be phased by jurisdiction, if so directed. The 
Architect could develop a phasing plan to accomplish the energy survey 
over a two or three year period based on the Committee's direction.

            Replace High Voltage Switchgear in Nine Buildings, 
                    $18,672,000
    Replacement of the high voltage switchgear is a critical project 
due to its advanced age. Failure of any of the switchgear units would 
result in power failure in the building. Additionally, the poor 
condition of the equipment creates a hazard to the employees who must 
perform routine maintenance. However, the funding stream could be 
phased over three years. The project ideally would be bid as a base 
option for the first year, with two succeeding option years. This would 
allow for a single procurement for construction to occur. A single 
contract will streamline the procurement process, project management, 
construction management, and contract administration functions. It will 
also increase the likelihood that equipment manufacturers remain 
consistent throughout the AOC, saving future training costs and 
replacement parts.
    Due to the age of the switchgear, and in some cases, its 
dilapidated condition, the period of phasing should not exceed three 
years. A potential funding stream is fiscal year 2004--$7.5 million, 
fiscal year 2005--$6.8 million, and fiscal year 2006--$4.3 million. The 
work would be based on a prioritization of age and condition of the 
buildings.

            Alternate Computer Facility, $61,000,000
    The request to purchase was presented because the initial lease 
purchase analysis indicates that purchasing the facility sooner rather 
than continuing to lease it will save the government money. Also 
because of the critical and sensitive nature of the facility and the 
operations it houses, the security of the building, and the grounds 
surrounding it would be further enhanced if it is for legislative 
branch or government use only. As such, the $61 million could be 
executed in fiscal year 2004. However, deferring the purchase will 
allow time to resolve due diligence issues which will take about six 
months. We also need to work the landlord/tenant authority legislation 
and better understand the costs of being the landlord.

Senate Office Buildings--Replace Steam Humidifiers, HSOB, $4,717,000
    While all projects this office requests are important and 
necessary, our project request Replace Steam Humidifiers, in the Hart 
SOB, could be deferred with moderate impact. We plan to install local 
steam generators to provide necessary capacity for building 
humidification following industry best practices. Currently, the Hart 
Building is humidified via plant steam which is not an industry best 
practice. This current system is capable of humidifying to acceptable 
guidelines, however it does not have the capacity to humidify to 
desired levels which can cause indoor air quality complaints during 
colder days of the winter.

Capitol Building--Capitol Building's Master Plan, $26,500,000
    A phased approach to this project could be taken based on feedback 
from key leadership staff. Based on this approach, the original fiscal 
year 2004 request of $26.5 million would be reduced to $10.7 million. 
This will provide for the design of short-term incremental work; 
perform a space utilization study for the House and Senate sides of the 
Capitol; construct the means of egress by the West Brumidi corridor; 
develop to 100 percent completion construction documents for the House 
and Senate Chamber restorations; perform additional plaster 
assessments; and construct a back-up fire pump.

            MAJOR PROJECTS--PERFORMANCE BY NON AOC ENTITIES

    Question. What percent of your major projects are not being handled 
``in-house'', through the Corps of Engineers or other outside entities?
    Answer. There are currently 24 projects of which a major portion of 
the project management or construction management efforts are being 
performed by those other than AOC permanent staff. They include: the 
Capitol Visitor Center; the West Refrigeration Plant Expansion; the 
various Perimeter Security projects; several projects for the Library 
of Congress at Fort Meade; several projects for the USCP located at 
D.C. Village and elsewhere; and security-related projects at the 
Library of Congress. While these projects represent approximately 11 
percent of the current AOC projects, they represent the majority of the 
project funding and include over $700 million of total project costs. 
They are being managed, partially or fully, by temporary employees 
assigned to the specific project, construction management firms hired 
for the specific project, firms which are providing project and 
construction management to the AOC on an IDIQ basis, the Army Corp of 
Engineers, NAVFAC and other external entities. The AOC continues to 
evaluate the services which can be provided by these entities and will 
utilize them where we believe they can provide the best project 
delivery support.

                         CAPITOL VISITOR CENTER

    Question. You have indicated that the CVC will cost more than has 
been appropriated to date. Can you explain why this is?
    Answer. Before discussing the need for additional funds, it is 
important to understand that the original project budget of $265 
million, which included the core CVC facilities, the service tunnel, 
and only the shell space for the House and Senate, was established four 
years ago. That estimate was made based on the best information 
available at that time, but I must stress that the estimate was made 
before the construction drawings were finished, before the first shovel 
was put in the ground, and before we had the chance to really look long 
and hard at what it would take to keep the Capitol fully operational 
while the CVC was constructed. No one could have anticipated or 
predicted the myriad of challenges we faced, in particular, 
encountering unforeseen site conditions, adapting to changes in scope, 
mitigating project impacts, maintaining Capitol operations, and 
accommodating increased security requirements following the events of 
9/11.
    The first challenge we encountered during pre-construction 
activities, neither my team, nor our construction manager, Gilbane 
Building Co., nor two independent estimators, could have anticipated. 
The level of work that was required went above and beyond our original 
pre-construction expectations. We've had additional requirements 
related to our tree preservation effort, our historic preservation 
effort, our visitor screening, parking accommodations for Members and 
staff, noise reduction, and requirements related to alternate House and 
Senate media sites. But by far, our greatest challenge has been in the 
area of utility relocation.
    Utility lines within the project footprint needed to be relocated 
prior to excavation of the project site. Many of these lines have been 
installed at various times during the last 100 years as technology 
changed and new utility systems were installed. Relocation of these 
lines, while keeping the Capitol itself fully functional, has proved to 
be a delicate and, complex pre-construction task. Part of the 
difficulty is due to the fact that many of the utility lines were 
poorly or inaccurately documented on the building drawings that were 
available to us, some of which date to the early 1900s. As it became 
increasingly apparent that existing drawings were unreliable, we 
attempted to do much of the utility work at nights or on weekends, and 
to some extent, we worked around the legislative calendar, all in an 
effort to minimize disruption to the Capitol and its occupants. Those 
restrictions, however, do have a cost associated with them. Yet, 
despite all these challenges, it is a credit to our team that we were 
able to avoid any significant disruption to the Capitol building 
operations during this process. Last summer, the project footprint was 
successfully cleared of utilities.
  --A specific example: on First Street NE, we had intended on 
        rerouting a large water line across the road at a location we 
        believed suitable to accommodate the necessary excavation. City 
        drawings showed an existing Amtrak tunnel to be approximately 
        18 feet below ground at this location, more than enough 
        clearance to reroute our water line. Upon excavation, we found 
        the Amtrak tunnel wall to begin, in fact, less than 2 feet 
        below the surface. We were forced to back away, reroute the 
        line again, adding a few hundred feet to the overall length to 
        the utility line and a few extra weeks of work, and nearly 
        $400,000 in extra costs. Though not as dramatic as this, we 
        have had many other occurrences of utility lines not being 
        where they were expected, or being where they weren't expected 
        at all. But I must emphasize, all the costs associated with 
        this work were valid and reasonable, they just weren't 
        predictable.
    There also were challenges as a result of 9/11. First, the tragic 
events of that day prompted a reassessment of the projects' security 
elements. As a credit to the original design by our architectural firm, 
RTKL, the team recommended no significant changes to the overall 
design. However, additional requirements, which necessitated more 
robust mechanical systems, were imposed. Structural changes were needed 
to accommodate these new systems and these changes came at a very late 
stage in the design process. In fact, Sequence 1 design documents were 
already complete and Sequence 2 documents were about one month from 
completion. Despite these changes, our completion milestones did not 
change.
    There has also been an increase in site logistics security. New 
security screening measures imposed on all vehicles coming to the 
construction site, while necessary, add time to every trip made. When 
we reach the peak of excavation, we will have approximately 50 dump 
trucks working at the same time, each attempting to make six to eight 
trips a day to and from the site each day. Additional time to make 
these trips translates to an extension of the excavation period. 
Further, we were required to build a new screening station. That meant 
adding telecommunications conduits, additional paving, additional 
fencing and installation of security elements. Design and construction 
of the new screening facility required significant planning and 
coordination with the Capitol Police, but again, our completion 
milestone did not change.
    Finally, we are all aware that we had one of the wettest winters on 
record. Rain and snow have the potential to wreak havoc on a 
construction site, especially one involving excavation and very large 
equipment, which tends to get bogged down in the mud. Nevertheless, our 
construction crews have tried to offset any time lost due to weather by 
working, at times, 24 hours a day, 7 days week, the Sequence 1 project 
has been impacted by approximately 48 days due to unforeseen challenges 
and other conditions I noted. However, to date, our major completion 
schedule milestones still have not changed. One thing to note, 
subsequent to the 48-day delay impact, last month, we hit a 200-year 
old stone well situated directly in the path of our perimeter wall and 
just a few feet away from the Capitol. The demolition of the stone and 
attempts to reestablish a solid foundation for the perimeter wall has 
proved extremely difficult. In short, what was scheduled to last four 
days, for the routine construction of three wall panels, required weeks 
instead. Our construction manager is currently gathering facts and is 
in the process of assessing the impact to the project's milestones, if 
any. We will report the results to Leadership after we have completed 
this assessment.
    If four years ago we knew, what we know today, we would have had 
the information necessary to budget for the project more accurately. 
However, the project has received two clean audit opinions from the 
General Accounting Office, and we have put additional controls in place 
on the budgeting process for the project.
    Question. As you know, we are looking to mark up the fiscal year 
2004 appropriations bill shortly and we need your best estimate for 
completing the project as soon as possible. When will you have the 
cost-to-complete? When will you need the additional funds?
    Answer. We have been working with the General Accounting Office 
(GAO) and an independent consultant to thoroughly analyze the CVC 
project's budget, expenditures, future requirements, and contingencies 
to provide a firm cost-to-complete analysis. The GAO is planning to 
have the results in early June 2003.
    The funding timeline for the project is being updated to reflect 
the obligation plan authority we received for Sequence 2. The project 
team, including our construction manager who maintains our overall 
project schedule, has identified the next immediate need for additional 
funding in June 2003. This request includes funding for the East Front 
interface portion of the CVC project and to keep Sequence 1 moving 
forward. The East Front work includes a number of tasks and is not 
currently part of the Sequence 1 or 2 contracts. With the award of the 
Sequence 2 contract we are proceeding with maintaining our milestone 
schedule. However, we still have a critical portion of the project, 
within the East Front interface, that needs to be funded, or funds 
reprogrammed, to allow us to keep on schedule. The East Front portion 
of the CVC project is work that was always part of the base project, 
and includes complex structural and mechanical/electrical elements to 
support the vertical transportation (elevators and stairways) and air 
shafts that connect the CVC to the Capitol building. This work was not 
included in the contracts for Sequences 1 or 2 since the requirement to 
extend the existing east front elevators was given to the CVC at the 
time the Sequence 1 design was being finalized, thus it was too late to 
include in the Sequence 1 bid documents. During design development of 
the East Front (which was originally planned to be part of Sequence 2) 
the engineers realized how extremely complex the structural work was to 
extend the existing elevators. An acceptable engineering solution could 
not be found which would mitigate the risk to the existing Capitol 
building, thus I made a decision to reduce the depth of these elevators 
and the new air shafts. The engineers revised their design which 
reduced the risk. We have finalized the design and have obtained three 
independent estimates for this work. We plan to negotiate this work 
with one of the contractors on-site and will incorporate it into their 
contract.
    The next need for funds is anticipated to be in October/November 
2003 to meet the other elements of the project. We are currently 
reviewing the updated schedule, which includes the Sequence 2 
contractor, to obtain a more precise spending plan for October 2003 and 
beyond. We plan to have this completed by the end of the month also.
    Question. What major challenges might you encounter as you continue 
the project, and the biggest risk areas that could lead to budget 
pressures?
    Answer. Unforeseen site conditions remain our biggest risk. 
Whenever you dig a 50-foot hole over an area covering five acres 
immediately adjacent to our nation's most historic building, it is 
difficult to predict exactly what we will find. As an example is the 
underground well I mentioned in a prior response.
    Additional security requirements also present another risk to 
budget and schedule. Increased security requirements or work stoppages 
prompted by external events can certainly have a significant impact on 
the project.
    Other potential risks are those associated with additional changes 
in scope and requirements. We can only change so much while executing 
day-to-day management of the project before changes have real impacts 
to budget and schedule. Providing additional funds for additional work 
doesn't necessarily mean we can maintain our original schedule. So many 
elements of this project are tied together where a new requirement, for 
example, could have a ripple effect on several other elements.
    Also, based on our recent experience with the demolition of the 
well, we are concerned that work along and within the East Front can be 
disruptive to the point that we must perform much of the work during 
off hours. Obviously, such restrictions reduce the opportunity to keep 
on schedule.
    Question. What procedures have you put in place to ensure that you 
keep a tight reign on the budget?
    Answer. The biggest areas of budget pressures are directly related 
to the challenges I previously enumerated. However, there is also a 
risk to the schedule if additional funds are not made available or 
reprogrammed to start the East Front construction this summer. If 
additional unforeseen conditions arise during construction that require 
contingency funds, that too can prevent the project from moving 
forward. We will work with the Committees to provide detailed budget 
information. We also will work closely with House and Senate Leadership 
to reconcile the budget based on the conditions I discussed in a cost-
to-complete estimate with an independent consultant. We meet every 
Monday with the Capitol Preservation Commission (CPC) to provide a 
current update on the project, discuss issues of concern, and resolve 
problems. Let me take this opportunity to thank them for their 
steadfast support and consistent leadership as we have moved from 
design and into construction.
    We are currently working on revising the monthly financial report 
to follow the format and funding of the approved obligation plans to 
clearly show where the funds have been used. Also, I have put in place 
budget monitoring procedures that include reviewing potential 
construction change orders (PCOs) on a daily basis within my CVC 
project office. Our CVC project team reviews these changes daily, to 
determine if they are within the scope of the project and to code them 
by funding source and to be noted as client requested, unforeseen 
condition, or design change due to existing conditions (or other 
categories as yet to be defined). Then with support from my AOC budget 
office, who will ensure that the changes are in line with the 
obligation plans, the CVC team will assess the impact to the future 
budget and determine if there is a cause for concern. I will review 
this with the CVC project team on a weekly basis (or sooner if the need 
is great) and will brief the CPC leadership staff on the potential 
changes and their impact to the project.
    Through the monthly reports and controls, cost-to-complete estimate 
and GAO oversight, our construction management staff has placed the 
highest priority to ensure the successful completion of the project in 
a fiscally responsible and timely manner.
    Question. What is being done to prepare for the operations of the 
CVC when it opens in 2005?
    Answer. A consultant is developing options and suggestions for a 
CVC operations plan which will provide the following information:
  --Three-year estimate of operating expenses;
  --Facility management plan;
  --Food service plan;
  --Visitor experience plan, including wayfinding, visitor flow and 
        Guide Service recommendations;
  --Space allocation recommendations;
  --Recommendations for in-house staffing vs. contracting out for 
        certain services; and
  --Training schedules and pre-opening recommendations.
    The operations plan is scheduled to be completed this summer and 
will be referred to the CPC for review.

                     CAPITOL POLICE FACILITY NEEDS

    Question. You have been working with the Capitol Police for some 
time to develop a master facilities plan, including a new headquarters 
facility. As I understand it, a site has been identified. This 
Committee has already appropriated roughly $60 million for the project. 
What is the status of the project and how much in additional funding 
will be needed? Will that be part of your fiscal year 2005 request? 
When can we expect the facility will be complete? What is the status of 
the off-site delivery facility which has been fully funded ($22 
million)?
    Answer. The Capitol Police Board has recommended a specific site, 
to best meet the needs of a new Capitol Police headquarters facility, 
based on current requirements identified in the facilities master plan. 
Our plan is to use existing funds to pursue due diligence and purchase 
real property, with appropriate oversight committee approvals, and 
design the facility. We will then program the remaining funds in our 
normal budget cycle. We anticipate the earliest request for funds to 
complete the project will be in fiscal year 2006. The total funding 
will construct and fit-out the new headquarters facility and the 
command center. We will initially need to hire two temporary full-time 
equivalents (FTE) exceeding our FTE ceiling to assist with this 
project. The conference report accompanying Public Law 108-11 directs 
us to use the Naval Facilities Command to execute this project.
    It is important to bring to your attention two issues that could 
affect the remaining cost of the new Capitol Police headquarters, 
currently estimated at $113 million, as well as the identification of 
the preferred site. The current estimate is based on the Capitol Police 
operational model used for the recently completed facilities master 
plan. This operational model recommended retaining a significant 
portion of existing police spaces in the Capitol, House and Senate 
Office Buildings. The Capitol Police are currently assessing the 
operational impacts of reducing their footprint within existing 
facilities, as well as substantially reducing their surface parking 
requirements within the jurisdictions. Once this assessment is 
complete, we will then analyze the impact to the overall facilities 
master plan. If relocating functions to the new Police headquarters 
requires additional space and ancillary facilities, the cost of the 
project will increase accordingly. Offsetting costs for release of 
existing space are minor in comparison. The second issue that could 
affect the new headquarters' cost is the recently completed Capitol 
Police Comprehensive Staffing Analysis for Sworn and Civilian 
Personnel. This analysis recommends significant increases in the number 
of sworn and civilian personnel and, if approved, some of these people 
would be located in the new Police headquarters building along with 
their additional parking requirements. We will work with the Capitol 
Police and our oversight committees to resolve these issues.
    Given the early stages of this project, it is too early to 
establish an estimated completion date. Once requirements are finalized 
and property acquired, we will work with the Navy to establish a 
realistic completion date.
    The Offsite Delivery/Screening Facility is now fully funded. 
Unfortunately however, the Capitol Police Board recommended site was 
sold by the owner to another entity before we received approval to make 
an offer. We are working with the Capitol Police to identify and 
evaluate options for an alternative location. Once our evaluation is 
complete, we will work with our oversight committees to move forward.

                      ALTERNATE COMPUTER FACILITY

    Question. The single largest project request in your budget is $61 
million to purchase the alternate computer facility, currently being 
leased. Could you explain why it makes sense to buy this facility 
rather than continue to lease it? If a decision is made to buy the 
building, we will have double the space at that location than is 
currently available (2 connected buildings rather than one). What is 
the status of plans for using the additional space? Who is leading the 
effort to develop those plans?
    Answer. Project background: Following the attacks of September 11, 
2001, for continuity of operations, the Architect of the Capitol 
received authorization and funding to acquire an alternate computer 
facility in case primary data centers became inoperative. The AOC 
entered into a ten-year lease agreement for a facility within a 50 mile 
radius of the Capitol in November 2002. We also have a single option 
for a second ten years within the lease. The building under lease is 
one-half of a twin building complex with the other building available 
for lease to other tenants by the owner. The AOC has the right to a 
security suitability review of any potential tenants in the other 
building. The primary tenants within the Alternate Computer Facility 
are the House of Representatives, Senate, Library of Congress, and 
Architect of the Capitol. The building owner was given five months from 
November 2002 to design and construct modifications to the facility to 
meet tenant requirements for individual data centers. The target 
completion date for these modifications was April 19, 2003.
    Why should we purchase the facility? In short, the need is 
permanent. The building is sound and very desirable as determined by 
the ACF task force. Security is enhanced and, by purchasing it, we save 
the federal government money.
    There are several advantages to buying the building:
    First, the need for a backup data center is perpetual.
    Second, the very same reasons the building is attractive to 
purchase are the same reasons the particular building was attractive to 
lease.
  --Remote, but convenient location (within 50 miles of the Capitol);
  --Strength and redundancies in infrastructure and utilities;
  --On-site land around the building and excellent setback from public 
        roads;
  --Building in overall good condition;
  --Building contained millions of dollars of prior-tenant build-out 
        that we re-used without much additional expense;
  --Secure facility type of building layout, i.e., no room has an 
        exterior wall;
  --Excellent Aesthetics;
  --Available for quick occupancy;
  --Floor load capacity of the building (1st floor) is 300 psf (which 
        is very high);
  --Electrical feeders from 2 separate power substations, for 
        redundancy;
  --30 Mega Volt-Amperes (MVA) of electrical capacity per transformer; 
        building electrical capacity of 50 watts psf; and
  --Diversity of fiber optic providers available.
    Third, purchase would increase security by allowing the legislative 
branch to control both halves of the building, and the land around it. 
It would also prevent the landlord from developing the large tract of 
land around the building (which if we do not exercise the purchase 
option he can develop intensely up to 200 feet from our leased space). 
Purchase would allow us to control the common heating, ventilation and 
air conditioning, power, and water utility systems of the building, 
which are located in the side of the building that we do not lease.
    Fourth, based on a simple cost/benefit analysis, ten years of rent, 
taxes and security premium equates to about $55 million. This, coupled 
with our more than $10 million investment in fitting out the facility 
to accommodate our specific requirements means that we will have 
invested approximately $65 million in the facility over the 10 year 
lease and not own anything. If we purchase the facility at the maximum 
price of $61 million, we double our building space and gain control of 
91 acres of undeveloped land around the facility. We also save the 
second ten-year lease costs, which will exceed $58 million over the 
term of the lease. To leverage our purchase, it would be ideal to use 
the other half for other legislative branch requirements, for the 
Senate, House, Library, AOC, GPO or GAO for data center expansion, 
backup data centers, or other legislative branch requirements, such as 
continuity of operations. Of course, if other legislative branch 
requirements are not sufficient to fill the other building, then we 
could lease the remaining space to other government agencies, or 
commercial tenants. If the other half of the building is leased to 
other tenants, we would desire a statutory provision allowing us, 
rather than Treasury, to retain the rent to offset operating costs. 
Based on market rental rates, we could conservatively expect to lease 
the other building for approximately $20-$30 per square foot per year. 
For 167,831 square feet, this equates to over $3 million per year in 
revenue. There is no lead agency for developing plans for the other 
half of the building as no firm decision has been made to acquire it. 
Should that decision be finalized, the AOC will be happy to take the 
lead in developing plans for its use if so directed. We are, however, 
working with another legislative branch agency to determine the 
feasibility of developing part of the surrounding 91 acres, or an 
adjacent 25-acre parcel under the same owner.
    Another issue centers around existing and future development of the 
other building. The building owner has the right, and intends to 
exercise it, for leasing available space within the facility. While we 
have the right, and pay a premium for that right, to review potential 
tenants for security suitability, we do not have authority to prevent 
the landlord from leasing available space. As the landlord acquires new 
tenants, purchase of the facility becomes more complicated and 
potentially more costly as lease terminations may be required, with 
appropriate compensation. This potentially increases our financial 
liability as new leases are granted and space is encumbered.

                        WEST REFRIGERATION PLANT

    Question. Your budget includes $40.8 million for the final 
increment for the West Refrigeration Plant Expansion. Is this project 
on time and on budget? When will it be completed? What are your plans 
for the East Refrigeration Plant, which will be decommissioned, and 
what cost requirements can we expect?
    Answer. The coal handling relocation project, which was phase I of 
the West Refrigeration Plant Expansion project is approximately 90 
percent complete, within budget and on schedule for a June 15th 
completion date.
    Phase II of this critical project, construction of the actual 
refrigeration plant expansion, was competitively bid and subsequently 
awarded to HITT Construction who is subcontracting the mechanical work 
out to Poole & Kent Inc, mechanical contractor who has worked with HITT 
on other projects. Notice to proceed (NTP) with construction was issued 
on March 26, 2003. Subsequent to contract award and prior to NTP, two 
of the unsuccessful offerors, Bell Construction and Fru-Con 
construction filed bid protests with the General Accounting Office 
(GAO). GAO declined to hear the cases on an expedited basis and Bell 
Construction filed in Federal Claims Court to stop construction and 
revisit the procurement and bid selection process. On May 9th, the 
court declined to issue a restraining order against the project and 
commented in the order that, ``It is clear from the arguments this 
morning (court, 5/9), that plaintiff does not have a likelihood of 
prevailing on the merits''.
    Construction is proceeding with demolition of existing structures 
and site civil work. The general contractor has obligated approximately 
75 percent of the awarded fiscal year 2003 funding, the project is 
within budget and on schedule to be completed in May 2005.
    The fiscal year 2004 budget submission has requested appropriated 
funds to conduct a comprehensive utilization study for the East 
Refrigeration Plant which will generate a report with the best 
available options to utilize the building after decommissioning. 
Options under consideration include addition of limited on-site power 
generation or relocation of existing industrial and repair shops from 
the Capitol Hill complex.

                           PERIMETER SECURITY

    Question. What is the status of the second phase of perimeter 
security work on the Senate side of the Capitol, funded in the fiscal 
year 2002 emergency response fund? When is construction scheduled to 
complete? Are funds on-hand sufficient to complete the project as 
planned?
    Answer. Approval of the conceptual plan for the second phase of the 
perimeter security project for the Senate Office Buildings was recently 
received and final designs and schedules are currently being developed. 
It is anticipated that work will begin this summer and will take 2 to 3 
years to complete. Without the final design it is not possible to be 
certain that there is adequate funding for this project, however, based 
on similar projects, it is anticipated that the current funding will be 
adequate. When final designs are developed and cost estimates are 
completed, they will be fully coordinated with the Senate.

                         CONCLUSION OF HEARINGS

    Senator Campbell. Since we will be getting our second beep 
to vote in just a minute, if there are no further things before 
the committee, the subcommittee will be called recessed. Thank 
you.
    [Whereupon, at 1:50 p.m., Thursday, May 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
